OIG Report # 14-01   The Office of Inspector General's Report on the Railroad Retirement Board's Financial
December 16, 2013    Statements begins on page 101 of the RRB's FY 2013 Performance and Accountability Report.




          RAILROAD RETIREMENT BOARD


PERFORMANCE AND ACCOUNTABILITY
           REPORT




                           FISCAL YEAR 2013
BLANK PAGE FOR PRINTING PURPOSES


                                             Railroad Retirement Board 

                                           ormance and
                                       Perfo          d Accounta ability Repo
                                                                            ort 

                                                  Fisca
                                                      al Year 20133




                                                      TABLE OF CONTE
                                                                   ENTS

                                                                                                                                          PAGE


Message from th
              he Board Members ....................
....................................................                                       3



Manag
    gement’s Discussion and Analy
                                ysis...............................................................
                                               
                                                                                               7


     Oveerview of the Railroad Re        etirement Bo      oard..................................................
                                                                                
                  
                 ....................      7


         Mission .....................................................................................................
                                                                                
                  
                 ....................      7


         Major Progra  am Areas ...............................................................................
                                                                                
                  
                 ....................      7


              Railroad
                     d Retirementt Act .....................................................................
                                                                                
                  
                 ....................      8


              Railroad
                     d Unemploym         ment Insuran       nce Act.............................................
                                                                                
                  
                 ....................      9


         Reporting Components ............................................................................
                                                                                
                  
                 ....................     10     

         RRB Organiizational Stru        ucture ..................................................................
                                                                                
                  
                 ....................     10     

         Financial Hig ghlights ..................................................................................
                                                                                
                  
                 ....................     13     

              Comparison of Net Cost of Operations and 
Financing Sources............................                                         15     

              Railroad
                     d Retirementt Investmentts at Treasurry...................................    
                 ....................     19     

              National Railroad Re       etirement Inv       vestment Trrust ................................
                                                                                                   
                 ....................     20     

     Proggram, Opera  ations, and Financial Performance a nd Results .
.......................................                                21     

        ategic Goals and Objectives ......................................................................
     Stra                                                                       
                  
                 ....................     22     

         Future Plans  s/Objectives     s ...........................................................................
                                                                                
                  
                 ....................     30     

              Programm Improveme         ents......................................................................
                                                                                
                  
                 ....................     30     

              Impropeer Payments Information Act (IPIA)........................................
                                                                                
                  
                 ....................     30     

              Systems s and Contro       ols ........................................................................
                                                                                
                  
                 ....................     31     

                  Management As         ssurances.............................................................
                                                                                
                  
                 ....................     33     

              Financiaal Manageme        ent Systems       s Strategy .........................................
                                                                                
                  
                 ....................     34     

              Summarry of Actuarial Forecast .........................................................
                                                                                
                  
                 ....................     34     

     Soccial Insurance: Key Mea         asures...................................................................
                                                                                
                  
                 ....................     35     

     Ame erican Taxpa  ayer Relief Act of 2012 ...........................................................
                                                                                
                  
                 ....................     37     

     Limitations of thhe Financial Statements ........................................................
                                                                                
                  
                 ....................     37     


Perform
      mance Section – Gove                ernment Pe         erformance         e and Resu        ults Act (GP       PRA) 

 Repoort ..................................................................................................................................   41






                                                                       I


                                                   TABLE OF CONTENTS


                                                                                                                                    PAGE



Financial Section ..................................................................................................... 57


     Message from the Chief Financial Officer ........................................................................                   57


     Financial Statements........................................................................................................        58


        Consolidated Balance Sheet ......................................................................................                58


        Consolidated Statement of Net Cost ..........................................................................                    59


        Consolidated Statement of Changes in Net Position .................................................                              60


        Combined Statement of Budgetary Resources ..........................................................                             62


        Statement of Social Insurance ...................................................................................                63


        Statement of Changes in Social Insurance Amounts .................................................                               64


     Notes to the Financial Statements ...................................................................................               66


     Required Supplementary Information ..............................................................................                   85


        Social Insurance….......…………………………………………………..………………...                                                                           85


            Program Financing……………………………………………………………………...                                                                               85


            Benefits…………………………………………………………………………………..                                                                                    86


            Program Finances and Sustainability…………………………………………………                                                                       86


        Disaggregate of Budgetary Resources ......................................................................                       96


     Auditor’s Report ...............................................................................................................    97



Other Accompanying Information.......................................................................... 109


     Inspector General’s Statement on Management and Performance Challenges ..............                                              109


     Management’s Comments ...............................................................................................              115


     Improper Payments Information Act (IPIA) Reporting Details ..........................................                              118


     Summaries of Financial Statement Audit and Management Assurances ........................                                          126



Appendices .............................................................................................................. 129


     Glossary of Acronyms and Abbreviations ........................................................................ 129


     RRB Board Members, Inspector General, and Executive Committee ............................. 132





     RRB’s fiscal year 2013 Performance and Accountability Report is available online at: www.rrb.gov




                                                                   II


MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK 

                           Message from the Board Members

This fiscal year 2013 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of
administering the retirement, disability, and survivor benefit programs provided under the
Railroad Retirement Act and the unemployment and sickness insurance benefit programs
provided under the Railroad Unemployment Insurance Act (RUIA). This report describes our
continuing efforts to provide timely and useful information to RRB managers, the Office of
Management and Budget (OMB), the Congress, and our constituents. We are proud of the
agency’s dedicated employees whose achievements are reflected in this report.

New legislation, the American Taxpayer Relief Act of 2012 (ATRA), was signed into law by
President Obama on January 2, 2013. The RRB began making extended unemployment
benefit payments under this Act on January 2, 2013, and has paid approximately $4.5 million in
these extended benefits through June 7, 2013, using remaining funds previously appropriated
under the Worker, Homeownership, and Business Assistance Act of 2009. The latest date that
an extended benefit period may begin under ATRA is December 31, 2013.

Under provisions of the Budget Control Act (BCA) of 2011, across-the-board cuts in Federal
spending took effect March 1, 2013. While railroad retirement, survivor and disability payments
are not affected by this measure, unemployment and sickness insurance benefits payable under
the RUIA are impacted. Benefits payable for days March 1 through September 30, 2013, were
reduced by 9.2 percent. The reduction was required by the sequestration order issued by the
President in accordance with the BCA. Since Congress and the Administration did not eliminate
sequestration for fiscal year 2014, a sequestration reduction was again applied on October 1,
2013.

We believe the performance and financial data presented in this report are complete and
reliable in accordance with OMB guidance. The adequacy and effectiveness of our
management controls and the compliance of our financial management systems with
governmentwide requirements are delineated in the Systems and Controls part of the
Management’s Discussion and Analysis section. That part also provides the status of the
actions we are taking and progress we are making to correct material weaknesses identified by
the Office of Inspector General in the internal control environment for information security (risk
management and configuration management).

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve.
We are also committed to prudent stewardship over the agency trust funds and the
administrative resources entrusted to us.


                                                                                Original signed by:

                                                                Michael S. Schwartz, Chairman
                                                              Walter A. Barrows, Labor Member
                                                         Jerome F. Kever, Management Member

                                                                                December 5, 2013



                                               -3-
PAGE INTENTIONALLY LEFT BLANK 

MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK 

                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930s,
numerous other railroad laws have been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   - 7 -

taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                - 8 -

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and legislation enacted in 2001 allows for Railroad Retirement (RR) Account funds transferred
to the National Railroad Retirement Investment Trust (NRRIT) to be invested in
non-governmental assets, as well as in governmental securities. Funds transferred from the
Social Security Equivalent Benefit (SSEB) Account to the NRRIT are allowed to be invested
only in governmental securities. The legislation also established the NRRIT, whose Board of
seven trustees oversees these investments. The Board of Trustees is comprised of three
members selected by rail labor, three members selected by rail management, and one
independent member selected by a majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2013, the
RRB trust funds realized a net of $4.0 billion, representing 41 percent of RRB financing sources
(excluding transfers to/from the NRRIT and the change in NRRIT net assets), through the
financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II, and vested dual benefits), and appropriations from
general Department of the Treasury (Treasury) revenues provided after 1974 as part of a
phase-out of certain vested dual benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work, and sickness insurance benefits are paid to
railroad workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.



                                                 - 9 -

Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of three administrative funds, four trust funds, two general funds, six
American Recovery and Reinvestment Act of 2009 (ARRA) funds, and two Worker,
Homeownership and Business Assistance Act of 2009 (WHBAA) funds.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is Walter A. Barrows, and the
Management Member is Jerome F. Kever. The President also appoints an Inspector General
for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the income and outlays of the agency’s
trust funds and accounts, statisticians and economists to provide vital data, and attorneys to
interpret legislation and represent the RRB in litigation. Internal administration requires a
procurement staff, a budget and accounting staff, quality assurance staff, and personnel
specialists. The Inspector General employs auditors and investigators to detect waste, fraud, or
abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -

                                                                          U.S. RAILROAD RETIREMENT BOARD

                                                                                              THE BOARD                     CHIEF ACTUARY *
                                                OFFICE OF
                                               INSPECTOR                        Chairman, Michael S. Schwartz                 BUREAU OF
                   OFFICE OF                     GENERAL
                    EQUAL                                                      Labor Member, Walter A. Barrows               THE ACTUARY
                                              Martin J. Dickman                                                               Frank J. Buzzi
                 OPPORTUNITY                                                 Management Member, Jerome F. Kever
                 Lynn E. Cousins


                                                                                       EXECUTIVE COMMITTEE
           SENIOR EXECUTIVE                    MEMBER                           MEMBER                   MEMBER                 MEMBER            MEMBER
               OFFICER                        Karl T. Blank                   Keith B. Earley        Martha M. Barringer     Daniel J. Fadden    Ram Murthy
            George V. Govan


                  CHIEF                     OFFICE OF                         OFFICE OF                  OFFICE OF              BUREAU OF            CHIEF
                FINANCIAL                GENERAL COUNSEL                    ADMINISTRATION              PROGRAMS              FIELD SERVICE      INFORMATION
                 OFFICER                    Karl T. Blank                    Keith B. Earley          Martha M. Barringer     Daniel J. Fadden      OFFICER

              BUREAU OF                                                                                                                           BUREAU OF
                 FISCAL                    OFFICE OF                        ACQUISITION                POLICY AND                                INFORMATION
              OPERATIONS                  LEGISLATIVE                       MANAGEMENT                  SYSTEMS
- 11 -




                                                                                                                                                   SERVICES
             George V. Govan                AFFAIRS                          Paul T. Ahern             Ronald Russo                                Ram Murthy
                                        Margaret S. Lindsley
                                                                            BUILDING AND               PROGRAM
                                                                              SUPPORT               EVALUATION AND
                                           BUREAU OF
                                                                            OPERATIONS                MANAGEMENT
                                          HEARINGS AND
                                                                              Scott Rush                SERVICES
                                            APPEALS
                                         Rachel L. Simmons                                           Janet M. Hallman

                                                                          BUREAU OF HUMAN
                                          SECRETARY TO                       RESOURCES                RETIREMENT
                                           THE BOARD                          Marguerite V.             BENEFITS
                                           Martha P. Rico                       Daniels              Cecilia A. Freeman

                                                                                                       SURVIVOR
                                                                          PUBLIC AFFAIRS               BENEFITS
                                                                          Michael P. Freeman          Valerie F. Allen

                                                                                                       DISABILITY
                                                                                                        BENEFITS
                                                                                                      John A. Bognar

                                                                                                     UNEMPLOYMENT
                   The Inspector General reports administratively to the Chairman.
                                                                                                     AND PROGRAMS
                   The Director of Equal Opportunity reports administratively to the                    SUPPORT
                   Director of Administration and programmatically to the Board.                     Micheal T. Pawlak

         * Non-voting member of the Executive Committee                                                                                          OCTOBER 2013
                                                                                                                   U.S. RAILROAD RETIREMENT BOARD
                   .~.-..-     .     Vv~SHI;~;--"_"_
                                                      Olv           '/"7"""-"-"_
                                                                                                                             District Office Map
                                                                                                                                                                                                                    .. -~-
                                                                         •                ,MONT"",,,                  •• _ •• _ ••
                                                            Spok8toe I  i                                                                       - ..- •• - .. _
                                                                   •i \                                                                                                --"-/~';;;;~~;;~~"-"-"
                                                                                                                                                                                                                M!"'NES~ ••
                                                                     ;                "                                                                                     !
                                                     OREGON
                                                            ._?_i ",                        /
                                                                                                                                                                                   fi
                                                                                            .... ''.                                           B    1'Ig~                          i
                                                                                                   \.                             .•                                           t;~~;~~:~-;;;;.·-·-·-·-·-·-·
                                                                                                       '._._.'[wvoi.;;,t·_·-·_·_·_._.. . ;                                                                                  St. Paul
                                                                                                       IDAHO          i                                                        .                                                      •
         c~7;;-....          J                                                                                        j
                                                                                                                                                                           .f
              O~"'~ - . _ . '
                                   1i~~;;.-._ ..L.
                                                                                                                      .
                                                                                                                      !                                                    !                                            ._._._._._._.
                                /                                  -·-·-'Tu-r.;;·_._.{                                                                                    r;;~-;;".-·-·-·-·-·
                                                                                                                                                                                                                     IOWA



                               /'                                                      /
                                                                                      ,.
                                                                                                                  .
                                                                                                                  I
                                                                                                                                                                          i•
                        ;                                                             i                •          ..._-_.-... -._._.                                      !                                                           •
           Ros"v; '"   i                                                          i        Sail La"e       C,ry                            I COlORA;;·--·-·_·_·L_·_'_
                                                                                                                                                                                          l.                        •
               •           \                                                      ;                                                       i                                                                 Omatla \ -_ _."._                 _   -{

                                \.                                               i;                                                       .i                       •                      !
                                                                                                                                                                                          t:;:-_._._._._._._._._.
- 12 -




                                     \                                        i                                                       I                           Oen_                    j KANSAS
                                         \                                   j                                                        i                                                  i
                                             \                            i                                                           ;                                                  j
                                                 \
                                                     \•                  1:'
                                                                            -- '_._ . !.                                                                                                 ii                                   I
                                                                         • ARIZ'CW.l\ - ' - . - . - -I-                                                                                 . •                                   i
                                                      \
                                                          "                                                               •
                                                                                                                                  I'N~~' -- '-'-'_'_!
                                                                                                                                                   ,''CO                 ._.,..•
                                                                                                                                                    ..L.._._._. ___W;cr.1;I    •
                                                                                                                                                                    ._._._._._."
                                                              '\                                                                  .                                             ,1.-.- ._.-....,     OKLAHOMA                         ~_._._._._:
                                                                                                                              !                                                     i TEXAS    •                                      ARKA NSAS             J..
                                                                                                                                                                                               !
                                •                                                                                             ,
                                                                                                                              •
                                                                                                                              ,
                                                                                                                                                .
                                                                                                                                               II.lbuQuer<::.ue                I
                                                                                                                                                                               ' i
                                                                                                                                                                                    I
                                                                                                                                                                                               I


                                                                                            •
                                                                                          ".~
                                                                                                                       t
                                                                                                                       I
                                                                                                                       ,                                                       ,J~'i                                              '
                                                                                                                                                                                                                                             Uttie- R<>ek



                                                               "                                                      .I                                                       I'                                                      ,
                                                                   '"                                                 ,                                                        i
                                                                         '..;                                                ,                                                                                  •                      rL     . - . -•• '
                                                                                                                                                                                                                                           lOUISIAAA
                                                                                      . . . .·.-..- .. L.r· . -. ·_--·--._._1                                                                             Ft WuM                       !




                                    LEGE ND

                       •            District Office



                                                                                                                                                                                                                                                                  ..-
                                                                                                                                                                                                                                                                        11·13
Financial Highlights

Amounts in the RR Account not needed to pay current benefits and administrative expenses are
transferred to the NRRIT whose Board of seven trustees is empowered to invest NRRIT assets
in non-governmental assets, such as equities and debt, as well as in governmental securities.
Amounts in the SSEB Account not needed to pay current benefits and administrative expenses
are transferred to either the RR Account or the NRRIT.

On January 2, 2013, President Obama signed the American Taxpayer Relief Act of 2012
(ATRA). For additional information on ATRA, see page 37.

Shown on the following page are snapshots of the net position, financing sources, and benefit
payments (before elimination of inter-fund transactions) for the RRB accounts. All dollar
amounts are in millions.




                                             - 13 -
                                Net Position, Financing Sources, and Benefit Payments
                                                      (In millions)

                                                                                                             2013              2012

NET POSITION AT SEPTEMBER 30
  Social Security Equivalent Benefit Account                                                                  $141.0            $798.5
  Railroad Retirement Account 1/                                                                             25,366.0          23,959.2
  Railroad Retirement Administration Fund                                                                        16.1               8.0
  Railroad Unemployment Insurance Trust Fund –
    Benefit Payments                                                                                            172.8             162.5
    Administrative Expenses 
                                                                                    12.3     	        11.4
  Limitation on the Office of Inspector General 
                                                                  .8                .7
  Dual Benefits Payments Account 
                                                                               10.7               9.7
  Federal Payments to the Railroad Retirement Accounts 
                                                         16.6              24.9

   American Recovery and Reinvestment Act of 2009
   Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars) 
                     9.6               9.6
   Economic Recovery Payments – Recovery Act 
                                                                      5.0               5.0
   Administrative Expenses – Recovery Act (no year dollars) 
                                                         -                 -
   Administrative Expenses – Recovery Act 
                                                                           -                 -
   Limitation on Administration – Recovery Act (no year dollars) 
                                                    -                 -
   Limitation on Administration – Recovery Act 
                                                                     .7                .7

   Worker, Homeownership and Business Assistance Act of 2009
   Railroad Unemployment Insurance Extended Benefits Payments (no year dollars) 
                               134.5 	           141.4
   Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments 
                             -

      Total                                                                                                $25,886.1          $25,131.6

FINANCING SOURCES FOR FISCAL YEAR
   Social Security Equivalent Benefit Account                                                                $6,318.3          $7,232.8
   Railroad Retirement Account 2/                                                                             6,162.3           6,142.6
   Railroad Retirement Administration Fund                                                                      116.4             117.8
   Railroad Unemployment Insurance Trust Fund –
     Benefit Payments                                                                                            95.4     	       198.8
     Administrative Expenses 
                                                                                     .9              (0.3)
   Limitation on the Office of Inspector General 
                                                                8.3               8.6
   Dual Benefits Payments Account 
                                                                              42.4              48.6
   Federal Payments to the Railroad Retirement Accounts 3/ 
                                                    647.1             771.0

   American Recovery and Reinvestment Act of 2009
   Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)
                        -                 -
   Economic Recovery Payments – Recovery Act 
                                                                        -                 -
   Administrative Expenses – Recovery Act (no year dollars) 
                                                         -                 -
   Administrative Expenses – Recovery Act 
                                                                           -                 -
   Limitation on Administration – Recovery Act (no year dollars) 
                                                    -                 -
   Limitation on Administration – Recovery Act 
                                                                      -                 -

   Worker, Homeownership, and Business Assistance Act of 2009
   Railroad Unemployment Insurance Extended Benefits Payments, (no year dollars) 
                                  7.0               6.5
   Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments 
                              .3                .5

      Total                                                                                                $13,398.4          $14,526.9


 1/ 	 NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above. 

 2/ 	 Change in NRRIT-held net assets is included in the Railroad Retirement Account above. 

 3/ 	 Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the 

      consolidated statements.




                                                                - 14 -
                                                                                                   2013            2012

BENEFIT PAYMENTS FOR FISCAL YEAR 4/
  Social Security Equivalent Benefit Account                                                       $6,862.6        $6,631.9
  Railroad Retirement Account                                                                       4,750.6         4,648.7
  Railroad Unemployment Insurance Trust Fund –
   Unemployment Insurance                                                                               42.5           34.6
   Sickness Insurance                                                                                   42.0           41.4
  Dual Benefits Payments Account                                                                        42.6           48.6

     American Recovery and Reinvestment Act of 2009
     Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)         ( .1)               -
     Economic Recovery Payments – Recovery Act                                                              -               -

     Worker, Homeownership, and Business Assistance Act of 2009
     Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                         6.9             6.4

       Total                                                                                      $11,747.1       $11,411.6


4/     Net of recoveries and offsetting collections; excludes SSA benefit payments.


The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

       Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2013 and 2012 was $11,982.5 million and
$11,657.7 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2012 to fiscal year 2013 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2013 and 2012 is shown on the following pages.


                                              NET COST OF OPERATIONS
                                                    (In millions)

                                                                                            Amount of        Percent of
                                                                                             Increase         Increase
                                                           FY 2013            FY 2012      (Decrease)       (Decrease)
  Interest expense – Treasury borrowing                     $ 108.7            $ 121.4      ($ 12.7)           (10.5%)
  Salaries and expenses                                         131.3              125.2         6.1             4.9%
  Benefit payments – RRB                                     11,766.5           11,433.2       333.3             2.9%
  Other expenses                                                 17.8               11.7         6.1            52.1%
    Subtotal                                                 12,024.3           11,691.5       332.8             2.8%
  Less: Earned revenues                                          41.8               33.8         8.0            23.7%
    Net cost of operations                                  $11,982.5          $11,657.7      $324.8             2.8%




                                                                - 15 -
                                           FY 2013


                                  NET COST OFF OPERATIONNS


                                        (In millions)


                                                                               Benefit Payments 

                                                                                  $11,,766.5 

                                                                                   97..86% 





      Salaries and
                 d

       Expenses 

        $131.3 
                           Other Expenses

                                ense 

                    Interest Expe               $17.8
         1.09%
                         $108.7                0.15%
                          0.90%



     Totals $12,024.3 million, excluding reimb
                                             bursements an
                                                         nd earned revenues of $41.8 million.




                                           FYY 2012


                                  NET COST OF OPERATION  NS


                                         (In millions)




                                                                               Benefitt Payments
                                                                                   $111,433.2
                                                                                     97.79%




Salaries and
 Expenses
   $125.2                                    Other Expense
                                                         es
    1.07%                                          $11.7
                                                   0.10%
                    Interest Exp
                               pense
                         $121.4
                         1.04%

     Totals $11,691.5 million, excluding reimb
                                             bursements an
                                                         nd earned revenues of $33.8 million.




                                               - 16 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2012 to fiscal
year 2013.


                                              FINANCING SOURCES
                                                  (In millions)

                                                                                 AMOUNT            PERCENT
                                                                                   OF                OF
                                                                                INCREASE          INCREASE
                                                 FY 2013        FY 2012        (DECREASE)        (DECREASE)

Appropriations used                              $    696.7     $    826.5        ($ 129.8)           (15.7)

Taxes and other non-exchange revenues:
 Payroll taxes                                       5,475.3        4,768.6            706.7            14.8
 Interest revenue and other income                      52.1           42.2              9.9            23.5
 Carriers refunds – principal                          (64.0)          (5.7)           (58.3)       (1,022.8)
 Railroad Unemployment Insurance (RUI)
  Revenue                                            110.7          209.7              (99.0)         (47.2)
     Subtotal                                    $ 5,574.1      $ 5,014.8         $    559.3            11.2

Imputed financing (amount to be provided
 by the Office of Personnel Management
 (OPM) to pay future retirement benefits to
 RRB employees)                                          8.8            9.9              (1.1)         (11.1)

Transfers in:
  Financial Interchange, net                       4,034.5        4,248.1          (213.6)             (5.0)
  NRRIT                                            1,581.0        2,026.0          (445.0)            (22.0)
     Subtotal                                    $ 5,615.5      $ 6,274.1        ($ 658.6)            (10.5)

Other:
 Change in NRRIT net assets                          1,370.6        1,495.3           (124.7)          (8.3)

 Subtotal                                        $13,265.7      $13,620.6        ($ 354.9)             (2.6)

Less: Transfers out to NRRIT                             0.0           0.0                0.0            0.0
Add: Gain/(Loss) in Contingency                      (514.6)         134.8            (649.4)        (481.8)
    Subtotal                                         (514.6)         134.8            (649.4)        (481.8)

 Total                                           $12,751.1      $13,755.4        ($1,004.3)            (7.3)




The most significant difference between the RRB’s financial statements for fiscal year 2012 and
fiscal year 2013 was the change in NRRIT net assets. The increase in NRRIT net assets of
$1,370.6 million is due to market fluctuations during the past year. There is a section on
page 20 that describes the NRRIT, and the NRRIT net assets balances for 2012 and 2013 are
shown in the RRB’s Financial Section of this publication.




                                                       - 17 -
                              FINANCING SOURCES (In Millions) 

                                         FY 2013 

   6,000        $5,615.5                   $5,574.1


   4,000



   2,000                                                                          $1,370.6
                                $696.7
                                                                   $8.8
       0
                Transfers    Appropriations   Taxes and Other     Imputed     Change in NRRIT
                   In            Used          Non-Exchange      Financing      Net Assets
                                                 Revenues
  (2,000)



  (4,000)

                                                                                                �



   Total Financing Sources $13,265.7 million, excluding $514.6 million loss contingency.




                               FINANCING SOURCES (In Millions) 

                 $6,274.1                 FY 2012

     6,000
                                                $5,014.8

     4,000



     2,000                                                                      $1,495.3
                                 $826.5
                                                                  $9.9
            0
                 Transfers   Appropriations   Taxes and Other    Imputed     Change in NRRIT
                    In           Used          Non-Exchange     Financing      Net Assets
                                                 Revenues
    (2,000)



    (4,000)




Total Financing Sources $13,620.6 million, excluding $134.8 million gain contingency.




                                               - 18 -
   Railro
        oad Retireme
                   ent Investme
                              ents at Treas
                                          sury

The bookk value of all railroad rettirement inve
                                               estments, inccluding accrrued interestt, decreasedd to
$1,630.1 million as of September 30, 2013, from $1,632.8 million on    n Septemberr 30, 2012
(excludes
        s NRRIT nett assets). The graph be     elow reflects the book va
                                                                       alue of the ra
                                                                                    ailroad retire
                                                                                                 ement
       ents from Se
investme            eptember 30,, 2009, throu  ugh September 30, 2013   3.




The following chart shows the po
                               ortfolio of the
                                             e railroad rettirement inve
                                                                       estments ass of
Septemb ber 30, 2013.

               RAILR
                   ROAD RETIREMENT INVE
                                      ESTMENTS H ELD AT TRE
                                                          EASURY
                            AS OF SEPTE
                                      EMBER 30, 2 013

                                      AT BOOOK VALUE
                                       Total $1,630.1

                            (In millions, excluding NRRIT nett assets)
                                                                           RR Accounnt
                                                                             $789.1
                                                                              48%



               SSEB
              Account
              $841.0
                52%




                                                 - 19 -
     Railroad Retirement Account

On September 30, 2013 and 2012, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $789,094,545 and $704,533,913,
respectively. The balance on September 30, 2013, consisted of $787,983,000 in
3.000 percent par value specials (with market value equal to face value) maturing on
October 1, 2013, and $1,111,545 in accrued interest. The balance on September 30, 2012,
consisted of $703,531,000 in 3.000 percent par value specials (with market value equal to face
value) maturing on October 1, 2012, and $1,002,913 in accrued interest. Par value specials
mature on the first working day of the month following the month of issue and have a yield
based on the average yield of marketable Treasury notes with maturity dates at least 3 years
away.

     Social Security Equivalent Benefit Account

On September 30, 2013 and 2012, the book values of the SSEB Account investments, including
accrued interest, totaled $841,032,832 and $928,271,039, respectively. The balance on
September 30, 2013, consisted of $839,635,000 in 3.000 percent par value specials maturing
on October 1, 2013, and $1,397,832 in accrued interest. The balance on September 30, 2012,
consisted of $926,882,000 in 3.000 percent par value specials maturing on October 1, 2012,
and $1,389,039 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal Government and not
subject to Title 31, United States Code (USC). The NRRIT is domiciled in and subject to the
laws of the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the RRA. The RRSIA does not
delegate any authority to the RRB with respect to day-to-day activities of the NRRIT, but the
RRSIA provides that the RRB may bring a civil action to enjoin any act or practice of the NRRIT
that violates the provisions of the RRSIA or to enforce any provision of the RRSIA.




                                                  - 20 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Operations, a Statement of Cash Flows, a Statement on Internal Accounting and
Administrative Control Systems, the independent auditor’s report, and any other information
necessary to inform the Congress about the operations and financial condition of the NRRIT. A
copy of the annual report must also be submitted to the President, the RRB, and the Director of
OMB.

Program, Operations, and Financial Performance and Results

During fiscal year 2013 (ended September 30, 2013), railroad retirement and survivor benefit
payments totaled $11.7 billion, net of recoveries and offsetting collections. Railroad
unemployment and sickness insurance benefit payments totaled $84.5 million in fiscal year
2013, net of recoveries and offsetting collections. During fiscal year 2013, the RRB also paid
benefits on behalf of SSA (for which the RRB is reimbursed) amounting to $1.4 billion to about
113,000 beneficiaries.

In fiscal year 2013, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2013 included:

      Providing payments to 568,000 retirement and survivor beneficiaries.
      Providing payments to 11,000 unemployment insurance beneficiaries.
      Providing payments to 16,000 sickness insurance beneficiaries.
      Processing 28,764 retirement, survivor, and disability applications for benefits (through
       May 31, 2013).
      Processing 171,267 applications and claims for unemployment and sickness insurance
       benefits (through May 31, 2013).
      Issuing 268,190 certificates of employee railroad service and compensation (mailed on
       June 19, 2013.

During fiscal year 2013, the RRB used 18 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with a direct appropriation of $108,734,464 for
ongoing administration of the RRB. (A breakdown of administrative expenses by strategic goal
is not available at the time of this report.) Agency performance with respect to the key
performance indicators is covered in the following section. For most performance measures,
actual full-year performance results for fiscal year 2013 were not available at the time this report
was published. For those objectives, we reported part-year performance information for fiscal
year 2013, if available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. For fiscal year 2013, we expect to
meet or exceed most of our timeliness goals and increase Internet services available to
employers.




                                               - 21 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2013, we expect that benefit payment accuracy rates will exceed
99 percent.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in processing retirement/survivor and unemployment/sickness
insurance benefits, while embracing new technology, especially in areas where it can improve
customer service and efficiency. We have also achieved very high scores for customer service
in independent assessments of our operations related to initial railroad retirement applications,
unemployment and sickness insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. Our Annual Performance Plan for
Fiscal Year 2013 reflects two strategic objectives that focus on the specifics of achieving this
goal.

      Pay benefits timely.
      Provide a range of choices in service delivery methods.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. Our
performance budget reflects four objectives that direct our focus on this goal.

      Ensure that trust fund assets are protected, collected, recorded and reported
       appropriately.
      Ensure the accuracy and integrity of benefit programs.
      Ensure effectiveness, efficiency, and security of operations.
      Effectively carry out responsibilities with respect to the NRRIT.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.



                                               - 22 -
Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. The RRB has implemented comprehensive
administrative procedures to ensure that reported performance information is accurate and
valid. Administrative Circular RRB-2 establishes standards and assigns responsibility for
collecting, documenting, validating, certifying, reporting and retaining information related to the
actual performance data reported for objectives in the RRB’s Annual Performance Budget and
Government Performance and Results Act Report.

The procedures require that reporting managers develop and maintain written procedures for:

      Collecting data related to each objective,
      Testing and validating performance data to ensure accuracy,
      Retaining source documents for future reference, and
      Attesting to the accuracy of performance information reported.

Members of the RRB’s Planning Council review the certified performance data and attestations
for completeness and identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of the RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.

                            __________     __________      __________


The following begins a discussion of our key performance indicators.




                                               - 23 -
Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective II-B-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2013 goal:                99.75% 

Our FY 2013 performance: 99.72%                           Initial Retirement Payment Accuracy


              through the 2nd quarter
                                                        100%
We are not yet achieving our goal, but we
expect to meet the goal by the end of fiscal             99%
year 2013. Automation plays a key role in
assuring initial benefit payment accuracy by             98%
reducing the number of erroneous payments.                        FY 10    FY11     FY12     FY 13
                                                        Goal     99.75%   99.75%   99.75%   99.75%
FY 2012 goal:            99.75% 
                       Actual   99.58%   99.79%   99.75%   99.72%

Our FY 2012 performance: 99.75% 


Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                               - 24 -
Key performance indicator 2: Unemployment insurance payment accuracy
(Objective II-B-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2013 goal:                99.60%
Our FY 2013 performance: 99.77%
              through the 2nd quarter
                                                               Unemployment Insurance Payment
We are achieving our goal. Automation plays                                Accuracy
a key role in assuring benefit payment accuracy                 (FY 13 actual is through 3/31/13)
by reducing the number of erroneous
payments.
                                                      100%
FY 2012 goal:            99.60%
Our FY 2012 performance: 99.83%                        99%


Data definition: This is the percentage of the         98%
                                                                  FY10      FY11      FY 12      FY 13
dollar value of unemployment insurance benefit
                                                      Goal       99.40%    99.60%    99.60%     99.60%
payments paid correctly as a result of
                                                      Actual      100%      100%     99.83%     99.77%
adjudication actions performed, based on a
review of a sample of cases.



Key performance indicator 3: Sickness insurance payment accuracy (Objective II-B-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2013 goal:                99.80%
                                                         Sickness Insurance Payment
Our FY 2013 performance: 98.83%                                   Accuracy
              through the 2nd quarter                  (FY 13 actual is through 3/31/13)

We are not yet achieving our goal, but we
                                                      100%
expect to meet the goal by the end of fiscal
year 2013. Automation plays a key role in
assuring benefit payment accuracy by reducing          99%
the number of erroneous payments.
                                                       98%
FY 2012 goal:            99.85%                                   FY 10     FY 11     FY 12      FY 13
Our FY 2012 performance: 99.37%                       Goal       99.80%    99.85%    99.85%     99.80%
                                                      Actual     99.94%    99.71%    99.37%     98.83%
Data definition: This is the percentage of the
dollar value of sickness insurance benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                             - 25 -
Key performance indicator 4: Timeliness of initial railroad retirement annuity payments,
when advanced filed (Objective I-A-1)

FY 2013 goal:              95.0%
Our FY 2013 performance: 95.1%                           The RRB makes a decision to pay or deny a 

              through the 2nd quarter                   railroad retirement employee or spouse initial 

                                                           annuity application within 35 days of the 

                                                          annuity beginning date, if advanced filed. 

We are meeting our goal. Automation plays a                    (FY 13 actual is through 3/31/13) 

key role in assuring benefit payment timeliness for
this performance indicator.
                                                       100%
FY 2012 goal:            95.0%
Our FY 2012 performance: 96.3%                          95%

Data definition: This goal is included in the RRB
                                                        90%
Customer Service Plan.
                                                        85%
                                                                 FY 10       FY 11      FY 12      FY 13
                                                       Goal     99.75%      92.75%      95.0%      95.0%
                                                       Actual   96.16%      96.0%       96.3%      95.1%




Key performance indicator 5: Timeliness of initial railroad retirement annuity payments, if
not advanced filed (Objective I-A-2)

FY 2013 goal:                96.8%                        The RRB makes a decision to pay or 

Our FY 2013 performance: 96.9%                           deny a retirement employee or spouse 

              through the 2nd quarter                   initial annuity application within 60 days 

                                                          of the date the application was filed. 

                                                             (FY 13 actual is through 3/31/13) 

We are meeting our goal. Automation plays a
key role in assuring benefit payment timeliness
for this performance indicator.                        100%

FY 2012 goal:            96.8%
                                                        98%
Our FY 2012 performance: 97.9%
                                                        96%
Data definition: This goal is included in the RRB
Customer Service Plan.
                                                        94%
                                                                FY 10       FY 11      FY 12      FY 13
                                                       Goal     96.8%       96.8%      96.8%      96.8%
                                                       Actual   96.9%       97.9%      97.9%      96.9%




                                              - 26 -
Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-3)

FY 2013 goal:                94.2%
Our FY 2013 performance: 94.4%
              through the 2nd quarter                       RRB makes a decision to pay, deny or transfer 

                                                               to SSA an initial annuity application for a 

We are meeting our goal. Automation plays                     retirement survivor not already receiving a 

a key role in assuring benefit payment                      benefit within 60 days of the annuity beginning 

                                                                  date or date filed, whichever is later. 

timeliness for this performance indicator.                          (FY 13 actual is through 3/31/13) 


FY 2012 goal:            94.0%
                                                         100%
Our FY 2012 performance: 94.8%
                                                          95%
Data definition: This goal is included in the
RRB Customer Service Plan.                                90%

                                                          85%

                                                          80%
                                                                   FY 10        FY 11       FY 12       FY 13
                                                         Goal      93.0%        93.5%       94.0%       94.2%
                                                         Actual    96.1%        96.3%       94.8%       94.4%




Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-4)

FY 2013 goal:                95.2%
Our FY 2013 performance: 95.1%                                RRB makes a decision to pay, deny or 

              through the 2nd quarter                     transfer to SSA an initial annuity application 

                                                          for a survivor already receiving benefits as a 

                                                           spouse within 30 days of the RRB's receipt 

We are not yet achieving our goal, but we                    of first notice of the employee's death. 

expect to meet the goal by the end of                            (FY 13 actual is through 3/31/13)


fiscal year 2013. Automation plays a key 

role in assuring benefit payment timeliness 

for this performance indicator.                          100%


                                                         95%
FY 2012 goal:            95.2%
Our FY 2012 performance: 95.6%                           90%

Data definition: This goal is included in the            85%
RRB Customer Service Plan.
                                                         80%
                                                                  FY 10        FY 11       FY 12       FY 13
                                                         Goal     95.1%        95.2%       95.2%       95.2%
                                                         Actual   95.3%        95.8%       95.6%       95.1%




                                                - 27 -
Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-6)

FY 2013 goal:                99.8%
Our FY 2013 performance: 99.9%                              RRB certifies a payment or releases a
                                                             letter of denial of UI or SI benefits
              through the 2nd quarter                        within 10 days of the date the RRB
                                                                      receives the claim.
We are meeting our goal. Automation plays a key               (FY 13 actual is through 3/31/13)
role in assuring benefit payment timeliness for this
performance indicator.
                                                         100.0%
FY 2012 goal:            99.8%                            99.8%
Our FY 2012 performance: 99.9%
                                                          99.6%

Data definition: This goal is included in the RRB         99.4%

Customer Service Plan.                                    99.2%
                                                          99.0%
                                                                     FY 10    FY 11    FY 12    FY 13
                                                           Goal      99.8%    99.8%    99.8%    99.8%
                                                           Actual    99.9%    99.9%    99.9%    99.9%




Key performance indicator 9: Timeliness of disability decisions (Objective I-A-7)

FY 2013 goal:                70.0%
Our FY 2013 performance: 75.8%                             The RRB makes a decision to pay or
              through the 2nd quarter                     deny a benefit for a disabled applicant
                                                           or family member within 100 days of
We are exceeding our goal.                                    the date the application is filed.
                                                             (FY 13 actual is through 3/31/13)

FY 2012 goal:            70.0% 

Our FY 2012 performance: 74.9%                           100% 



Data Definition: This goal is included in the             80%
RRB Customer Service Plan.
                                                          60%


                                                          40%
                                                                    FY 10    FY 11    FY 12    FY 13
                                                         Goal       70.0%    70.0%    70.0%    70.0%
                                                         Actual     68.9%    67.5%    74.9%    75.8%




                                                - 28 -
Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-4)

FY 2013 goal:            $4.28 : $1
                                                             Achieve a return of at least $3.60 for
Our FY 2013 performance: Not available                      each dollar spent on program integrity
                                                                          activities.
FY 2013 data will be available in FY 2014.

FY 2012 goal:            $4.28 : $1                        $6.00
Our FY 2012 performance: $4.55 : $1
                                                           $4.00

We exceeded our goal. In November 2010, we
                                                         $2.00
discovered that not all program integrity cost
information was being used to compile the
                                                         $0.00
program integrity ratio – most significantly, the                FY 10    FY 11     FY 12     FY 13
cost of a major monitoring activity was not being        Goal    $5.48    $3.60     $4.28     $4.28
captured, even though the benefits of that               Actual  $5.51    $5.46     $4.55
process were included. As a result, we adjusted
the fiscal year 2011 target for this indicator from
$5.48: $1.00, to an adjusted level of $3.60: $1.00, which is consistent with the initial statement
of the objective.

As part of our fiduciary responsibilities to the rail community, we must ensure that the correct
benefit amounts are being paid to the right people. We match our benefit payments against
SSA’s earnings and benefits database, the Centers for Medicare & Medicaid Services’ utilization
and death records, the Office of Personnel Management’s benefit records, and State wage
reports, usually via computer tapes, and administer other benefit monitoring programs to identify
and prevent erroneous payments. We also refer some cases to the RRB’s OIG for
investigation. After investigation, the OIG may pursue more aggressive collection methods,
which include civil and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings, to the labor
dollars spent.




                                               - 29 -
Future Plans/Objectives

      Program Improvements

		     Patient Protection and Affordable Care Act The Patient Protection and Affordable
        Care Act of 2010 provides for an Income-Related Monthly Adjustment Amount (IRMAA) to
        be added to the Medicare prescription drug plan (Part D) premiums paid by high-income
        beneficiaries beginning in January 2011. This provision allows for the collection of Part D
        IRMAA through withholding from railroad retirement benefit checks or through direct
        billing. We implemented Part D IRMAA collection in January 2011 through direct billing,
        utilizing the existing Program Accounts Receivable system as a temporary approach to
        effect timely compliance with the law. Work is now proceeding to implement premium
        withholding from railroad retirement benefit checks with the support of contractual staff
        from Booz, Allen and Hamilton. Implementation is projected for fiscal year 2014.

		     Employer Reporting System (ERS) – Internet Site In fiscal year 2014, we will develop
        Form G-88p which is required for the payment of supplemental annuities. We also plan to
        develop an automated referral process to notify employers of the agency’s right to
        reimbursement of benefits paid under sections 12(o) and 2(f) of the RUIA.

        Beginning in fiscal year 2015, we plan to develop Form BA-9, Report of Separation
        Allowance or Severance Pay, which is another on-line employer reporting form. We will
        also create Forms G-73a.1, Notice of Death; RL-5a, Notice of Annuity Award to provide
        employers with information about benefit payment and eligibility; and Form GL-132, Notice
        of Service after ABD, a data correction form that allows employers to update their
        employee records on-line. Replacing these paper-based processes will improve customer
        service by providing information to employers that affects their own benefit payments to
        their employees. These processes will also further our efforts to enhance stewardship by
        securing and protecting personally identifiable information.

      Improper Payments Information Act (IPIA)

		     Improper Payment Related Initiatives To improve the accuracy of our benefit
        payments, we are pursuing the following initiatives:

        o		 development of an enhanced automated retirement payment system to replace the
            current legacy system that processes retirement applications, planned for fiscal year
            2014,
        o		 development of an interface between systems to ensure accurate use of military
            service in the calculation of benefits, tentatively scheduled for completion in fiscal year
            2014,
        o		 expansion of a Medicare premium collection database to include Part B premium
            withholding history, tentatively scheduled to begin in fiscal year 2014,
        o		 development of an interface between ORCS (Overpayment Recovery Correspondence
            System) and payment programs to ensure that the most current data is retrieved and
            used in the development of cases involving overpayment recovery. Current plans are
            to complete this initiative by the end of fiscal year 2013, with similar enhancements to
            RUIA and Medicare overpayment recovery to follow during fiscal year 2014,
        o		 continued development in fiscal year 2013 of SPEED (System Processing Excess
            Earnings Data), a multi-phase automation initiative designed to process annuity



                                                 - 30 -
         adjustments resulting from excess earnings and work deductions on a timely basis,
         and
     o		 continued development in fiscal year 2013 of enhanced electronic data processing
         (EDP) policing to monitor earnings information and reduce manual handlings of
         records.

See the IPIA reporting details for further discussion of these automation initiatives.

   Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its legal, program, information services, administrative, and financial operations,
the RRB has divided these operations functionally into 44 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2013, responsible officials performed in-depth reviews of 14 assessable units, assessed all 44,
and certified 40.

In fiscal year 2011, the OIG identified Budgetary Reporting as a material weakness. In fiscal
year 2013 budgetary training was conducted and the OIG identified a significant improvement in
the preparation of the statement of budgetary resources. As a result, the OIG made a decision
to downgrade the material weakness to a significant deficiency.

During the fiscal year 2011 evaluation of the agency’s information security pursuant to the
provisions of the Federal Information Security Management Act (FISMA), the OIG identified a
new significant deficiency regarding Information Technology Security – Configuration
Management. FISMA significant deficiencies are reported as material weaknesses for the
financial statement audit. In fiscal year 2013 OIG auditors found that weaknesses associated
with the configuration management of some agency systems continue to be found. Although
agency managers are working to remediate these weaknesses, management action had not
been completed as of the end of the current period.

In fiscal year 2013, the OIG evaluated the RRB’s information security program pursuant to the
provisions of FISMA. OIG auditors found that weaknesses regarding the review of contractor
deliverables associated with the risk management continue to be found. Although agency
managers are working to strengthen controls, management action had either not been
completed as of the end of the current reporting period, or had not been in place long enough to
permit evaluation.


                                               - 31 -
The agency is committed to resolving these reported weaknesses and will closely monitor
progress during fiscal year 2014.




                                            - 32 -
                                     Management Assurances

The Railroad Retirement Board states and assures that to the best of our knowledge:

1. 	 In accordance with OMB Circular No. A-123, Section VI (B), we are issuing a qualified statement of
     assurance considering the OIG-identified material weaknesses indicated under paragraph (4).
     Except as indicated under (4), the system of internal control of this agency is functioning and provides
     reasonable assurance as to the: efficiency and effectiveness of programs and operations; reliability
     of financial and performance information; and compliance with laws and regulations. These controls
     satisfy the requirements of the Federal Managers’ Financial Integrity Act (FMFIA) §2.

2. 	 The financial management systems of this agency maintain accountability for assets and provide
     reasonable assurance that obligations and costs are in compliance with applicable law, and that
     performance data and proprietary and budgetary accounting transactions applicable to the agency
     are properly recorded and accounted for to permit the timely preparation of accounts and reliable
     performance information. The financial management systems at this agency satisfy the requirements
     of the FMFIA §4.

3. 	 The financial management systems of this agency provide the agency with reliable, timely, complete,
     and consistent performance and other financial information to make decisions and efficiently operate
     and evaluate programs and substantially satisfy the requirements of the GPRA and OMB Circular
     No. A-11.

4. 	 The RRB’s Inspector General, in his auditor’s report, identifies Information Technology Security –
     Risk Management, and Information Technology Security – Configuration Management as material
     weaknesses. Budgetary Reporting has been downgraded to a significant deficiency.


                          Description of OIG-Identified Material Weaknesses

1. 	 During fiscal year 2011, the OIG inspected the internal control environment regarding the
     authorization and continuous monitoring process, which includes risk assessments and testing and
     evaluation of security controls and is still considered to be a material weakness for Information
     Technology Security – Risk Management Framework.

    In fiscal year 2012, the RRB continued to strengthen the information security review process but the
    material weakness still exists and will continue to be reported as such for fiscal year 2013.

2. 	 The OIG recently identified Information Technology Security – Configuration Management as a
     material weakness in fiscal year 2011. Corrective actions are in place but the material weakness still
     exists and will continue to be reported as such for fiscal year 2013.

3. 	 During fiscal year 2011, the OIG identified Budgetary Reporting as a material weakness. The agency
     has added additional controls for the budgetary reporting process, and the material weakness has
     been downgraded to a significant deficiency for fiscal year 2013.


                                                                                         Original signed by:

                                                                          Michael S. Schwartz, Chairman
                                                                        Walter A. Barrows, Labor Member
                                                                   Jerome F. Kever, Management Member




                                                   - 33 -
   Financial Management Systems Strategy

The RRB has continually upgraded its financial system structure to meet evolving standards and
requirements. Our strategy is, and has been, to continually upgrade and improve the financial
management systems structure. The RRB is committed to an integrated and automated
financial management system that focuses on the agency’s mission and accountability. Our
goals are to (1) achieve compliance with applicable laws, regulations, standards, and
requirements; (2) identify requirements for financial systems support; (3) improve and facilitate
user access to financial information; (4) reduce redundant data entry, storage, and processing;
and (5) improve security, control, and disaster recovery capability for information processed and
stored on mainframe, local area network, and personal computer systems.

During fiscal year 2013, core financial management functions continued to be centralized in a
mainframe-based system (the Federal Financial System (FFS)) under a maintenance contract
between the RRB and CGI. At the same time, RRB stakeholders and CGI staff began work to
migrate the RRB’s financial system (FFS) to a new cloud-based platform called the Financial
Management Integrated System (FMIS) based on CGI’s proprietary software – Momentum
Financials. Momentum Financials represents the next generation of financial management
software after FFS.

The migration to FMIS will close performance gaps with Federal Systems Integration Office
(FSIO) requirements and meet a large number of RRB-specific requirements. In addition,
automated functionality will be added in the areas of contract writing, fixed asset recording and
financial reporting. It will also enable RRB to meet Treasury due dates for major initiatives
including the Governmentwide Treasury Account Symbol Adjusted Trial Balance System
(GTAS) and Payment Application Modernization (PAM) which will enable RRB to become a
GWA reporter.

RRB staff, including major stakeholders along with functional and technical subject matter
experts, are conducting migration activities with CGI according to a comprehensive project plan
centering on requirements analysis, data conversion, training and testing. Production in the
new cloud-based system will commence in October 2013 (fiscal year 2014) with final sunset of
FFS in November, following all fiscal year 2013 processing.

   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2013, under our intermediate employment
assumption. The Required Supplementary Information presents sensitivity analyses showing
the impact of changes in employment and investment return assumptions. Although under our
intermediate assumption no cash flow problems arise over the period 2013-2087, the sensitivity
analyses show that, under the current financing structure, actual levels of railroad employment
and investment return over the coming years will determine whether additional corrective action
is necessary.




                                              - 34 -

Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2013-2023. The results
indicate that, except for small short-term cash flow problems in fiscal years 2015 and 2016
under the pessimistic assumption, the Railroad Unemployment Insurance (RUI) Account will be
solvent during the 11-year projection period.

Social Insurance: Key Measures

Balance Sheet: The Balance Sheet displayed in the Financial Section presents our assets,
liabilities, and net position. Total assets for fiscal year 2013 are $31.6 billion, a 5.2% increase
over last year. Of the total assets, $25.0 billion relates to funds held by the National Railroad
Retirement Investment Trust (NRRIT). The net asset value of funds held by the NRRIT
increased from fiscal year 2012 by 5.8%. Our investments total $1.6 billion and we invest those
funds not needed to pay current expenses or benefits in interest bearing Treasury securities. A
chart of investment balances held at Treasury can be found on page 19. Total liabilities for
fiscal year 2013 are $5.7 billion. Liabilities increased in fiscal year 2013 principally because of
an increase of borrowing from Treasury. Also, benefits due increased by $52.1 million. By
statute, benefits due in September are not paid until October.

Statement of Net Cost: The Statement of Net Cost displayed in the Financial Section
presents the annual cost of operating our two major programs: railroad retirement and railroad
unemployment insurance. In fiscal year 2013, our net cost of operations was $12.0 billion, an
increase over last year of $324.8 million, or 2.8%. A chart for the net cost of operations for
fiscal years 2013 and 2012 can be found on page 15.

Statement of Changes in Net Position: The Statement of Changes in Net Position displayed
in the Financial Section reflects the changes that occurred within cumulative results of
operations and unexpended appropriations. Total net position for 2013 is $25.9 billion. The
statement shows an increase in the net position of the agency of $754.4 million attributable to
the change in cumulative results of operations. Total financing sources for 2013 are
$12.8 billion. A chart for financing sources for fiscal years 2013 and 2012 can be found on
page 17.

Statement of Social Insurance: Federal accounting standards require the presentation of a
Statement of Social Insurance as a basic financial statement. The Statement of Social
Insurance presents estimates of the present value of the income to be received from or on
behalf of current and future participants of the Railroad Retirement program, the present value
of the cost of providing scheduled benefits to those same individuals, and the difference
between the income and cost. The Statement of Social Insurance covers a period of 75 years
in the future, and the information and disclosures presented are deemed essential to the fair
presentation of this statement.

The open group as of the valuation date includes current participants who have attained
retirement age under the Railroad Retirement program, current participants who have not yet
attained retirement age, and those expected to become participants, or new entrants. The
closed group as of the valuation date includes only current participants: (1) those who have not
yet retired but are active workers paying payroll taxes, (2) those who have retired and are
receiving benefits, and (3) those who are not currently working but have sufficient service to be
eligible for future benefits. The closed group measure represents a reasonably good estimate
of the extent to which benefits of the closed group are funded by members of the closed group.
The open group measure is inherently more sensitive to assumptions about the distant future

                                               - 35 -

  than the closed group measure. The open group measure gives a more complete assessment
  of the long-term financial stability of the program because it includes all those who are projected
  to be participants in the program over the given projection period, whether paying payroll taxes
  or receiving benefits.

  The net present value (NPV) of future expenditures less future revenue (net expenditures) for all
  participants over the next 75 years (open group) increased from $22.7 billion as of
  December 31, 2011 to $23.9 billion as of December 31, 2012, a net change in the open group
  measure of $1.2 billion.

  As can be seen on the Statement of Changes in Social Insurance Amounts, the largest change
  in the open group measure, $1.5 billion, is due to changes in economic data and assumptions.
  Select assumptions for COLA and investment return were updated in 2013, as described in the
  footnotes to the Statement of Changes. The change in the valuation period (from 2012-2086 to
  2013-2087) had a lesser effect, resulting in a change of about $0.3 billion in the open group
  measure. There were no changes in demographic assumptions, but there were updates to
  demographic data. These had a relatively small effect, resulting in a change of less than
  $0.1 billion. This year there were no changes in law, policy, or methodology and programmatic
  data.


                                      TABLE               OF         KEY           MEASURES
                                                                                                                 Increase        /    (Decrease)
               Dollars in MILLIONS                               FY 2013                   FY 2012
                                                                                                                     $                    %

COSTS1
Total Financing Sources                                             $12,751.1               $13,755.4             (1,004.3)                 (7.30)
    Less: Net Cost                                                   11,982.5                 11,657.7              324.8                    2.79
Net Change of Cumulative Results of Operations                          768.6                  2,097.7           (1,329.1)                 (63.36)


NET POSITION2
Assets                                                              $31,625.4               $30,054.9             1,570.5                    5.23
Liabilities                                                           5,739.3                  4,923.3              816.0                   16.57
Net Position (Assets minus Liabilities)                              25,886.1                25,131.6               754.5                    3.00



                                                                                                                 Increase        /    (Decrease)3
               Dollars in BILLIONS                              1/1/2013                   1/1/2012
                                                                                                                     $                    %

                         4
SOCIAL INSURANCE
Social Insurance Net Expenditures (Open Group)                          $23.9                    $22.7                   $1.2                  5.3%

1 	 Source: Consolidated Statement of Net Cost and Statement of Changes in Net Position.
2 	 Source: Consolidated Balance Sheet.
3 	 Based on unrounded figures.
4 	 Source: Statement of Social Insurance (SOSI). Social insurance amounts cover calendar year time frames January 1 through December 31. Amounts
   equal estimated present value of projected revenues and expenditures for scheduled benefits over the next 75 years. The Statement of Social
   Insurance shows future revenue less future expenditures while the Key Measure above shows future expenditures less future revenue. This change in
   presentation is done to eliminate any ambiguity in the interpretation of percentage changes in negative amounts.




                                                                      - 36 -

American Taxpayer Relief Act of 2012

The American Taxpayer Relief Act of 2012 (ATRA), was signed into law by President Obama on
January 2, 2013.

ATRA includes a 1-year extension of previous legislative provisions, offering extended
unemployment benefits to anyone who claims regular unemployment benefits through June 30,
2013, and exhausts rights to regular benefits. Under the previous extensions, including the
American Recovery and Reinvestment Act (ARRA) of 2009, the Worker, Homeownership, and
Business Assistance Act (WHBAA) of 2009, and the Middle Class Tax Relief and Job Creation
Act of 2012, railroad workers with less than 10 years of service were eligible for up to 65 days of
extended unemployment benefits, while workers with 10 or more years of service could receive
up to 130 days of extended benefits. To qualify for these benefits, the employee had to claim
regular unemployment benefits between July 1, 2008, and June 30, 2013.

The RRB began making payments under this Act on January 2, 2013, and has paid
approximately $4.5 million of these extended benefits through June 7, 2013, using remaining
funds previously appropriated under the WHBAA. The latest date that an extended benefit
period may begin under the ATRA is December 31, 2013.

Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 USC 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.




                                               - 37 -

PAGE INTENTIONALLY LEFT BLANK 

            PERFORMANCE SECTION – 


GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA) 

                  REPORT 

PAGE INTENTIONALLY LEFT BLANK 

Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives for fiscal year
2013 from the RRB’s Annual Performance Plan. The indicators we developed support our
mission and communicate our intentions to meet challenges and seek opportunities for greater
efficiency, effectiveness and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality and
customer satisfaction. In addition, the annual performance plan is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors
and monitored on an agency-wide basis.

Automation, e-Government and Customer Service Initiatives

The RRB is continuing with long-term plans to implement significant automation initiatives and
other improvements. These changes have enabled the agency to operate with reduced
resources in recent years and continue to streamline our operations with the assistance of
information technology. We believe that significant new investments in information technology
and further management improvements will help us to meet or exceed our customer service
goals efficiently.

In fiscal year 2013, we initiated the next phase of the ERSNet project to develop automated
processes to notify employers of the need for additional information and to provide a means for
correcting the data. These include the Form G-88a.2, which requests annuity eligibility
information from rail employers and Form G-88a.1, for verification of last date on the payroll.
Development of these forms will provide two additional services in fiscal year 2013.

We are also completing contractor-assisted enhancements to the ERSNet system that improve
the functionality of the forms already in use. Finally, we plan to implement enhanced system
accessibility so employers who file reports for multiple companies can access the ERSNet
system with one multi-user account.

Work continued on SPEED (System Processing Excess Earnings Data), an automation initiative
designed to process post-entitlement annuity adjustments in both retirement and survivor cases
that result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
payments for earnings on a timely basis, which minimizes any underpayments or overpayments
that may result from changes in earnings. SPEED is being built in a multi-phase approach. The
first five phases of this initiative automated the handling of several survivor year-end actions;
annuity adjustments when Last Person Earnings (LPE) work deductions are removed; and
adjustments for cases that involve both retirement regular and LPE cease work reports. During
fiscal year 2013 we will automate the download of current survivor earnings estimates from the
Survivor Payments System to perform the necessary survivor annuity adjustments and
notifications and permanent work deductions. In future phases, we plan to automate the
process to initiate LPE and regular temporary work deductions in response to earnings
estimates from retirement beneficiaries, which will support our long range plan of automating
permanent work deductions for both retirement and survivor beneficiaries.


                                             - 41 -
Work continued during fiscal years 2012 and 2013 on an enhanced automated retirement
payment system which will replace the current legacy system that processes retirement
applications (commonly referred to as Retirement Adjudication System Initial to Application
Express [RASI to APPLE] Conversion). The enhanced process will improve the accuracy and
efficiency of retirement initial claims, as it will automatically interface with the Social Security
Administration’s (SSA) benefit payment system to provide real-time offset data. The new
system will also allow for the payment of such application types as divorced spouse annuitants,
which previously could not be processed automatically. As of June 2013, the target for
completion of the enhanced system is fiscal year 2014. Future enhancements include the
development of a system interface to ensure the accurate use of military service in the
calculation of benefits.

Work also continued during fiscal years 2012 and 2013 on an initiative to redesign the
Overpayment Recovery and Correspondence System (ORCS) to automatically interface with
other on-line and mainframe applications. The redesigned system will completely automate the
retrieval of overpayment recovery data for benefits under the Railroad Retirement Act (RRA),
RUIA and Medicare. The system will also include a letter writing and calculation summary
process. The RRA enhancements are targeted for implementation during fiscal year 2013
followed by RUIA and Medicare during fiscal year 2014.

The Patient Protection and Affordable Care Act of 2010 provides for an Income-Related Monthly
Adjustment Amount (IRMAA) to be added to the Medicare Part D premiums paid by high-
income beneficiaries beginning in January 2011. This provision allows for the collection of
Part D IRMAA through withholding from railroad retirement benefit checks or through direct
billing. We implemented Part D IRMAA collection in January 2011 through direct billing, utilizing
the existing Program Accounts Receivable system. During fiscal year 2013, work continued on
implementing premium withholding from railroad retirement benefit checks. Work on this project
is expected to be completed in fiscal year 2014.

Treasury regulations require recipients of Federal nontax payments to receive payment by
electronic funds transfer (EFT). In 2011, the RRB introduced the Direct Direct Express®
program to beneficiaries who do not have a bank account or who do not choose direct deposit
of their payments to an account at a financial institution. The Direct Express® Debit Master
Card® program is a prepaid card program established pursuant to terms and conditions
approved by Treasury. As of June 1, 2013, there were 2,007 beneficiaries enrolled in the
program. The RRB also began offering International Direct Deposit (IDD) in April 2011, to RRA
beneficiaries who reside in foreign countries. As of June 1, 2013, there were 1,639
beneficiaries enrolled in the IDD program. Additionally, the RRB worked with Treasury to
complete program changes that will allow child support payments that are withheld from RRB
benefits and paid to State agencies to be made by EFT. Work to convert the RRA and RUIA
daily payments is underway and expected to be completed by October 1, 2014.

In fiscal year 2012, work began on a project to enhance our Electronic Data Processing (EDP)
policing program, which will address the internal handling and automated matching of earnings
information received from our data match with the Social Security Administration. The first
phase of the project, which involved the automation and capture of earnings information stored
in the Retirement On-Line Calculations (ROC) system (an on-line system for calculating and
paying retirement annuities), has been completed. Work continues on updating the LPE
process to capture the latest monthly earnings and average monthly earnings amounts. The
information will be used in the EDP process to monitor earnings information, eliminate


                                               - 42 -
redundant information, and reduce the number of records referred to the claims adjudication
units.

Sequestration of Railroad Unemployment Insurance Act (RUIA) Benefits

Under provisions of the Budget Control Act (BCA) of 2011, across-the-board cuts in Federal
spending took effect March 1, 2013. While railroad retirement, survivor and disability payments
are not affected by this measure, unemployment and sickness insurance benefits payable under
the RUIA are impacted. Benefits payable for days March 1 through September 30, 2013, are
being reduced by 9.2 percent. The reduction is required by the sequestration order issued by
the President in accordance with the BCA. In the event that Congress and the Administration
do not eliminate sequestration for fiscal year 2014, a sequestration reduction will be applied
starting on October 1, 2013, and beyond.

Succession Planning and Training

Like many agencies, the RRB has an aging workforce. About 65 percent of our employees
have 20 or more years of service and nearly 28 percent of the current workforce will be eligible
for retirement by fiscal year 2014. To prepare for the expected turnover, the agency is placing
increased emphasis on strategic management of human capital. Each organization has
completed workforce planning documents that identify staffing levels, projected attrition and
planned hiring through fiscal year 2015, subject to available funding. Each executive also
completed a gap analysis for his/her organization that identified potential areas of skills and
knowledge gaps that will need to be addressed, identified areas where additional training may
be necessary or where mentoring may be desirable to prepare employees for more senior
positions, and identified areas of new skills that may need to be addressed through outside
hires.

Recently, the agency has been able to utilize the re-employment of retirees to allow retirees
under the Civil Service Retirement System and the Federal Employees Retirement System to
be temporarily rehired without losing entitlement to their retirement annuities under Section
1122(a) of Public Law 111-84, which amended sections 8344 and 8468 of Title 5 of the United
States Code. The agency has been able to rehire several annuitants on a temporary basis to
assist in areas that have knowledge gaps due to attrition.

The RRB is also devoting more attention and resources to training and has provided meaningful
training programs for our employees. We have offered courses in the areas of performance
management, and managerial and supervisory development, and we recently provided
negotiation training and “train the trainer” sessions for employees. We also make use of
technology in this area, utilizing our on-line presentation facility, RRBVision, which allows
employees to view training, including a video component, in an online format. In addition, all
field managers now have ready access to the latest webinar technology to facilitate the remote
training of new employees, as well as the ongoing training of experienced field staff. Lastly, we
have purchased and implemented a new computer-based software package – Learning
Management System (LMS), which effectively formalizes all aspects of training for all agency
employees, while also providing self-assessments to the student and feedback to supervisors
on their progress. These initiatives are particularly useful to employees and managers in the
agency’s field offices.




                                              - 43 -
Systems Security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services.

To ensure mission continuity, plans and procedures exist to maintain continuity of operations
after a calamity for information systems that support the operations and assets of the RRB. The
RRB’s Continuity of Operations plan consists of a number of components, including an
Occupant Emergency Plan, a Business Continuity Plan, a Crisis Management Communication
Plan, and technically specific plans for mainframe, local area network (LAN), data
communications, and desktop recovery. The agency regularly conducts semi-annual off-site
disaster recovery exercises. System programmers restore the systems and applications of the
agency from back-ups retrieved from an alternate data storage facility. Program libraries are re­
created and production databases established. Finally, business analysts verify that the
systems recovered correctly.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. We have a full training program that combines a security
awareness presentation with additional role-based training appropriate to the RRB’s information
technology environment. Every employee and contractor with computer network access
participates in this annual event. Individuals who do not use a computer receive physical
security awareness information. In addition to the awareness presentation, computer analysts,
software developers and network/system engineers also receive specialized technical education
necessary to maintain their skills and enhance proficiency. The formal awareness-training
program is supplemented by a weekly Security News feature story, prominently headlined on
the Intranet’s home page, reminding people to protect their computers and information
throughout the year. Every year, the RRB awareness program has been able to report
exemplary levels of participation.

The RRB kicked off its basic awareness training in April of 2013 using a web based basic
awareness program offered by SANS (an industry leader in security training called “Securing
the Human.” Employees and contractors were required to complete 9 assigned training topics
such as how to identify social engineering, how to perform safe browsing, and more.
Additionally, employees with increased security responsibilities in performing the security
authorization and continuous monitoring of their respective information systems were required
to complete (ISC)2™ Certified Authorization Professional (CAP)® Certification Prep Course
available on the virtual training environment provided at www.fedvte-fsi.gov. This training will
enhance their understanding in systems security analysis, computer network defense, and
vulnerability assessment and management. Other staff with increased security responsibilities
will also be required to complete specific training for their respective roles and responsibilities
later in the year.




                                               - 44 -
Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software, and intrusion detection systems to prevent viruses, worms,
spam and malicious content from infiltrating the network, as well as to ensure that critical data
and sensitive information are not compromised. To buttress these proactive threat
management resources in the event of a successful malware attack, the agency has
implemented a robust incident response capability. Utilizing the capabilities of a special forensic
analysis workstation, the RRB Computer Emergency Response Team has the ability to conduct
forensic collection and analysis of electronic evidence from almost any type of digital media in
use today. The RRB has also established an Agency Core Response Group to determine if
there is a reasonable expectation that an incident may be a data breach with the potential for
identity theft, and notifies the Board members who will make the final decisions regarding
breach notification.

The Security Authorization process is integral to the information security programs of Federal
agencies. Performing the security authorization process helps provide an understanding of the
risks and other factors that could adversely affect the agency’s mission for all of the agency
information systems. The RRB developed a Security Authorization strategy for fiscal year 2013
that is in line with the National Institute for Standards and Technology (NIST) Risk Management
Framework (RMF) strategy. The agency will employ a continuous monitoring strategy that will
increase the effectiveness of our current information security program, performing annual risk
assessments, as well as testing all security controls applicable to the information system.

Integrating security into the System Development Life Cycle (SDLC) in the RRB Information
System program is essential. To ensure that all RRB applications are developed securely,
standards need to be established using industry standards identified by security professionals.
The RRB has implemented a secure RRB SDLC procedure, implementing standards from
guidelines such as:

      Microsoft Security Development Lifecycle, 

      Open Web Application Security Project (OWASP) Guide to Building Secure Web 

       Applications, and 

      The OWASP secure coding practices. 





                                              - 45 -
                                      Program Evaluations


   Program Evaluation                               Results in Fiscal Year 2013
Federal Managers’
                              See “Systems and Controls” in the “Management’s Discussion and
Financial Integrity Act
                              Analysis” section.
Reports

Twenty-Fifth Actuarial        The Chief Actuary’s report describes the results of three valuations,
Valuation of the Assets and   each differing from the others as to the employment assumption on
Liabilities Under the         which it is based. Cash flow problems arise only under the most
Railroad Retirement Act as    pessimistic employment assumption. Even under that assumption, the
of December 31, 2010          cash flow problems do not occur until the year 2035.

Railroad Unemployment         The report, which was released in June 2013, addressed the fiscal year
Insurance System, annual      period 2013 through 2023. The report indicated that even as maximum
report required by section    benefits are expected to increase 70 percent from 2012 to 2023,
7105 of the Technical and     experience-based contribution rates are expected to keep the
Miscellaneous Revenue Act     unemployment insurance system solvent. The report did not include any
of 1988                       recommendations for financing changes at this time.

                              The RRB continuously monitors the timeliness and accuracy of our
Customer service              performance in managing program workloads. These results are
performance reports           reflected in the performance objectives shown in the chart on the
                              following pages, and published on our website at www.rrb.gov.

                              The RRB’s program integrity report for fiscal year 2012, released in
                              January 2013, showed that program integrity activities resulted in the
Program integrity report      establishment of about $11.7 million in recoverables, recovery of
                              $13.9 million, benefit savings of $798,000, and the referral of 34 cases
                              to the Office of Inspector General.

                              RRA adjudicative and payment accuracy is measured in regular
                              diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews
                              RRB’s Program Evaluation and Management Services (PEMS)
and special studies
                              component. PEMS also evaluates policies and processes through
                              special studies, as needed. PEMS reports to the Director of Programs.

                              Advisory doctors, representing the rail industry (labor and management),
                              are authorized by law to review agency medical decisions. An audit was
Occupational disability       done in 2000; another audit was completed in 2008. In addition,
reviews                       consulting physicians from Consultative Examinations, Ltd. perform a
                              quarterly quality review of disability documentation to ensure it is
                              adequate to support medical decisions.

                              See “Inspector General’s Statement on Management and Performance
RRB Office of Inspector
                              Challenges” and “Management’s Comments” in the “Other
General audits
                              Accompanying Information” section.




                                                - 46 -
   Program Evaluation                             Results in Fiscal Year 2013
                           Results of performance budget monitoring are shown in the chart of
                           performance objectives on the following pages. Actual performance
Performance budget
                           data are reviewed, validated and certified prior to inclusion in this report.
monitoring
                           Validation and certification processes are documented as part of the
                           RRB’s management control review process.

                           All of the RRB’s general support systems and all major applications are
Computer security and      authorized to operate in compliance with the Federal Information
privacy assessment         Security Management Act, Office of Management and Budget directives
                           and National Institute of Standards and Technology guidance.

Electronic government
                           See pages 41 and 42 of this section.
(e-Gov) activities

Improper payment           See “Improper Payments Information Act (IPIA)” in the “Other
evaluation                 Accompanying Information” section.



  The next page begins a consolidated presentation of our actual performance in fiscal
  year 2010 through March 31, 2013 (except as noted), followed by a discussion of our
  unmet performance goals and objectives for fiscal year 2013. At the time this report was
  prepared, we had incomplete information on our fiscal year 2013 performance. The
  discussion of any unmet fiscal year 2013 performance goals and indicators will be
  presented in next year’s report. This performance report was prepared by RRB
  employees.




                                              - 47 -
         Railroad Retirement Board                               2010 Actual    2011 Actual    2012 Actual   2013 Planned 1/   2013 Actual 1/
         FY 2013 Performance Plan                               (At $109.1m)   (At $108.9m)   (At $108.6m)    (At $108.6m)     (At $108.7m)



         STRATEGIC GOAL I: Provide Excellent Customer Service


         Performance Goal I-A: Pay benefits timely.
                                                         Martha M. Barringer, Director of Programs
         Goal leader for objectives I-A-1 through I-A-8:
                                            Rachel L. Simmons, Director of Hearings and Appeals
         Goal leader for objective I-A-9:

         I-A-1. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 35 days of the annuity        96.16%          96.0%          96.3%           95.0%            95.1%
         beginning date, if advanced filed.
         (Measure: % ≤ 35 days)
- 48 -




         1-A-2. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 60 days of the date the        96.9%          97.9%          97.9%           96.8%            96.9%
         application was filed.
         (Measure: % ≤ 60 days)


         I-A-3. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
         railroad retirement survivor not already receiving a
                                                                   96.1%          96.3%          94.8%           94.2%            94.4%
         benefit within 60 days of the annuity beginning
         date, or date filed (whichever is later).
         (Measure: % ≤ 60 days)
         Railroad Retirement Board                                2010 Actual    2011 Actual    2012 Actual   2013 Planned 1/   2013 Actual 1/
         FY 2013 Performance Plan                                (At $109.1m)   (At $108.9m)   (At $108.6m)    (At $108.6m)     (At $108.7m)


         I-A-4. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
         railroad retirement survivor already receiving the
                                                                    95.3%          95.8%          95.6%           95.2%            95.1%
         benefits as a spouse within 30 days of the RRB’s
         receipt of first notice of the employee’s death.
         (Measure: % ≤ 30 days)

         I-A-5. RRB makes a decision to pay or deny a
         lump sum death benefit within 60 days of the date
                                                                    98.3%          98.3%          98.4%           98.1%            98.8%
         the application was filed.
         (Measure: % ≤ 60 days)

         I-A-6. RRB certifies a payment or releases a letter
         of denial of UI or SI benefits within 10 days of the
                                                                    99.9%          99.9%          99.9%           99.8%            99.9%
         date RRB receives the claim.
         (Measure: % < 10 days)
- 49 -




         I-A-7. RRB makes a decision to pay or deny a
         benefit for a disabled applicant or family member
                                                                    68.9%          67.5%          74.9%           70.0%            75.8%
         within 100 days of the date the application is filed.
         (Measure: % ≤ 100 days)


         I-A-8. RRB makes a payment to a disabled
         applicant within 25 days of the date of decision or                                                                       93.4%
                                                                    96.2%          96.0%          96.8%           95.0%
         earliest payment date, whichever is later.
         (Measure: % < 25 days)



         I-A-9. Reduce the number of days elapsed
         between the date an appeal is filed and a decision          252            300           336 2/          316 3/             310
         is rendered. (Measure: average elapsed days)
         Railroad Retirement Board                               2010 Actual    2011 Actual    2012 Actual   2013 Planned 1/     2013 Actual 1/
         FY 2013 Performance Plan                               (At $109.1m)   (At $108.9m)   (At $108.6m)    (At $108.6m)       (At $108.7m)


         Performance Goal I-B: Provide a range of choices in service delivery methods.
                      Martha M. Barringer, Director of Programs
         Goal leader:
         I-B-1. Offer electronic options to our customers,
         allowing them alternative ways to perform primary
                                                                 18 services   19 services    19 services      19 services         19 services
         services via the Internet or interactive voice
                                                                  available     available      available        available           available
         response systems. (Measure: Number of
         services available through electronic media)
         I-B-2. Enable employers to
         use the Internet to conduct
         business with the RRB, in              a) Employers
                                                                   81.2%          84.0%          85.0%           84.0%               85.0%
         support of the Government                using ERS:
         Paperwork Elimination Act.
         (Measures: percentage of
         employers who use the on-line
- 50 -




         Employer Reporting System                               10 Internet    17 Internet    19 Internet     25 Internet
                                                  b) Internet                                                                  19 Internet services
         (ERS); number of services                                services       services       services        services
                                                    services:                                                                        available
         available through electronic                             available      available      available       available
         media)

         STRATEGIC GOAL II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources


         Performance Goal II-A: Ensure that trust fund assets are protected, collected, recorded, and reported appropriately.
                      George V. Govan, Chief Financial Officer
         Goal leader:
         II-A-1. Debts will be collected through billing,
         offset, reclamation, referral to outside collection
         programs, and a variety of other collection efforts.
         (Measure for fiscal years through 2011: funds
                                                                   59.0%          54.0%          97.7%           85.0%               96.3%
         collected / total debts outstanding. Measure for
         fiscal years after 2011: total overpayments
         recovered in the fiscal year / total overpayments
         established in the fiscal year.)
         Railroad Retirement Board                                2010 Actual       2011 Actual       2012 Actual   2013 Planned 1/   2013 Actual 1/
         FY 2013 Performance Plan                                (At $109.1m)      (At $108.9m)      (At $108.6m)    (At $108.6m)     (At $108.7m)


         Performance Goal II-B: Ensure the accuracy and integrity of benefit programs.
           Goal leader: Martha M. Barringer, Director of Programs


                                                    a) Initial
         II-B-1. Achieve a railroad                                 99.58%            99.79%           99.75%          99.75%            99.72%
                                                  payments:
         retirement benefit payment
         recurring accuracy rate 4/ of at
         least 99%. (Measure: percent         b) Sample post
         accuracy rate)                             recurring     Deferred 5/       Deferred 5/        99.97 %         99.75%            99.80%
                                                   payments:


         II-B-2. Achieve a railroad         a) Unemployment:         100%              100%            99.83%          99.60%
         unemployment/sickness                                                                                                           99.77%
- 51 -




         insurance benefit payment
         accuracy rate 4/ of at least
         99%. (Measure: percent
         accuracy rate)                          b) Sickness:       99.94%            99.71%           99.37%          99.80%            98.83%


         II-B-3. Maintain the level of Railroad Retirement
         Act (RRA) improper payments below 2.5% of RRA           New indicator     New indicator
         outlays. (Measure: percent of improper RRA              for fiscal year   for fiscal year      0.59%           0.59%            0.54%
         payments as reported for the Improper Payments                2012              2012
         Information Act)

         II-B-4. Achieve a return of at least $3.60 for each
         dollar spent on program integrity activities.
         (Measure for fiscal years 2010 - 2011: recoveries                                                                            FY 13 data not
                                                                 $5.51: $1.00      $5.46: $1.00      4.55: $1.00     $4.28: $1.00
         and savings per dollar spent. Measure for fiscal                                                                               available
         years 2012 and following: recoverables and
         savings per dollar spent.)
         Railroad Retirement Board                              2010 Actual        2011 Actual       2012 Actual   2013 Planned 1/      2013 Actual 1/
         FY 2013 Performance Plan                              (At $109.1m)       (At $108.9m)      (At $108.6m)    (At $108.6m)        (At $108.7m)


         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.
                      Frank Cassarino, Acting Chief Information Officer
         Goal leader:
                                                                                                      Yes. The
                                                                                                        RUIA
                                                                                                     conversion                        Yes. The design
                                                                                                        was                                phase of the
                                                                                                                       Yes. The
                                                                                                    completed in                      Payment Rate and
                                                                                                                     conversion of
                                                                 Yes. The        Yes. We expect        October                        Entitlement History
         II-C-1. Complete modernization of RRB                                                                     the Employment
                                                                 Medicare          to finish the     2012. We                          (PREH) database
         processing systems in accordance with long-range                                                                Data
                                                               database was      RUIA database         began                          will be completed in
         planning goals. (Measure: Meet target dates for                                                             Maintenance
                                                               converted on       conversion by      conversion                         December 2013,
         the project. Yes/No)                                                                                       database was
                                                                  9/26/10.           2/29/12.       work on the                       and the target date
                                                                                                                     completed in
                                                                                                    Employment                       for the conversion of
                                                                                                                    January 2013.
                                                                                                        Data                            the database is
- 52 -




                                                                                                    Maintenance                         December 2014.
                                                                                                       (EDM)
                                                                                                     database.

         Performance Goal II-D: Effectively carry out responsibilities with respect to the National Railroad Retirement Investment
         Trust.
           Goal leader: Karl T. Blank, General Counsel
         II-D-1. Timely review information reported by the
         National Railroad Retirement Investment Trust to
         carry out RRB’s oversight responsibility under        New indicator      New indicator
         section 15(j)(5)(F) of the Railroad Retirement Act.   for fiscal year    for fiscal year       Yes             Yes                  Yes
         Reports are to be reviewed within 30 days of                2012               2012
         receipt.
         (Measure: Yes/No)


         Footnotes are on the following page.
         1/ 	 Planned amounts reflect the fiscal year 2013 performance targets shown in the RRB’s Congressional Justification of Budget Estimates,
              released on April 11, 2013. Actual results represent status as of March 31, 2013, unless otherwise noted.

         2/ 	 The original target for FY 2012 was 250 days but adjusted to 336 days due to expected retirement of experienced staff in this area.

         3/ 	 The target for FY 2013 is 310. In July 2012, staff hiring took place to replace retired personnel and restore the workload process.

         4/ 	 The payment accuracy rate is the percentage of dollars paid correctly as a result of adjudication actions performed.

         5/ 	 The quality review of post recurring payments was deferred in fiscal year 2010 because the accuracy rates historically had been very high,
              and the findings minimal. The return on measuring this area every year had diminished over time. Review was deferred again in fiscal year
              2011 to allow staff to complete work on a special quality assurance case review started in fiscal year 2010.
- 53 -
    Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2012


                 INDICATOR                                DISCUSSION OF VARIANCE

Performance indicator I-B-2(b). Enable            We could not fully implement our 20th service,
employers to use the Internet to conduct          the electronic Web version of Form G-88a.2,
business with the RRB, in support of the          which is used to report railroad service
Government Paperwork Elimination Act.             information needed for benefit eligibility,
(Measure: number of services available through    because additional mainframe interface
electronic media)                                 programming is required in APPLE, one of our
                                                  claims adjudication systems. Completion of this
Our fiscal year 2012 goal was 20 services, and    programming is scheduled for fiscal year 2013.
the actual was 19 services.


Performance indicator II-B-2 (b). Achieve a       Our payment accuracy is determined by a
railroad sickness insurance benefit payment       sample review. The performance goal was set
accuracy rate of at least 99%.                    at an approximate target level, and the
(Measure: percent accuracy rate)                  deviation of 0.48% was not statistically
                                                  significant related to our projected accuracy
Our fiscal year 2012 goal was 99.85%, and the     range. There was no effect on overall program
actual was 99.37%.                                or activity performance




                                              - 54 -
FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK 

                                         Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2013. This
report incorporates the annual performance report under the Government Performance and Results
Act of 1993, the internal control report under the Federal Managers’ Financial Integrity Act, and
audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus on the
agency’s mission and accountability. We strive to maintain an environment in which program and
financial managers work in partnership to ensure the integrity of financial information and use that
information to make decisions, measure performance, and monitor outcomes. In this environment,
we envision integrated financial management systems with appropriate internal review and controls
that provide agency managers with timely, accurate, and easily accessible information. We expect
managers throughout the agency to use that information to achieve program objectives in a
cost-effective manner and to ensure accountability.

The RRB continued to provide high quality financial management and financial reporting during fiscal
year 2013.

    		   We received a disclaimer audit opinion on our consolidated financial statements for fiscal
          year 2013. We continued to prepare unaudited quarterly financial statements and met the
          revised schedule of releasing these statements to OMB.

    		   We implemented audit recommendations as follows:

          At the beginning of fiscal year 2013, the agency’s audit follow-up tracking system reported
          194 audit recommendations as being open. During the fiscal year, audit reports containing
          another 72 recommendations were issued. As a result, the total number of open
          recommendations during the year was 266. At the same time, final action was completed on
          49 audit recommendations and 12 audit recommendations were rejected, resulting in a
          balance at the end of the fiscal year of 205 open recommendations. Additionally, the status
          of the OIG-identified material weaknesses and planned corrective action are presented in the
          Management’s Discussion and Analysis’ Management Assurances section.

In fiscal year 2013, the RRB completed on schedule and within budget the migration from its legacy
Federal Financial System (FFS) to a new core financial system, the Financial Management
Integrated System (FMIS), hosted by the shared service provider, CGI Federal.

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.


                                                                                    Original signed by:

                                                                                     George V. Govan
                                                                                 Chief Financial Officer




                                                 - 57 -

RAILROAD RETIREMENT BOARD
CONSOLIDATED BALANCE SHEET
AS OF SEPTEMBER 30, 2013 AND 2012
(in dollars)

                                                                                   FY 2013             FY 2012

ASSETS

Intragovernmental:
 Fund Balance with Treasury (Note 3)                                                $247,567,952        $239,740,171
 Investments (Note 4)                                                              1,630,127,377       1,632,804,952
 Accounts Receivable (Note 6)                                                      4,692,789,232       4,497,442,952

Total Intragovernmental                                                            6,570,484,561       6,369,988,075

 NRRIT Net Assets (Note 5)                                                        25,011 ,942,697     23,641 ,360,813
 Accounls Receivable, Net (Note 6)                                                    38,019,007          41,426.279
 Inventory and Related Property, Net (Note 7)                                                    0             91.118
 General Property, Plant and Equipment, Net (Note 8)                                   4,439.124           1,992.640
 Other                                                                                    521 .029             50,289

TOTAL ASSETS                                                                     $31 ,625,406,418    $30,054,909.214

LIABILITIES (Note 9)

Intragovernmental:
 Accounts Payable                                                                  $571 .088.990       $504.725.619
 Debt                                                                              3.629.533.607       3,445.603,447
 Other                                                                                 1,025,794           1.122.091

Total Intragovernmental                                                            4,201 ,648,391      3,951 ,451 ,157

 Accounts Payable                                                                         61,441             415.677
 Benefits Due and Payable                                                          1,003,032.809         950.926.348
 Other                                                                               534.581 .328         20,481,001

TOTAL LIABILITIES                                                                  5,739,323,969       4,923.274,183

COMMITMENTS AND CONTINGENCIES (Note 10)

NET POSITION
Unexpended Appropriations - Funds from Dedicated Collections (Note 17)                16.609.802          24.889,493
Unexpended Appropriations - All Other Funds                                          159.884.958         165.734.487
Cumulative Results of Operations - Funds from Dedicated Collections (Note 17)     25.708.930.611      24.940.353.973
Cumulative Results of Operations - All other Funds                                       657.078             657.078

Total Net Position-Funds from Dedicated Collections                               25.725.540,413      24.965.243,466
Total Net Position-All Other Fund s                                                  160,542,036         166.391 .565

TOTAL NET POSITION                                                                25,886,082,449      25,131 ,635,031

TOTAL LIABILITIES AND NET POSITION                                               $31,625,406,418     $30,054,909,214


                       The accompanying notes are an integral part of these financial statements
                                                       - 58-
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF NET COST
FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
(in doliars)
                                                                    FY 2013              FY 2012

Program Costs:
 Railroad Retirement Program
     Gross Costs (Note 11)                                      $11 ,895,638,573     $11,569,123,333
     Less : Earned Revenue                                            23,486,121           13,208,883
     Net Program Costs                                           11 ,872,152,452      11 ,555,914,450


 Railroad Unemployment and Sickness Insurance Program
     Gross Costs (Note 11)                                          128,668,333          122,457,724
     Less: Earned Revenue                                            18,268,983           20,611 ,899
     Net Program Costs                                              110,399,350          101 ,845,825


Costs Not Assigned to Programs                                                 o                     o
Less: Earned Revenues Not Attributed to Programs                          24 ,879               28,071

NET COST OF OPERATIONS                                          $11,982,526,923      $11,657,732,204

                   The accompanying notes are an integral part of these financial statements.




                                              - 59-
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2013
(in dollars)
                                                                                    FY 2013


                                                    Funds from
                                                    Dedicated           All Other                               Consolidated
                                                    Collections           Funds               Eliminations         Total

Cumulative Results of Operations:

 Beginning Balances                               $24,940,353,973           $657 ,078                           $24 ,941 ,011 ,051

Budgetary Financing Sources:
 Appropriations Used                                  647 ,088,939        49,655 ,315                               696,744,254
 Non-Exchange Revenue                               6,221,075,209            127,091          (647 ,088 ,939)     5,574,113,361
 Transfers in from NRRIT (Note 12)                  1,581,000,000                                                 1,581 ,000,000
 Transfers in/out Without Reimbursement             4,034,737,999                                 (250,000)       4,034,487,999

Other Financing Sources (Non-Exchange):
 Imputed Financing                                      8,750,053                                                     8,750,053
 Change in NRRIT Assets                             1,370,581,884                                                 1,370,581 ,884
 Loss Contingency                                    (514,573,990)                                                 (514,573,990)

 Total Financing Sources                           13,348,660,094         49,782,406          (647 ,338,939)     12,751 ,103,561
 Net Cost Of Operations                            12,580,083,456         49,782,406          (647,338 ,939)     11,982,526 ,923
 Net Change                                           768,576,638                                                   768,576,638

 Cumulative Results of Operations                  25,708,930,611            657,078                             25,709,587,689


Unexpended Appropriations:
 Beginning Balances                                    24 ,889,493       165,734,487                                190,623,980

Budgetary Financing Sources:
 Appropriations Received                              638,886,050         45,250 ,000                               684,136,050
 Other Adjustments                                        (76,802)        (1,444 ,214)                               (1,521 ,016)
 Appropriations Used                                 (647,088,939)       (49,655 ,315)                             (696,744,254)

 Total Budgetary Financing Sources                     (8,279,691 )        (5,849,529)                               (14,129,220)

 Total Unexpended Appropriations                       16,609,802        159,884,958                                176,494,760

 Net Position                                     $25,725,540,413       $160,542,036                            $25,886,082,449


                                 The accompanying notes are an integral part ofthese financial statements




                                                          - 60-
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2012
(in dollars)
                                                                                    FY 2012


                                                  Funds from
                                                   Dedicated            All Other                              Consolidated
                                                  Collections            Funds                Eliminations        Total

Cumu lative Results of Operations:

  Beginning Balances                             $22,842,686,914            $658,236                           $22 ,843,345,150

Budgetary Financing Sources:
 Appropriations Used                                  771,007,122         55,491,483                                826,498,605
  Non-Exchange Revenue                              5,785,741 ,383           118, 149         (771,007,1 22)      5,014,852,410
 T ransfers in from NRR1T (Note 12)                 2,026,000 ,000                                                2,026 ,000,000
 Transfers inlout Without Reimbursement             4,248,582,000                                 (500,000)       4,248,082,000

Other Financing Sources (Non-Exchange):
  Imputed Financing                                     9,851,806                                                     9,851,806
  Change in NRRIT Assets                            1,495,323,282                                                 1,495,323,282
  Other Gains                                         134,790,002                                                   134,790,002

  Total Financing Sources                         14,471 ,295,595         55,609 ,632         (771 ,507,122)     13,755,398,105
  Net Cost Of Operations                                                  55,610 ,790         (771,507 ,122)     11,657,732,204
  Net Change                                                                  (1,158)                             2,097,665,901

  Cumulative Results of Operations                24,940,353,973             657,078                             24,941,011,051


Unexpended Appropriations :
  Beginning Balances                                   21,045,822        171 ,324,503                              192,370,325

Budgetary Financing Sources:
 Appropriations Received                              774,911 ,855        51 ,500,000                               826,411,855
 Other Adjustments                                         (61 ,062 )     (1 ,598,533 )                              (1,659,595)
 Appropriations Used                                 (771,007,122)       (55,491,483)                              (826,498,605)

  Total Budgetary Financing Sources                     3,843,671          (5,590,016)                               (1,746,345)

  Total Unexpended Appropriations                      24,889,493        165,734,487                               190,623,980

  Net Position                                   $24,965,243,466        $166,391,565                           $25,131,635,031

                                 The accompanying notes are an integral part ofthese financial statements




                                                          - 61 -
RAILROAD RETIREMENT BOARD
COMB INED STATEMENT OF BUDGETARY RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
(i n dollars)

                                                                                          FY 2013              FY 2012

Budgetary Resources
Unobligated balance brought forward , October 1                                             $193.106,537         $190,388.577
Adjustment to unobligated balance brought forward, October 1 (+ or -) (Note 23)                  205,736            4, 133,792
   Unobligated balance brought forward , October 1, as adjusted                              193.312,273          194,522,369
Recoveries of prior year unpaid obligations                                                    1.722,115            1,660.283
Other changes in unobligated balance (+ or -)                                                   (364,317)          (1 ,574,543)
Unobligated balance from prior year budget authority, net                                    194.670,071          194,608.109
Appropriations (discretionary and mandatory)                                               8,702,40 1,636       8.653 ,710,195
Borrowing authority (discretionary and mandatory) ( Note 19 and Note 20)                   3.913.12 1.381       3,768,500.000
Spending authority from offsetting collections (discretionary and mandatory)                 160,348,852          152,990 ,225
Total budgetary resources                                                                $12,970,541 ,940     $12,769,808 ,529

Status of Budgetary Resources
Obligations incurred (Note 18)                                                           $1 2,791,504 ,773    $12,576.701,992
Unobligated balance, end of year:
   Apportioned                                                                               160,554,582          155,436,231
   Unapportioned                                                                              18,482.585           37,670,306
Total unobligated balance, end of year                                                       179,037,167          193,106,537
Total budgetary resources                                                                $12,970,541 ,940     $12,769,808,529

Change in Obligated Balance
 Unpaid obligations :
Unpaid obligations, brought forward, October 1                                              $975,391,901         $986,741,632
Adjustment to unpaid obligations, start of year (+ or -) (Note 23)                           (29,920,140)             (119 ,255)
Obligations incurred                                                                      12,791,504,773       12,576,701,992
Outlays (gross) (-)                                                                      (12,83 1,660,935)    (12 .586,272, 185)
Recoveries of prior year unpaid obligations (- )                                              (1,722.115)           (1,660,283)
Unpaid obligations. end of year                                                              903.593,484           975,391,901

Uncollected payments:
Uncollected pymts, Fed sources, brought forward, Oct 1 (- )                                     (22 1,330)           (252,120)
Adjustmen t to uncollected pymts, Fed Sources, start of year (+ or -)                             23,472                    0
Change in uncollected pymts, Fed Sources (+ or -)                                                220,002               30,790
Uncollected pymts, Fed sources, end of year (- )                                                  22 ,144            (221,330)

Memorandum (non-add) entries
Obligated balance, start of year (+ or -)
Obligated balance. end of year (+ or -)

Budget Authority and Outlays, Net (Note 14)
Budget authority, gross (discretionary and mandatory)                                   $12,775,871,868       $1 2,575,200.420
Actua l offsetting collections (discretionary and mandatory) (-)                           (161,588.854)          (153,021,015)
Change in uncollected customer payments from Federal sources
  (discretionary and mandatory) (+ or - )                                                       220,002                30,790
Budget authority, net(discretionary and man(~atory)                                     $12,614,503,016       $12,422,210,195

Outlays, gross (discretionary and mandatory)                                            $12,831,660,935       $12,586,272,185
Ac tual offsetting collections (discretionary and mandatory) (-)                           (1 6 1,588 ,854)      (153,021,015)
Outlays , net (discretionary and mandatory)                                              12,670 ,072,081       12,433.251 ,170
Distributed offsetting receipts (-)                                                      (4,681,535,209)       (5,014,643,867)
Agency outlays, net (discretionary and mandatory)                                        $7,988,536,872        $7,418,607,303


                              The ac companying notes are an integral part of these financia l stat ements,




                                                                     - 62-
                                                    Railroad Retirement Board



                                        Statement of Social Insurance (Note 15, Note 16)



                                                  Actuarial Surplus or (Deficiency)

                                              75-year Projection as of January 1, 2013

                                                (Present values in billions of dollars)

                                                                                          1/1/2013   1/1/2012   1/1/2011   1/1/2010 1/1/2009

Current participants who have attained retirement age:
  Contributions and earmarked taxes                                                         $81.1      $79.0      $73.1      $70.3    $69.0
  Expenditures for scheduled future benefits                                                122.6      118.8      109.3      104.8    102.1
    Present Value of future revenue less future expenditures                                (41.5)     (39.8)     (36.2)     (34.6)   (33.1)

Current participants not yet having attained retirement age:
  Contributions and earmarked taxes                                                          84.2       81.3       71.7       72.9      75.9
  Expenditures for scheduled future benefits                                                 96.2       94.7       86.2       88.0      91.2
    Present Value of future revenue less future expenditures                                (12.0)     (13.4)     (14.6)     (15.0)    (15.3)

Net present value of future revenue less future expenditures for
current participants (closed group measure)                                                 (53.5)     (53.1)     (50.8)     (49.6)    (48.5)
Plus: Treasury securities and assets held by the program                                     25.5       24.2       26.3       24.9      21.8
Closed group surplus/(unfunded obligation)                                                 ($28.1)    ($29.0)    ($24.6)    ($24.7)   ($26.6)

Future participants:
  Contributions and earmarked taxes                                                         $64.0      $64.0      $53.2      $53.2    $57.2
  Expenditures for scheduled future benefits                                                 34.3       33.5       27.6       27.4     29.5
     Present Value of future revenue less future expenditures                                29.7       30.5       25.6       25.8     27.7

Net present value of future revenue less future expenditures for
current and future participants (open group measure)                                        (23.9)     (22.7)     (25.2)     (23.8)    (20.7)
Plus: Treasury securities and assets held by the program                                     25.5       24.2       26.3       24.9      21.8
Open group surplus/(unfunded obligation)                                                     $1.6       $1.5       $1.0       $1.0      $1.1




Detail may not add to totals due to rounding.
The accompanying notes are an integral part of these financial statements.




                                                                     - 63 -
                                     Railroad Retirement Board

                         Statement of Changes in Social Insurance Amounts

                                       Open Group Measure

                         For the Two‐Year Period Ended December  31, 2012

                                       (in billions of dollars)


Net Present Value beginning of year 2011                                     $      (25.2)

Reasons for changes in the NPV during the year:

Changes in valuation period                                                              0.1
Changes in demographic data and assumptions1                                             0.3
Changes in economic data and assumptions2                                                2.2
Changes in law or policy3                                                                NA
Changes in methodology and programmatic data4                                            NA
Changes in Medicare healthcare and other healthcare assumptions5                         NA
Other changes                                                                            NA

Net change during 2011                                                                   2.5



Net Present Value end of year 2011/beginning of year 2012                    $      (22.7)

Reasons for changes in the NPV during the year:

Changes in valuation period                                                              0.3
                                            1                                            0.1
Changes in demographic data and assumptions
Changes in economic data and assumptions2                                              (1.5)
Changes in law or policy3                                                                NA
Changes in methodology and programmatic data4                                            NA
Changes in Medicare healthcare and other healthcare assumptions5                         NA
Other changes                                                                            NA

Net change during 2012                                                                 (1.2)


Net Present Value end of year 2012                                           $      (23.9)




Detail may not add to totals due to rounding.
The accompanying notes are an integral part of these financial statements.


                                        - 64 -
NOTES:

1. 	 Changes in demographic data and assumptions –

    Between 1/1/2011 and 1/1/2012:


    Some demographic assumptions, such as the Annuitants Mortality Table, the Disabled Mortality 

    Table for Annuitants with Disability Freeze, the Disabled Mortality Table for Annuitants without 

    Disability Freeze, the Active Service Mortality Table, the Spouse Total Termination Table, the 

    probability of a spouse, the rates of immediate age retirement, the rates of immediate disability 

    retirement, the rates of eligibility for disability freeze, the rates of final withdrawal, service months, 

    salary scales, and family characteristics, were changed between the Statement of Social Insurance 

    as of 1/1/2011 and the Statement of Social Insurance as of 1/1/2012. These changes and the 

    changes in demographic data had a relatively small effect (about 0.3 billion) on the open group


    measure between 1/1/2011 and 1/1/2012. 


    Between 1/1/2012 and 1/1/2013:


    Demographic assumptions were not changed between the Statement of Social Insurance as of 

    1/1/2012 and the Statement of Social insurance as of 1/1/2013. Changes in demographic data had a 

    minimal effect (less than 0.1 billion) on the open group measure between 1/1/2012 and 1/1/2013. 



2. 	 Changes in economic data and assumptions –

    Between 1/1/2011 and 1/1/2012:
    Both select and ultimate economic assumptions were changed between 1/1/2011 and 1/1/2012. The
    actual COLA of 3.6% was used for 2012 in place of the 3.0% COLA assumed for 2012 in the prior
    year’s report. Assumed COLAs of 2.0% in 2013, 2.4% in 2014, and 2.8% in 2015 and thereafter were
    used rather than the 3.0% COLA assumed in the prior year’s report. A wage increase rate of 3.5%
    was used for 2011 rather than the assumed 4% wage increase rate used for 2011 in the prior year’s
    report. A wage increase rate of 3.8% was used for 2012 and thereafter rather than the 4% wage
    increase rate used in the prior year’s report. Also, the actual 2011 investment return of (1.6%) was
    lower than the assumed 7.5% investment rate used for 2011 in the prior year’s report. An assumed
    investment return of 7% was used for 2012 and all subsequent years rather than the 7.5% rate used
    in the prior year’s report. Economic data and assumptions had the greatest effect on the open group
    measure, resulting in a change of about $2.2 billion from 1/1/2011 to 1/1/2012.

    Between 1/1/2012 and 1/1/2013:
    Ultimate economic assumptions were not changed between the Statement of Social Insurance as of
    1/1/2012 and the Statement of Social Insurance as of 1/1/2013, but select economic assumptions
    were. The actual COLA of 1.7% was used for 2013 in place of the 2.0% COLA assumed for 2013 in
    the prior year’s report. A 1.8% COLA was assumed for 2014 instead of a 2.4% COLA, and a 2.3%
    COLA was assumed for 2015 instead of a 2.8% COLA. Also, the actual 2012 investment return of
    13.9% was higher than the assumed 7.0% investment rate used for 2012 in the prior year’s report.
    Economic data and assumptions had the greatest effect on the open group measure, resulting in a
    change of about ($1.5) billion from 1/1/2012 to 1/1/2013.

3. 	 There were no changes in law or policy.

4. 	 There were no changes in methodology and programmatic data.

5. 	 Medicare healthcare and other healthcare assumptions are not applicable to the Railroad Retirement
     program.




                                                     - 65 -

Notes to the Financial Statements: Fiscal Years Ended September 30, 2013 and 2012


1. 	Summary of Significant Accounting Policies

A. 	Basis of Presentation
Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003, and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2013 are to be
submitted to the President, the Congress, and the Director of OMB by December 16, 2013. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, Social Insurance, and Changes in Social
Insurance Amounts. These statements are different from the financial reports, also prepared by
the RRB pursuant to OMB directives, used to monitor and control the RRB's use of budgetary
resources.

The RRB changed its accounting policy to no longer expense operating materials and supplies
when used and will expense operating materials and supplies when purchased. See Note 7,
Inventory and Related Property.

The SBR for fiscal year 2012 has been reformatted to conform to the content and presentation
used in fiscal year 2013.

B. 	Reporting Entity
The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●		 Railroad Retirement (RR) Account, 60X8011, funds retirement, survivor, and disability
    benefits in excess of social security equivalent benefits from payroll taxes on employers and
    employees and other income sources. Account 60X8011 is considered a fund from
    dedicated collections. Our authority to use these collections is 45 United States Code
    (USC) §231f(c)(1).

●		 Social Security Equivalent Benefit (SSEB) Account, 60X8010, funds the portion of railroad
    retirement benefits equivalent to a social security benefit from various income sources
    related to these benefits. Account 60X8010 is considered a fund from dedicated collections.
    Our authority to use these collections is 45 USC §231n-1(c)(1).

●		 Dual Benefits Payments (DBP) Account, 60 0111, funds the phase-out costs of certain
    vested dual benefits from general appropriations. Account 60 0111 is considered a general
    fund. Our authority to use these collections is 45 USC §231n(d).

●		 Federal Payments to the Railroad Retirement Accounts, 60X0113, was established by OMB,
    not by legislation, and is used as a conduit for transferring certain income taxes on benefits;
    receiving credit for the interest portion of uncashed check transfers; and funds provided by

                                              - 66 -

   the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010.
   Account 60X0113 is considered a fund from dedicated collections. This account has no
   basis in law.

●		 Limitation on Administration Account, 60 8237, pays salaries and expenses to administer
    the railroad retirement program and the railroad unemployment and sickness insurance
    program. This account is financed by the RR Account, the SSEB Account, and the Railroad
    Unemployment Insurance Trust Fund, Administrative Expenses. Account 60 8237 is
    considered a fund from dedicated collections. Our authority to use these collections is
    45 USC §231n-1(c) and 45 USC §231n(h).

●		 Limitation on Administration Account, 60X8237, Public Law 107-217, Sec. 121(d)(3),
    authorizes Federal agencies to retain indefinitely as “no-year money” any unexpended
    portion of the fiscal year appropriated funds, up to the estimated cost of the operation and
    maintenance (O&M) of the delegated properties. Funds carried over may only be expended
    for O&M and repair of the facility. In addition, this fund contains the Limitation on
    Administration funds for extended unemployment benefits provided under Public
    Laws 111-92, 112-96, and 112-240. Account 60X8237 is considered a fund from dedicated
    collections.

●		 Railroad Unemployment Insurance Trust Fund, Benefit Payments, 60X8051.001, funds
    railroad unemployment and sickness insurance benefits from contributions by railroad
    employers. Account 60X8051.001 is considered a fund from dedicated collections. Our
    authority to use these collections is 45 USC §360.

●		 Railroad Unemployment Insurance Trust Fund, Administrative Expenses, 60X8051.002, was
    established to pay salaries and expenses to administer the program. Account 60X8051.002
    is considered a fund from dedicated collections. This fund is financed by contributions from
    railroad employers. Monies are transferred from this fund, based on cost accounting
    estimates and records, to the Limitation on Administration Account (60 8237) from which
    salaries and expenses are paid for both the railroad retirement program and the railroad
    unemployment and sickness insurance program. Our authority to use these collections is
    45 USC §361.

●		 Limitation on the Office of Inspector General, 60 8018, was established to fund the
    administration of the Inspector General's Office. Account 60 8018 is considered a fund from
    dedicated collections. Our authority to use these collections is Public Law 113-6.

●		 Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, 60X0114:
    Funds provided under Public Law 111-5, American Recovery and Reinvestment Act of
    2009.

●		 Economic Recovery Payments – Recovery Act, 60 0115: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●		 Administrative Expenses – Recovery Act, 60X0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●		 Administrative Expenses – Recovery Act, 60 0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●		 Limitation on Administration – Recovery Act, 60X8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

                                             - 67 -

●		 Limitation on Administration – Recovery Act, 60 8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●		 Railroad Unemployment Insurance Extended Benefit Payments, for Limitation Account –
    60X0118: Funds provided under Public Law 111-92, Worker, Homeownership, and
    Business Assistance Act of 2009, and Public Law 112-96, Middle Class Tax Relief and Job
    Creation Act of 2012, and Public Law 112-240, American Taxpayer Relief Act of 2012.

●		 Railroad Unemployment Insurance Extended Benefit Payments – 60X0117: Funds provided
    under Public Law 111-92, Worker, Homeownership, and Business Assistance Act of 2009.

C. 	Budgets and Budgetary Accounting
Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. 	Basis of Accounting
As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.

The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. 	Concepts
The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Department of the Treasury (Treasury), excluding seized cash deposited. The FBWT is
increased by (1) receiving appropriations, reappropriations, continuing resolutions, appropriation
restorations, and allocations; and (2) receiving transfers and reimbursements from other
agencies. It also is increased by amounts borrowed from the Bureau of the Public Debt (BPD),
the Federal Financing Bank, or other entities, and amounts collected and credited to
appropriation or fund accounts. The FBWT is reduced by (1) disbursements made to pay
liabilities or to purchase assets, goods, and services; (2) investments in U.S. securities
(securities issued by BPD or other Federal Government agencies); (3) cancellation of expired
appropriations; (4) transfers and reimbursements to other entities or to the General Fund of the
Treasury; and, (5) sequestration or rescission of appropriations.



                                              - 68 -

F. 	Funds from Dedicated Collections
SFFAS No. 43, Funds from Dedicated Collections, amends SFFAS No. 27, Identifying and
Reporting Earmarked Funds. Generally, funds from dedicated collections are financed by
specifically identified revenues, provided to the government by non-Federal sources, often
supplemented by other financing sources, which remain available over time. These specifically
identified revenues and other financing sources are required by statute to be used for
designated activities, benefits, or purposes, and must be accounted for separately from the
government’s general revenues. Funds from Dedicated Collections should be shown as a
separate presentation and disclosure in the financial statements. The three required criteria for
funds from dedicated collections are:

   		 A statute committing the Federal Government to use specifically identified revenues
       and/or other financing sources that are originally provided to the Federal Government by
       a non-Federal source only for designated activities, benefits, or purposes;
   		 Explicit authority for the fund to retain revenues and/or other financing sources not used
       in the current period for future use to finance the designated activities, benefits, or
       purposes; and
   		 A requirement to account for and report on the receipt, use, and retention of the
       revenues and/or other financing sources that distinguish the fund from the Federal
       Government’s general revenues.

Refer to Note 17, Funds from Dedicated Collections.

G. 	Application of Critical Accounting Estimates
The financial statements are based on the selection of accounting policies and the application of
significant accounting estimates, some of which require management to make significant
assumptions. Further, the estimates are based on current conditions that may change in the
future. Actual results could differ materially from the estimated amounts. The financial
statements include information to assist in understanding the effect of changes in assumptions
to the related information.

2. 	Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●		 Treasury collects payroll taxes from the railroads on behalf of the RRB. The taxes collected
    are credited by Treasury to the RRB’s trust fund account via an appropriation warrant. In
    fiscal years 2013 and 2012, net payroll taxes transferred to the RRB by Treasury were
    $5.4 billion and $4.8 billion, respectively.

   Treasury provides payment services to Federal agencies and operates collections and
   deposit systems. The RRB invests in government account securities through BPD. In fiscal
   years 2013 and 2012, investments, including accrued interest, totaled $1.6 billion and
   $1.6 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
   interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
   year 2013 due to the financial interchange advances during fiscal year 2012 included
   principal of $3.8 billion and interest of $110 million. The amount paid by the RRB to
   Treasury in fiscal year 2012 due to the financial interchange advances during fiscal year
   2011 included principal of $3.8 billion and interest of $130 million.

●		 The Social Security Administration (SSA) and the RRB participate in an annual financial
    interchange. The financial interchange is intended to place the social security trust funds in

                                              - 69 -

   the same position in which they would have been had railroad employment been covered by
   the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2013,
   the RRB trust funds realized $4.5 billion through the financial interchange.

   Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
   certain individuals, described in this section, monthly social security benefits on behalf of
   SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
   reimbursed were $1.4 billion for fiscal year 2013 and $1.4 billion for fiscal year 2012.

●		 The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
    interchange in the same manner as described for SSA. The RRB transferred $577 million
    and $511 million to CMS in fiscal years 2013 and 2012, respectively. In addition to the
    financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
    associated with administering the Medicare program. The amounts reimbursed in fiscal
    years 2013 and 2012 were $23 million and $13 million, respectively.

●		 The General Services Administration (GSA) provides payroll processing and human
    resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
    $3.2 million for fiscal year 2012 and $3.1 million for fiscal year 2013.

●		 The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
    contributions. Accounts receivable with the DOL amounted to $188 million and $171 million
    for fiscal years 2013 and 2012, respectively.

●		 The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
    payment of railroad retirement benefits. During fiscal years 2013 and 2012, the NRRIT
    transferred $1,581 million and $2,026 million, respectively, to the RR Account. The NRRIT
    holds and invests funds not immediately needed to pay benefits under the RRA. The net
    assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
    investment. The RRB reports this information based on information provided by the NRRIT
    for that purpose.

3. 	Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                              2013           2012
  A. Fund Balances:
          (1) Trust Funds 	                                                $ 88,954,793   $ 50,897,754
          (2) General Funds		                                               158,613,159    188,842,417
          (3) Other Fund Types		                                                      0              0

                    Total		                                                $247,567,952   $239,740,171

  B. Status of Fund Balance with Treasury (FBWT)
           (1) Unobligated Balance
               (a) Available 	                                             $160,554,582   $155,436,232
               (b) Unavailable		                                             18,482,585     37,670,305
           (2) Obligated Balance not yet Disbursed		                         68,530,785     46,633,634
           (3) Non-Budgetary FBWT		                                                   0              0

                    Total		                                                $247,567,952   $239,740,171

  C. Other Information: 	The above represents cash held in Treasury.	 Unobligated 

     and obligated funds not held in cash are invested in Treasury securities. 




                                                       - 70 -

4. Investments

The investments in Treasury securities represent the investments of two of the RRB’s funds
from dedicated collections, the RR and the SSEB Accounts.

                                                  Amounts for Balance Sheet Reporting
                                           Cost           Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2013      $1,627,618,000             $2,509,377        $1,630,127,377

  Non Marketable Par Value 2012        $1,630,413,000             $2,391,952        $1,632,804,952

The balance on September 30, 2013, consisted of investments in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2013. The balance on
September 30, 2012, consisted of investments in 3.000 percent par value specials (with market
value equal to face value) maturing on October 1, 2012. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the Federal Government, these assets and liabilities offset each other
from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Federal Government finances
all other expenditures.

5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at fair value, as of
September 30, 2013 and 2012. These figures were provided to the RRB by the NRRIT for the
fiscal years ended September 30, 2013 and 2012.

Readers of these financial statements should be aware that the Railroad Retirement and
Survivors’ Improvement Act of 2001 authorizes the NRRIT to invest railroad retirement assets in
a diversified investment portfolio in the same manner as those of private sector retirement
plans.




                                              - 71 -

6. Accounts Receivable

• Intragovernmental 


Accounts receivable - Intragovernmental at September 30 consisted of:


                                                                               2013              2012

   Financial Interchange – Principal                                        $4,373,800,000    $4,194,100,000
   Financial Interchange – Interest                                            130,900,000       132,100,000
   Department of Labor                                                         188,089,232       171,073,952
   CMS – Refund of Medicare Part B Premiums                                              0           169,000
   Social Security Administration - OASI/DI Benefits
                   (Old Age and Survivors Insurance/Disability Insurance)               0                  0
   Treasury General Fund – HIRE Act (Tier I)                                            0                  0

    Total                                                                   $4,692,789,232    $4,497,442,952

• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                                 2013           2012

   Accounts receivable – Benefit overpayments                                $46,764,930     $52,594,649
   Accounts receivable – Past due RUI contributions and taxes                     17,805         604,264
   Accounts receivable – Interest, penalty & administrative costs              1,412,885         496,717
    Total                                                                    $48,195,620     $53,695,630
   Less: Allowances for doubtful accounts                                     10,176,613      12,269,351

     Net Total                                                               $38,019,007     $41,426,279

The RRB’s September 30, 2013, accounts receivable balance (after deducting currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $48,195,620 includes $41,202,808 (85%) in railroad retirement program receivables and
$6,992,812 (15%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $10,176,613. This includes $8,751,477 (86%) for the railroad
retirement program and $1,425,136 (14%) for the unemployment insurance program
receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.

7. Inventory and Related Property

Due to a recent change in accounting policy, the RRB will no longer capitalize operating
materials and supplies. The inventory write-off amount was $37,640 for fiscal year 2013.




                                                          - 72 -

8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                               At September 30, 2013
                                             Service                                Accumulated         Net
        Classes of Fixed Assets               Lives                 Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years           $ 2,723,731        $ 2,691,907        $      31,824
ADP software                                   5 years            20,914,583         20,852,705               61,878
Equipment                                   5-10 years             6,423,643          5,774,273              649,370
Internal-Use Software in Development                               3,696,053                  0            3,696,053

                                                                 $33,758,010        $29,318,885        $4,439,125



                                                                               At September 30, 2012
                                             Service                                Accumulated         Net
        Classes of Fixed Assets               Lives                 Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years           $ 2,723,731        $ 2,683,430        $      40,301
ADP software                                   5 years            19,666,348         19,657,571                8,777
Equipment                                   5-10 years             6,337,831          5,861,594              476,237
Internal-Use Software in Development                               1,467,325                  0            1,467,325

                                                                 $30,195,235        $28,202,595        $1,992,640

9. Liabilities

Liabilities at September 30 consisted of:

                                                                               2013                   2012
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
            (FECA) Liability                                               $      589,038         $        755,924

  Public:
    Other – Accrued Unfunded Leave                                         $    6,585,182         $    6,933,483

  Total Liabilities Not Covered by Budgetary Resources                     $    7,174,220         $    7,689,407
  Total Liabilities Covered by Budgetary Resources                          5,732,149,749          4,915,584,776

  Total Liabilities                                                        $5,739,323,969         $4,923,274,183




                                                       - 73 -

• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                              2013                   2012

   Beginning Balance, Principal                                           $3,401,800,000       $3,484,000,000
    New Borrowing                                                          3,938,300,000        3,734,200,000
    Repayments                                                            (3,752,900,000)      (3,816,400,000)
    Ending Balance, Principal                                              3,587,200,000        3,401,800,000
    Accrued Interest                                                          42,333,607           43,803,447

     Total                                                                $3,629,533,607       $3,445,603,447


• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $13,231,201 and $12,798,969, at
September 30, 2013 and 2012, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were
drawn. The principal amount of uncashed checks must remain in a liability account until the
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.

A special workload of approximately 11,056 benefit cases, estimated at $5.5 million, has been
identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                                     2013
                                                        Non-Current               Current            Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable                           $      436,756     $     436,756
     Unfunded FECA Liability                                                         589,038           589,038
      Total Intragovernmental                                                      1,025,794         1,025,794

   Accrued Unfunded Liabilities                                                  6,585,182          6,585,182
   Accrued Payroll                                                               1,724,781          1,724,781
   Accrued RRB Contributions – Thrift Savings Plan                                  53,883             53,883
   Withholdings Payable                                                             73,783             73,783
   Contingent Liability (see Note 10 for details)                     0        523,573,990        523,573,990
   Capital Lease Liability                                                               0                  0
   Other                                                                         2,569,709          2,569,709

      Total Other Liabilities                                         0       $535,607,122       $535,607,122




                                                      - 74 -

                                                                                             2012
                                                       Non-Current       Current             Total

  Intragovernmental:
    Employer Contributions & Payroll Taxes Payable                       $     366,167   $     366,167
    Unfunded FECA Liability                                                    755,924         755,924
     Total Intragovernmental		                                               1,122,091       1,122,091

  Accrued Unfunded Liabilities                                             6,933,483       6,933,483
  Accrued Payroll                                                          1,498,378       1,498,378
  Accrued RRB Contributions – Thrift Savings Plan                             43,519          43,519
  Withholdings Payable                                                        74,428          74,428
  Contingent Liability (see Note 10 for details)                     0             0               0
  Capital Lease Liability                                                          0               0
  Other                                                                   11,931,193      11,931,193

     Total Other Liabilities		                                       0   $21,603,092     $21,603,092



10. Commitments and Contingencies

The RRB is involved in the following actions:

   		 One railroad filed suit requesting a refund of approximately $22.0 million (not including
       interest) representing the employer’s share of taxes previously paid with respect to
       moving and relocation expenses and with respect to stock purchased by current and
       former employees under non-qualified stock options. The final order was issued in
       railroad’s favor. An appeal was filed. The likelihood of loss of taxes paid on moving
       expense allowances and employee stock options is probable.

   		 Several Class I railroads have filed claims for refund of taxes with the Internal Revenue
       Service (IRS). Of the $81.7 million in claims, the RRB’s legal counsel has determined
       that it is probable that the RR and SSEB Accounts are contingently liable for an
       estimated amount of $13.9 million, and was recorded, as Other Liabilities on the Balance
       Sheet, with $56.7 million liability classified as reasonably possible, and the remaining
       $11.1 million classified as remote. Under the anti-disclosure provision of the IRS code,
       we are not permitted to disclose any details related to these claims.

   		 One railroad filed a claim for refund of overpayment of contribution of $4.1 million. The
       request is still under examination by the RRB. The outcome is probable.

   		 As of September 30, 2013, the RRB had contractual arrangements which may result in
       future financial obligations of $39.7 million

   		 We also recorded a contingent liability in the amount of $483.6 million, for forthcoming
       adjustments to the financial interchange for military service credits due SSA.




                                                     - 75 -

11. Intragovernmental Costs and Exchange Revenue

                                                                      2013              2012
  Railroad Retirement (RR) Act Program
   Intragovernmental Costs                                      $   146,864,012     $ 153,968,800
   Public Costs                                                  11,748,774,561      11,415,154,533
       Total RR Act Program Costs                               $11,895,638,573     $11,569,123,333

   Intragovernmental Earned Revenue                             $      23,486,121   $    13,208,883
   Public Earned Revenue                                                        0                 0
       Total RR Act Program Earned Revenue                      $      23,486,121   $    13,208,883

  Railroad Unemployment Insurance (RUI) Act Program
   Intragovernmental Costs                                      $       4,404,187   $     4,954,846
   Public Costs                                                       124,264,146       117,502,878
       Total RUI Act Program Costs                              $     128,668,333   $   122,457,724

   Intragovernmental Earned Revenue                              $              0   $             0
   Public Earned Revenue                                               18,268,983        20,611,899
       Total RUI Act Program Earned Revenue                     $      18,268,983   $    20,611,899

These totals do not include $24,879 and $28,071 of earned revenues not attributable to either
program for fiscal years 2013 and 2012, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal Government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal Government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.

12. Transfers To/From NRRIT

The RRB received a total of $1,581 million and $2,026 million from the NRRIT during fiscal
years 2013 and 2012, respectively. These funds were received into the RR Account. Transfers
were to fund the payment of benefits.

13. Undelivered Orders at the End of the Period

                                                2013           2012

     Undelivered Orders                       $17,121,501    $12,038,658




                                                   - 76 -

       14. 	Explanation of Differences Between the Combined Statement of Budgetary Resources 

            and the Budget of the United States Government 


       A reconciliation was completed of budgetary resources, obligations incurred, distributed 

       offsetting receipts, and outlays, as presented in the Statement of Budgetary Resources for the 

       year ended September 30, 2012, to amounts included in the Budget of the United States 

       Government. A reconciliation was not performed for the period ended September 30, 2013, 

       since the RRB’s Performance and Accountability Report is published in December 2013, and 

       OMB’s MAX system will not have actual budget data available until mid-December 2013. 


       The Budget of the United States Government and the RRB’s Statement of Budgetary 

       Resources differ because of the following transaction types: 



                                                                      Fiscal Year 2012 (in millions)
                                                                                         Distributed
                                                    Budgetary      Obligations            Offsetting
                                                    Resources       Incurred              Receipts        Net Outlays

1. 	  Combined Statement of Budgetary
        Resources – September 30, 2012                  12,770           12,577                 5,015            7,419
2. 	  Expenditure Transfers from Trust Funds              (118)
3. 	  Unobligated Balance, Brought Forward
        October 1, 2011                                   (190)
4. 	  Recoveries of Prior Year Unpaid Obligations           (2)
5. 	  Sickness Insurance Benefit Recoveries                (21)
6. 	  Administrative Expense Reimbursement                 (14)
7. 	  Cancelled Authority                                    2
8. 	  Interfund Transfers: Federal Payment
        Obligations – Income Taxes Collected
        on Benefits (0113)                                (771)
9. 	  Intrafund Transfers: Receipts from the
      Old-Age and Survivors Insurance (OASI)
      Trust Fund                                        (4,139)
10. 	 Intrafund Transfers: Receipts from the
      Disability Insurance (DI) Trust Fund                (512)

                   Financial Interchange

11. 	 Accrued Receipts from the OASI and DI
      Trust Funds                                                                                  (99)             99
12. 	 Accrued Transfers to the Federal Hospital
      Insurance Trust Fund                                                                        502             (502)

                          NRRIT

13. 	    NRRIT Obligations / Outlays                     2,095            2,095                                  2,095
14. 	    Intrafund Transfers: NRRIT Transfer to
           RRA                                          (2,026)                                 2,026           (2,026)
15. 	    Proprietary Receipts: NRRIT – Gains and
           Losses                                       (3,139)                                 3,139           (3,139)
16. 	    Proprietary Receipts: NRRIT – Interest
           and Dividends                                  (397)                                   397             (397)
17. 	    Rounding                                           (1)                                     4               (3)
18. 	    Budget of the United States Government
         FY 2012 Actuals                                 3,537           14,672                10,984            3,546




                                                         - 77 -

15. Social Insurance

		 Surplus/(unfunded obligation) represents combined values for the RR Account,
    SSEB Account, and NRRIT.

		 Estimated future revenue includes tier 1 taxes, tier 2 taxes, income taxes on benefits, and
    financial interchange income, where financial interchange income consists of financial
    interchange transfers plus financial interchange advances from general revenues less
    repayment of financial interchange advances from general revenues.

		 Estimated future expenditures include benefit and administrative costs.

		 Detail may not add to totals due to rounding. Employee and beneficiary status are
    determined as of 1/1/2012, whereas present values are as of 1/1/2013.

  Treasury Securities and Assets Held by the Program

Higher Treasury securities and assets result in lower tax rates and consequently lower future
tax income whereas lower Treasury securities and assets result in higher rates and income.


16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary
Information are based on the assumption that the program will continue as presently
constructed. The calculations assume that all future transfers required by current law under the
financial interchange will be made.

The estimates are also based on various economic, employment, and other actuarial
assumptions. The ultimate economic assumptions are a 7.0 percent investment return, a
2.8 percent annual increase in the cost of living, and a 3.8 percent annual wage increase.

The employment assumption for the Statement of Social Insurance is employment assumption
II, the intermediate employment assumption, as used in the 2013 Section 502 Report. Under
employment assumption II, starting with an average 2012 employment of 234,000, (1) railroad
passenger employment is assumed to remain level at 45,000, and (2) the employment base,
excluding passenger employment, is assumed to decline at a constant annual rate of
2.0 percent for 25 years, at a reducing rate over the next 25 years, and remain level thereafter.

Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Fifth
Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of
December 31, 2010.” This may be found on the RRB’s website, www.rrb.gov.




                                              - 78 -

Actuarial assumptions published in the Twenty-Fifth Actuarial Valuation include:

Table S-1. 	    2010 RRB Annuitants Mortality Table
Table S-2. 	    2010 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3. 	    2010 RRB Disabled Mortality Table for Annuitants without Disability
                Freeze
Table S-4. 	    2006 RRB Active Service Mortality Table
Table S-5. 	    2010 RRB Spouse Total Termination Table
Table S-6. 	    Probability of a retired employee having a spouse eligible for railroad
                retirement benefits
Table S-7. 	    1995 RRB Mortality Table for Widows
Table S-8. 	    1997 RRB Remarriage Table
Table S-9. 	    2004 RRB Total Termination Table for Disabled Children
Table S-10. 	   Calendar year rates of immediate age retirement
Table S-11. 	   Rates of immediate disability retirement and of eligibility for disability
                freeze
Table S-12. 	   Calendar year rates of final withdrawal
Table S-13. 	   Service months and salary scales
Table S-14. 	   Family characteristics of railroad employees assumed for the valuation of
                survivor benefits




                                               - 79 -

     Note 17 Funds from Dedicated Co llections
                                                         8010                801 1             8051 .001               0113                8237              8051 .002             8018                              Total Funds
                                                         SSEB                RRA                  RUIA           Federa l Payments     Limitation on           RUIA           Limitatio n on    Eliminations       from Dedicated
                                                                                            Benefit Pa~ments      to RR Accounts       Administration     Admin EXE! enses         OIG                               Co llections
     Balance Sheet as of September 30, 2013

     Assets

     Fund Balance with Treasury                         $24,300.941          $22,212,100            5,090,161          $16,609,802        $20,060,396            ($632,355)       $1,313,748                            $88,954,793
     Investments                                        841 ,032,832         789,094,545                                                                                                                              1,630,127,377
     NRRIT Net Invested Assets                                            25,011,942,697                                                                                                                             25.011 .942.697
     Taxes and Interest Receivable                     4,504.700.000          32.451,332          178,772.04 I                                                  12,955,989                                            4,728,879,362
     Other Asse ts                                                                                                                           4,812.132                               148.021                              4,960,153

                 Total Assets                          5,370,033,773      25,855.700,674          183,862,202           16,609,802          24.872.528          12.323,634         1,461,769                         31,464.864,382

     liabilities Due and Payable                       4,745,405,914        451,196,180             7,028,313                                   92,815                                 2,596                          5,203,725,818
     Other Li abilities                                  483,600.000         38,490,840             4,052,858                                8.761 .038                              693. 415                           535,598,151

     Total Liabilities                                 5,229,005,914        489.687 ,020           11,081,171                                8.853,853                               696,011                          5,739,323.969

     Unexpended Appropriations                                                                                          16,609,802                                                                                       16,609,802
     Cumula tive Results of Operations                   141,027,859      25.366,013,654          172,781,031                               16.018,675          12,323.634           765.758                         25,708,930,61 1

                 Total Liabilities and Net Position   55,370,033,773     $25,855,700.674          183,862,202          $16,609.802        $24.872.528          $12.323.634        $1,461,769                        $31 ,464,864,382


     Statement of Net Cost for the Period
     Ended September 30, 2013
00
D    Gross Program Costs                              $6,975,814,483      $4,755,539,098         $103,354.628         $647,088,939       $130,995,424                             $9,495,867     ($647,512.626)     $11,974,775,813
     Less Eamed Revenues                                                                            18,268,983                             22,648.852                              1.262,269          1425,000)          41 .755.104

     Net Program Costs                                 6.975,81 4,483      4,755,539,098           85,085,645          647,088,939         108,346,572                             8,233,598      (647,087,626)      11.933,020,709

     Costs Not Attribulable to Program Costs
     Less Eamed Revenues Not
                Atlfibutable to Program Costs                                                                                                   24.879                                                                       24,879

     Net Cost of Operations                           $6,975,814,483      $4.755.539.098          $85,085.645         $647,088,939       $108,321.693                             $8,233.598     ($647,087,626)     $11.932,995.830


     Statement of Changes in Net Position
     for the Period Ended September 30, 2013

     Net Position Beginning of Period                  $798,560,511      $23,959,249.060         $162,499.293          $24,889,494         $7,956,268          $11 ,390,815        $698,025                         $24.965.243,466

     Appropriations Received                                                                                           638,886,050                                                                                      638.886.050
     Expended Appropriations                                                                                           647,088,939                                                                                      647,088,939
     Other Adjustments                                                                                                     (76,803)                                                                                         {76,803)
     Appropriations Used                                                                                              (647,088.939)                                                                                    (647,088,939)

     Taxes and Non-Exchange Revenue                    2,968,446,898       3,136,770,669           89.655.827                                                   26,201 ,814                       (647,087.626 )      5,573,987,582
     Other Financing Sources                           3,349,834.933          73,951.139            5,711,556                             116,384,100          (25,268,995)        8,301,331                          3.528,914,064
     Transfers In From NRRIT                                               1,581 ,000,000                                                                                                                             1,581,000,000
     Change in NRRIT Assets                                                1,370,581 .884                                                                                                                             1,370,581,884

     Net Cost of Operalions                           (6.975.81 4,483)    14.755,539.098)         (85,085,645)        1647,088,939)       ('08.321,693)                           (8,233,598)     647,087.626       (11.932,995,830)

     Change in Net Position                             (657.532.652)      1,406,764,594           10,281,738            (8,279,692)        8.062, 407             932.81 9           67.733                            760,296,947

     Net Position End of Period                        $141,027,859      $25,366,013.654         $172,781,031          $16,609,802        $16,018.675          $12,323.634         $765,758                         $25,725,540,413
     Note 17 Funds from Dedicated Collections                                                                                                                                                                               Total
                                                           8010               8011               8051 .001                0113                 8237               8051.002              8018                              Funds from
                                                           SSEB               RRA                   RUIA            Federa l Payments     limitation on             RUIA           Limitati o n on    Eliminations         Dedicated
                                                                                              Benefit Palments       to RR Accounts       Administration       Admin Exeenses           O'G                               Collections
     Balance Sheet as of September 30, 2012

     Assats

     Fund Balance with Treasury                           $12.873.699         $ 16,696.962           $3,970,793           $24 ,689,493         $15,167,549            5269,402         $1 ,262,271                           575,130.169
     Investments                                          928.271 .039        704,533,913                                                                                                                                  1.632,604,952
     NRRIT Nellnvesled Assets                                              23,641,360,613                                                                                                                                 23,641 ,360,813
     Taxes and Interest Receivable                       4,326,200,000          33,733,086           166,004,879                                   200,000          11 ,149,701                             (200,000)      4,537,087,666
     Other Assets                                                                                                                                1,971 ,179                               162,668                              2,134,047

                   Total Assets                          5,267,344,738     24 ,396,324,776           169,975,672           24,689, 493          17,338,726          ",419,1 03          1,425 139           (2001000)     29,866,517,649

     Liabilities Due and Payable                         4,466,784,224        425,144,523             7,476,379                                    431,152              28,286              6,525           (200,000)      4,901,671,091
     Other Liabilities                                                         11 ,931,193                                                       8,951 ,306                               720,591                             21,603,092

     Total   Liabi l ~ ies                               4,466,784,224        437.075,7 16             7,476,379                                 9,362 460
                                                                                                                                                      1
                                                                                                                                                                        28.266            727,116          1200,0001       4,923274,183

     Unexpended Appropriations                                                                                             24,669,493                                                                                         24,889,493
     Cumulative Results of Operations                     798,560,514      23,959,249,060            162,499,293                                 7,956,268          11 ,390,815           696 023                         24,940.353,973

                   Tolal Liabilities and Net Position   $5,267,344,738    $24,396,324,776          $169,975,672           $24,889,493          $17,338.728         $11,419,103         $1 ,425.139        ($200,000)     529,666,517,649


     Stat ement of Net Cost fo r th e Period
     Ended September 30, 2012



-
CO   Gross Program Costs
     Less Earned Revenues

     Net Program Costs
                                                        $6,754,175,261


                                                         6,754,175,281
                                                                           $4,649,972,473


                                                                            4,649,972,473
                                                                                                    $97,215,590
                                                                                                      20,611 ,899

                                                                                                     76,603,691
                                                                                                                         $771,007,122


                                                                                                                          771 ,007.122
                                                                                                                                              $125,470,056
                                                                                                                                                12.230,988

                                                                                                                                               113.239,066
                                                                                                                                                                                     $10,061 ,667
                                                                                                                                                                                       1,402,695

                                                                                                                                                                                        8,658,972
                                                                                                                                                                                                      ('i771 ,43O,776)
                                                                                                                                                                                                            1425,000)
                                                                                                                                                                                                       (771,005,776)
                                                                                                                                                                                                                         $11 ,636,471 ,613
                                                                                                                                                                                                                               33620,782

                                                                                                                                                                                                                          11 ,602,650,831

     Costs Not Attributable to Program Costs
     Less Earned Revenues Not
                Attributable to Program Costs

                                                        $6}54,175281       $4 ,649,972A73           $76,603,691
                                                                                                                                          •         28071

                                                                                                                                              $113,210,997                             $8658,972      ($77 1,005,776)
                                                                                                                                                                                                                                   28,071

                                                                                                                                                                                                                         $11602,622,760
     Net Cos t of Opera tions                                                                                            $771 1°07,122


     Statement of Changes in Net Positi on
     for th., Peri od End ed Septe mber 30, 2012

     Net Position Beginning of Period                    $319.946,490     $22,466,647A74            $40,274.485           $21 ,045,822          $3,347,267         $11,700.076          $769.122                         $22,863,732,736

     Appropriations Received                                                                                              774,911 ,655                                                                                       774,911 ,855
     Expended Appropriations                                                                                              771,007.122                                                                                        771 ,007,122
     Other Adjustments                                                                                                        (61 ,062)                                                                                           (61,062)
     Appropriations Used                                                                                                 (771,007,122)                                                                                      (771,007,122)

     Taxes and Non-Exchange Revenue                     2,899,565,099       2,672,098,716           188,614,995                                                     25, 462,563                        (771,005,776)       5,01 4,735.597
     Other Financing Sources                            4,333,222,206          (50,847,939)          10,213,504                                117,819,998         (25,771 ,624)        8,587,873                          4,393,223,81 8
     Transfers In From NRR tT                                               2 ,026,000,000                                                                                                                                 2,026,000,000
     Change in NRRIT Assets                                                 1 A95,323,282                                                                                                                                  1,495,323,282

     Net Cost of Opefations                             16,754,175,281)    !4.649.972,473)          !76,603,691 )        1771 ,007,122)       !'13,210.997 1                           18,6569721       771,005776       11'602,622,7601

     Change in Net Position                               478,612,024       1.492,601,586          122,224,808              3,843,671            4.609,001            1309,2S1 I          17 1,0991                        210 1 510,730

     Net Position End of Period                          $798,560,5 14    $23,959,249,060         $162A99,293             $24,889,493          $7,956 268          $11,390,81 5         $698,023                         524965,243,466
                                                                                                                                                     1
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations


All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The Category B direct obligations are $12,768,908,186 and the reimbursable obligations are
$22,596,587. These are reported under Obligations Incurred on the SBR in the amount of
$12,791,504,773 which combines the direct and reimbursable obligations.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2013 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and line 2190 in the Statement of Budgetary Resources.


19. Terms of Borrowing Authority Used

The RRB, Social Security Administration and Centers for Medicare and Medicaid Services are
parties to a financing arrangement described as the “financial interchange”.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Old-Age, Survivors, and Disability Insurance (OASDI) and
Hospital Insurance (HI) trust funds in the same position they would have been had railroad
employment been covered under the Social Security and Federal Insurance Contributions Acts.

Financial interchange transfers are made in a lump sum for a whole fiscal year in the June
following the close of a fiscal year. The Railroad Retirement Solvency Act of 1983, as
amended, provided for monthly advances of the financial interchange from the U.S. Treasury
general fund to be repaid when the financial interchange is settled each June. Each
advance/loan is equal to an estimate of the transfer the RRB would have received in the
preceding month if the financial interchange with social security were on an up-to-date basis,
with interest adjustments. The RRB must repay these advances/loans when it receives the
transfer from social security against which the money was advanced.

Section 7(c)(4) of the 1974 Railroad Retirement Act (RRA) as amended provides the rules for
repayment of the financial interchange advances and references Section 7(c)(3) for the interest
rate to be used.

The interest rate on the repayment of the advances is the same as that used in the actual
financial interchange determination from the close of the prior fiscal year until the date of the
transfer.


20. Available Borrowing Authority, End of the Period

The amount of RRB available borrowing authority at the end of the period associated with
financial interchange advances is $3,913,121,381.




                                               - 82 -

21. 	Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.


22. 	Subsequent Events

There was an increase of $1.0 billion in NRRIT net assets from the SOSI, January 1, 2013
valuation date and the September 30, 2013 balance sheet date. Other than this event, no other
material events or transactions have occurred subsequent to September 30, 2013, that we are
aware of. We have evaluated subsequent events through December 17, 2013, the date the
financial statements were released.


23. 	Adjustment to Unobligated Balance, Brought Forward, October 1, and Obligated Balance,
     Start of the Year

In fiscal year 2013, there is an adjustment to the unobligated balance brought forward of
$205,736 and an adjustment to obligated balances of $29,920,140. In fiscal year 2012, there is
a net adjustment to unobligated balance brought forward of $4,133,792 and an adjustment to
obligated balances of $119,255. (Please note the adjustment to obligated balances has a
rounding difference from fiscal year 2012 reporting due to a prescribed format change.) These
adjustments related to a subsequent review of fiscal year 2011 unobligated and obligated
balances.




                                             - 83 -

Note 24 Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30, 2013 and 2012
(in dollars)
                                                                                      2013                  2012
Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred                                                           $12,791 ,504,773      $12,576,701,992
 Less: Spending Authority from Offsetting Collections and Recoveries               (162,070,967)         (154 ,650 ,508)
 Obligations Net of Offsetting Collections and Recoveries                        12,629,433,806        12,422,051,484
 Less: Offsetting Receipts                                                                             (5 ,014,643,867)
 Net Obligations                                                                                        7,407,407,617

Other Resources
 Imputed Financing from Costs Absorbed by Others                                      8,750,053             9,851 ,806
 Other                                                                              856,007,894         1,630,113,284
 Net Other Resources Used to Finance Activities                                     864,757,947         1,639,965,090

 Total Resources Used to Finance Activities                                       8,812,656,544         9,047,372,707

Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods,
  Services & Benefits Ordered but not yet Provided                                    (5 ,021 ,006)         (3 ,036,494)
 Budgetary Offsetting Collections & Receipts That Do Not Affect Net
  Cost of Operations                                                                     874,575           (3 ,633,371 )
 Resources That Finance the Acquisition of Assets                                (1 ,375 ,309 ,714)    (1,497,424,767)
 Other Resources or Adjustments to Net Obligated Resources
  That Do Not Affect Net Cost of Operations                                       4 ,034 ,487,999       4 ,248,082,000

 Total Resources Used to Finance Items Not Part of the Net Cost of Operations     2,655,031,854         2,743,987,368

 Tota l Resources Used to Finance the Net Cost of Operations                     11,467,688,398        11,791,360,075

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in Annual Leave Liability                                                     (348 ,301 )          (253,111)
 Other                                                                              513,690,713          (134,586,696)
 Total Components of Net Cost of Operations That Will Require or Generate
  Resources in Future Periods                                                       513,342,412          (134,839,807)

Components Not Requiring or Generating Resources:
 Depreciation and Amortization                                                         1,496,113             1,211,936
 Total Components of Net Cost of Operations That Will Not Requ ire
  or Generate Resources                                                                1,496,113             1,211,936

 Total Components of Net Cost of Operations That Will Not Requ ire or
  Generate Resources in the Current Period                                          514,838,525          (133,627,871)

Net Cost of Operations                                                          $11,982,526,923       $11,657,732,204




                                               - 84-
                                          UNAUDITED                                                    


Required Supplementary Information

Social Insurance

  Program Financing

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare and Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
additional amount of social security payroll and income taxes which social security would have
received and computing the amount of additional benefits which social security would have paid
to railroad retirement beneficiaries during the same fiscal year. In the computation of the latter
amount, credit is given for any social security benefits actually paid to railroad retirement
beneficiaries. When benefit reimbursements exceed payroll and income taxes, the difference,
with an allowance for interest and administrative expenses, is transferred from the social
security trust funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer
would be made in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $83.5 billion, or
36.4% of the estimated future income of $229.3 billion.




                                               - 85 -
                                          UNAUDITED                                                   


Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of
birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,
surviving divorced spouses, partitioned surviving spouses, partitioned surviving divorced
spouses, divorced widow(er)s, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or five years if performed after 1995; for survivor benefits,
there is an additional requirement that the employee’s last regular employment before
retirement or death was in the railroad industry. If a railroad employee or his or her survivors do
not qualify for railroad retirement benefits, the RRB transfers the employee’s railroad retirement
credits to SSA, where they are treated as social security credits.

Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2013. The figures in the table are based on the
2013 Section 502 Report extended through calendar year 2087. The present values in the table
are based on estimates of income and expenditures through the year 2087. The estimates
include income and expenditures related to future participants as well as to former and present
railroad employees. The present values are computed on the basis of economic and
demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the 2013 Section 502 Report. Under employment assumption II,
starting with an average 2012 employment of 234,000, (1) railroad passenger employment is
assumed to remain level at 45,000, and (2) the employment base, excluding passenger
employment, is assumed to decline at a constant annual rate of 2.0 percent for 25 years, at a
reducing rate over the next 25 years, and remain level thereafter.




                                              - 86 -
                                            UNAUDITED                                                


Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

         Income: sources of income are payroll taxes, income taxes, investment income, and
          financial interchange transfers.

      		 Income excluding interesta: income, as defined above, excluding the investment income
          from assets of the trust fund.

      		 Expenditures: benefit payments and administrative expenses.

         Cashflow: either (1) income excluding interest or (2) expenditures, depending on the
          context, expressed in nominal dollars.

         Net Cashflow: income excluding interest less expenditures, expressed in nominal
          dollars.

The Statement of Social Insurance and the required supplementary information are based on
actuarial and economic assumptions used in the 2013 Section 502 Report extended through
calendar year 2087, the RRA, and the Railroad Retirement Tax Act. This information includes:

      (1) actuarial present values of future estimated expenditures for and estimated income from,
          or on behalf of, current and future program participants;

      (2) estimated annual income excluding interest and expenditures in nominal dollars and as
          a percentage of taxable payroll;

      (3) the ratio of estimated annuitants to estimated full-time employees, showing the 

          relationship between the program’s benefit recipients and taxpayers; and 


      (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
          which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.




_________________________
a
    References to interest income in this section may be considered as referring to total
    investment income including dividends and capital gains.



                                                - 87 -
                                           UNAUDITED                                                    





Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2013-2087 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads
during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income through 2027. By 2028, income
is greater than expenditures. This remains true throughout the remainder of the projection
period. Without investment income, however, annual expenditures are generally greater than
annual income although this is not true in 2056, 2057, 2063, 2064, 2067, and 2071 through
2077. Reasons for this pattern include participant demographics, the assumed drop in railroad
employment, and the automatic tier 2 tax rate adjustment mechanism. The combined balance
of the NRRIT, RR Account, and SSEB Account never becomes negative largely because (i) a
sufficient balance exists at the beginning of the projection period and (ii) tier 2 tax rates respond
automatically to changing account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase from 2013 through 2019 primarily due to the
anticipated retirement of a large percentage of the current workforce combined with the
projected decline in railroad employment. Except for the income from tier 1 payroll taxes, the
sources of income vary as a percentage of payroll.



                                                - 88 -
                                           UNAUDITED                                                    





Sensitivity Analysis -- The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2013, and are based
on estimates of income and expenditures during the projection period 2013-2087.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the
intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2012 is equal to 234,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 45,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate (0.5
percent for assumption I and 2.0 percent for assumption II) for 25 years, at a reducing rate over
the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 3.5 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment


                                                - 89 -
                                          UNAUDITED                                           


assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under employment assumptions I and II, no cashflow problems occur throughout the entire
period. Under employment assumption III, the combined balance of the RR Account, the
NRRIT, and the SSEB Account becomes negative in 2042 and remains so until 2085. Table 1
shows the excess of assets and the present value of income over the present value of
expenditures for the three employment assumptions.


                                       Table 1 

 Excess of Assets and Present Value of Income over Present Value of Expenditures for 

                     Three Employment Assumptions, 2013-2087 

                                     (in billions)

     Employment Assumption                    I             II              III

     Present Value                         $2.2            $1.6           $0.1

     Average Tier 2 tax ratea              16.6%           19.0%          21.8%


 a
     Average combined employer/employee tier 2 tax rate is calculated by dividing the
     present value of tier 2 taxes by the present value of tier 2 payroll.




                                                  - 90 -
                                         UNAUDITED                                                 





Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for assumptions I and II but goes negative in 2042 for assumption III and remains so until 2085.
Negative after-transfer balances under employment assumption III indicate the amount that
would be owed, including interest, if unreduced benefits were paid by borrowing.

Unlike the current projection, the projection done in 2012 showed that once the balance under
employment assumption III became negative it remained negative throughout the remainder of
the projection period. This year’s more favorable results were due to overall favorable
economic and employment experience, with the largest impacts resulting from employment
exceeding our projections and actual investment return of 13.9% exceeding the expected
investment return of 7% in calendar year 2012. 

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
10 percent in 2069 under employment assumption I but then increases again slightly to 12
percent in 2073 and remains at that level through 2087. The tax rate goes down to 12 percent
in 2085 under employment assumption II and drops to 10 percent in 2087. Under employment
assumption III, the tax rate reaches the maximum of 27 percent in 2031, remaining at that level
through the remainder of the 75-year period.




                                             - 91 -
                                           UNAUDITED                                                  





The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT to the total benefits and administrative expenses paid from the RR
Account and the NRRIT. Therefore, the tier 2 tax rate will be affected by employment
assumption. The tier 2 tax rate adjustment mechanism promotes but does not guarantee
solvency. The tier 1 tax rate does not vary by employment assumption.

Investment return: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the investment return of 7 percent used for our
projections, we show the effect on the combined accounts of an investment return of 4 percent
and an investment return of 10 percent. Table 2 shows the excess of assets and the present
value of income over the present value of expenditures for the three investment return
assumptions. If the tier 2 tax rate were fixed, the actuarial surplus would increase with
increasing investment return. However, the tier 2 tax rate adjusts to changing account
balances, resulting in the highest average tax rate under the 4 percent scenario and the lowest
average tax rate under the 10 percent scenario. Under the 7 percent scenario, the tax rate
adjustment mechanism keeps the system in close actuarial balance. Under the 10 percent
scenario, the tax rate falls to the minimum rate in 2044 and remains at that level.




                                               - 92 -
                                       UNAUDITED                                                 




                                       Table 2 

 Excess of Assets and Present Value of Income over Present Value of Expenditures for 

                  Three Investment Return Assumptions, 2013-2087


                                     (in billions)

  Investment Return Assumption             4%            7%             10%


  Present Value                           $9.2           $1.6           $0.9

  Average Tier 2 tax rate                 21.2%          19.0%          16.3%




Chart 4a shows the combined account balance under the three investment return assumptions
for the projection period. At a 4 percent investment return, the account balance reaches its
lowest value in 2026 and never becomes negative. After that it increases, except for slight
decreases in 2042 through 2048 before it starts increasing again in 2049. With a 7 percent
investment return, the account balance decreases through 2027 and increases thereafter. A 10
percent investment return results in a combined balance that increases throughout the
projection period. Although the 4 percent scenario shows the lowest account balance at the end




                                            - 93 -
                                          UNAUDITED                                                 


of the projection period, the concurrent use of a 4 percent discount rate results in the highest
surplus on January 1, 2013.

Chart 4b shows the tier 2 tax rate under the same three investment return assumptions. With a 4
percent investment return, the maximum tier 2 tax rate applies from 2027 through 2037 and again
from 2055 through 2057. With the 7 percent investment return, the maximum tax rate never applies
during the projection period. With a 10 percent investment return, the maximum tax rate is also
never applicable, and the minimum tax rate of 8.2 percent is paid beginning in 2044. As mentioned
above, the tier 2 tax rate is determined based on the ratios of asset values to benefits and
administrative expenses, so it will be affected by investment return, but tier 1 tax rates will not.




Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per full-
time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2013. For assumptions II and III, the
ratio is highest in 2022 and 2043, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to between 1.6 and 1.7 by the end of the
projection period. The convergence in number of annuitants per employee at the end of the
projection period results primarily from level employment projected in the latter years under all
three employment assumptions.




                                               - 94 -
                                                                       UNAUDITED                                                                       



                                          Chart 5: Average Number of Annuitants per Full-Time Employee


4_000,-- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - ,




3.500   r----------------------=::::::::::::==::=:=---------------------------------------~
' 000   +-----c7...".-~
                      '----------~
                                 ---",,----------___1
,,00 t-7"c/~=:____
                ......__ -_._ --
                               ~~--------l
'.000   [=--==::===
            ---    . .~
                      --...-.~
                             .-. ~~
                                 -
                                                                          ._---_.-.                  .~

                                                                                                                  ...--~
                                                                                                                             -.... -.. -.. -.. -.. -
1.500



1_000   f--I-==:-;'~;;;.;~;;;"'~,~.";;;~;;;~~,~l_--------------------------------~
               ---------   E ~Ia,..... n t A..""   " t" n "



0.500   tI----'======'=~=·,~="'='=·"=~"«="='="='-----------------------------------1


             2018          2023          2028            2033   2038                  2053   2058                  2073   2078         20 83
                                                                                                    '""   ' ",0




                                                                         - 95 -
RAILROAD RETIREMENT BOARD                                                                                 COMB INED
DISAGGREGATE OF BUDGETARY RESOURCES                                                                       RAILROAD
FOR THE YEAR ENDED SEPTEMBER 30 , 2013                                             COMBI NED           UNEMPLOYME NT        LI MITATiON ON
(in dollars)                                                                       RAILROAD             AND SICKNESS        THE OFFICE OF
                                                                                  RETIREMENT             INSURANCE             INSPECTOR         COMBINED
                                                                                   PROGRAM                PROGRAM                GENERAL          TOTALS

Budgetary Resources
Unobligated balance brought forward, October 1                                          43.356.466         149 ,101,940            648,131          193,106,537
Adjustment to unobligated balance brought forward , October 1 (+ or.)                      205,736                    0                  0              205,736
   Unobligated balance brought forward, October 1, as adjusted                          43 ,562,202        149,101,940             648,131          193,312,273
Recoveries of prior year unpaid obligations                                              1,685.010                    0             37,105            1,722,115
Other changes in unobligated balance (+ or-J                                            ( 180,240)                    0           (184,O77)            (364.317)
Unobligated balance from prior year budget authority, net                             45,066,972           149,101,940             501,159          194,670,071
Appropriation s (discretionary and mandatory)                                      8,602,3 14,657          100,086,979                   0       8,702,401,636
Borrowing authority (discretionary and mandatory)                                  3,913, 121,381                     0                  0       3,913,121,381
Spending authority from offsetting collections (discretionary and mandatory)         132,657,055            18,455,842           9,235,955          160,348,852
Total budgetary resources                                                         12,693 ,160,065          267 ,644,761          9,737, 114     12 ,970,541,940


Status of Budgetary Resources
Obligations incurred                                                              12,656,678 ,921          125,738,48 1          9,087,371      12,791,504,773
Unobligated balance, end of year:
   Apportioned                                                                          18,398,016         142,070,250              86,316          160,554,582
   Unapportioned                                                                        18,083 ,1 28          (163,970)            563,427           18,482,585
Total unobligated balance, end of year                                                  36,48 1,144        141,906,280             649,743          179,037,167
Total Budgetary Resources                                                         12,693,160,065           267,644,761           9,737, 114     12,970,541,940

Change in Obligated Balance
 Unpaid obligations:
Unpaid obligations, brought forward, October 1                                         971,08 1,700          3,696,063             614,138          975,391 ,901
Adjustment to unpaid obligations, start of year (+ or -)                               (29,920,140)                   0                   0         (29 ,920,140)
Obligations incurred                                                               12,656,678,92 1         125,738,48 1          9,087,371       12,791,504, 773
Outlays (gross) H                                                                ( 12,697,239,170)        (125,421 ,365)        (9 .000 .400)   (12,83 1,660,935)
Recoveries of prior year unpaid obligations (-)                                        ( 1,685,0 10)                  0            (37,105)          ( 1,722,115)
Unpaid obligations, end of year                                                       898,916,30 1           4,0 13, 179           664,004          903,593,484

 Uncollected payments :
Uncollected pymts, Fed sources, brought forward, Oct 1 (-)                                {224,330)               3,000                   0            (221 ,330)
Adjustment to uncollected pymts, Fed Sources, start of year (+ or -)                        23,472                    0                   0              23,472
Change in uncollected pymts, Fed Sources (+ or-)                                           223,002               (3.000)                  0             220,002
Uncollected pymts, Fed sources, end of year (-)                                             22,144                    0                   0              22,144

 Memorandum (non-add) entries
Obligated balance, start of year (+ or -)                                              940,960,702           3,699,062             614 ,1 38       945,273,903
Obligated balance, end of year (+ or .)                                                898,938,444           4,0 13.179            664,004         903,615,628


Budget Authority and Outlays, Net
Budget authority, gross (discretionary and mandatory)                             12,648,093,092           118,542,821           9,235 ,955     12,775,871,868
Actual offsetting collections (discretionary and mandatory) (-)                     (132,880,057)          ( 19,472,842)        (9,235,955)       ( 161,588,854)
Change in uncoHected cus tomer payments from Federal sources                             223,002                 (3.0001                  0             220,002
Budget authority, net(discretionary and mandatory)                                12,515,436,037            99,066,979                    0     12,614,503,0 16

Outlays, gross (discretionary and mandatory)                                      12,697,239, 170          125,421,365           9 ,000 ,400    12,831 ,660,935
Ac tual offsetting collections (discretionary and mandatory) (-)                    (132,880,056)          ( 19,472 ,842)       (9 ,235 ,956)     ( 161,588,854)
Outlays, net (discretionary and mandatory)                                        12.564,359,1 14          105.948,523            (235,556)     12,670.072,081
Distributed offsetting receipts (-)                                               (4,681,535,209)                     0                   0      (4,681,535,209i
Agency outlays, net (discretionary and mandatory)                                  7,882,823,905           105,948,523            (235,556)      7,988 ,536.872




                                                                               - 96-
                 UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL




                           Independent Auditor's Report

To the Board Members:

Report on the Financial Statements

We were engaged to audit the accompanying balance sheet of the Railroad
Retirement Board (RRB) as of September 30, 2013 and 2012; the related
statements of net cost, changes in net position, and budgetary resources for the
years then ended; the statement of social insurance as of January 1, 2013, 2012,
2011 , 2010, and 2009, the statement of changes in social insurance amounts for
the two year period ended December 31, 2012, and the related notes to the
financial statements.

Management's Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these
financial statements in accordance with accounting principles generally accepted
in the United States of America; this includes the design, implementation, and
maintenance of internal control relevant to the preparation and fair presentation of
financial statements that are free from material misstatements, whether due to
fraud or error.

Auditor's Responsibility

Our responsibility is to express an opinion on these financial statements based on
conducting the audit in accordance with auditing standards generally accepted in
the United States of America . Because of the matter described in the Basis for
Disclaimer of Opinion paragraph, however, we were not able to obtain sufficient
appropriate audit evidence to provide a basis for an audit opinion.

Basis for Disclaimer of Opinion

The National Railroad Retirement Investment Trust (NRRIT) was established
pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001
(Public Law 107-90). Under that law, the NRRIT is not a department, agency or
instrumentality of the Government of the United States. In addition, the law
specifically exempts the NRRIT from compliance with Title 31 , United States Code
which governs the monetary and financial operations of the Federal government.
The law also provides that the NRRIT annually engage an independent, qualified
public accountant to audit the financial statements of the NRRIT. Accordingly, the
Office of Inspector General (OIG) has not audited the books and records of the



844 N RUSH STREET CHICAGO IL 606 11-2092   - 97 -                    Printed on recycled paper
Independent Auditor's Report                                                              Page 2


NRRIT, nor had any input into the selection of the independent accountant
retained by the NRRIT, nor provided oversight to that firm in the execution of their
responsi bilities. As a result, the financial statements of the NRRIT were audited by
other auditors whose reports have been furnished to us. On October 22,2013, we
learned that the NRRIT hired a new audit firm to audit its fiscal year (FY) 2013
financial statements, therefore, its financial statements for FY 2013 and FY 2012
were audited by two different audit firms . Pursuant to the group financial
statement audit requirements promulgated by the American Institute of Certified
Public Accountants (AICPA) in AICPA Professional Standards in AU-C section 600
Special Considerations - Audits of Group Financial Statements, we contacted the
NRRIT requesting communication with and cooperation from its auditors. The
NRRIT did not respond to our request and RRB management took no action to
assist us in this matter. We inquired of agency management whether the required
communication and cooperation would be provided by the new auditor. Agency
management's response indicated that no change would be made regarding
communication with and cooperation from the NRRIT's auditor. As a result, the
NRRIT's auditors have not complied with the group financial statement audit
requirements . Consequently, we were unable to perform the specified AU-C
section 600 group audit procedures and have determined that undetected
misstatements, which could be material and pervasive, could exist.

The group financial statement audit requirements are applicable for all audits of
group financial statements for periods ending on or after December 15, 2012.
Failure by the NRRIT's auditor to cornply with these AICPA standards is
considered a violation of Rule 201 , General Standards, and Rule 202, Compliance
with Standards.

The net assets of the NRRIT represent $25.0 billion and $23.6 billion or
approximately 79% of the total assets reported for the RRB for FYs 2013 and
2012. NRRIT assets also represent approximately 94% and 95% of the Treasury
securities and assets held by the Railroad Retirement program as of
January 1, 2013 and 2012, respectively. Related changes in the net value of
investments held by the NRRIT are reported as a source of financing which
contributed a net gain of $1.4 billion during FY 2013 and a net gain of $1 .5 billion
during FY 2012.

In addition , we did not express an opinion on the RRB's FY 2012 financial
statements in our previous audit report dated November 15, 2012 due to the
significance of the NRRIT's net asset amounts in the RRB's financial statements
and the NRRIT auditor's peer review rating of pass with deficiency for reasons
                                    1
explained in our prior audit report. That audit opinion regarding the RRB's
FY 2012 financial statements remains unchanged .




1 "Report on the Railroad Retirement Board's Fiscal Year 201 2 Financial Statements," OIG Report
No. 13-01, November 15, 2012 .


                                               - 98 -
Independent Auditor's Report                                                 Page 3


Disclaimer of Opinion

Due to the significance of the matters described in the Basis for Disclaimer of
Opinion paragraphs, we have not been able to obtain sufficient appropriate audit
evidence to provide a basis for an audit opinion on the financial position of the
RRB, its consolidated net cost of operations and changes in net position, and
combined budgetary resources as of September 30 , 2013 and 2012; and the ·
financial condition ofthe Railroad Retirement program as of January 1, 2013, 2012
and 2011 and changes in the financial condition of the program for the two year
period ended December 31 , 2012. Accordingly, we do not express an opinion on
these financial statements.

Emphasis of Matter

The RRB discloses transactions with related parties in Note 2 to the financial
statements. The RRB, Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as a
financial interchange. Under this arrangement, transfers-in from the Social
Security Administration 's Old-Age and Survivors Insurance and Disability
Insurance trust funds and transfers-out to the Federal Health Insurance trust fund
represented approximately $4.0 billion (net), or about 35% of the financing sources
reported on the RRB's statement of changes in net position for FY 2013 before
considering the change in the reported value of NRRIT net assets. For FY 2012 ,
financial interchange transfers of $4.2 billion (net) represented about 35% of the
financing sources reported before considering the reduction in the reported value
of NRRIT assets. Our opinion is not modified with respect to this matter.

Other Matter

Accounting principles generally accepted in the United States of America require
that the following required supplementary information be presented to supplement
the basic financial statements: Management Discussion and Analysis section
beginning on page 7, Social Insurance on page 85 and Statement of Budgetary
Resources on page 96. Such information , although not a part of the basic financial
statements, is required by Office of Management and Budget (OMS), which
considers it to be an essential part of financial reporting for placing the basic
financial statements in an appropriate operational , economic, or historical context.
We have applied certain limited procedures to the required supplementary
information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with
management's responses to the auditor's inquiries, the basic financial statements
and other knowledge the auditor obtained during our audit of the basic financial
statements. We do not express an opinion or provide any assurance on this
information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.



                                         - 99 -
Independent Auditor's Report                                                                    Page 4


Report on Other Legal and Regulatory Requirements

We conducted our audit in accordance with auditing standards generally accepted
in the United States of America ; the standards applicable to financial audits
contained in U.S. Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 14-02, Audit Requirements for
Federal Financial Statements.

Consideration of Internal Control

In planning and performing our audit, we considered the RRB's internal control
over financial reporting and compliance. We did this to determine our procedures
for auditing the financial statements and to comply with OMB audit guidance, and
not to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance or on
management's assertion on internal control included in Management's Discussion
and Analysis.

With respect to previously reported control deficiencies, the RRB has made
progress in strengthening its information security program but this effort is not yet
complete and material weaknesses remain. 2 The previously reported material
weakness for budgetary reporting is now being reported as a significant deficiency
because the errors found during FY 2013 were less severe than a material
weakness.

Our internal control work would not necessarily disclose all deficiencies in
internal control that might be material weaknesses or other significant
deficiencies. Although not considered to be material weaknesses or significant
deficiencies, we will report other matters involving internal control and its operation
to RRB management in a separate letter.




2 A material weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity's financial statements will
not be prevented, or detected and corrected on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.




                                                  - 100 -
Independent Auditor's Report                                             Page 5


Material Weaknesses

Information Technology Security - Risk Management Framework

During FY 2013 , the OIG evaluated the RRB's information security program
pursuant to the provisions of Federal Information Security Management Act
(FISMA). OIG auditors found that weaknesses regarding the review of
contractor deliverables associated with the risk management framework continue
to be found. Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.

Information Technology Security - Configuration Management

During FY 2013 , the OIG evaluated the RRB's security configuration
management program pursuant to the provisions of FISMA. OIG auditors found
that weaknesses associated with the configuration management of some agency
systems continue to be found . Although agency managers are working to
remediate these weaknesses, management action had not been completed as of
the end of the current period .

Significant Deficiency

Budgetary Reporting

In FY 2011, we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for
the preparation of the statement of budgetary resources and implement a review
process to ensure the accuracy of calculations, consistency in recorded amounts
and effectiveness of controls. In an effort to address this material weakness,
budgetary training was conducted for various BFO personnel in June 2013.
During FY 2013 , the OIG identified a significant improvement in the preparation
of the statement of budgetary resources. Although errors were found, they did
not exceed our materiality threshold. Further corrective action remains to be
taken regarding an improved review process to ensure the accuracy of
calculations, consistency in recorded amounts and effectiveness of controls.

Compliance with Laws and Regulations

Our tests of the RRB 's compliance with selected provisions of laws and
regulations for FY 2013 disclosed no instances of non-compliance that are
reportable under auditing standards generally accepted in the United States of
America or OMB guidance. However, the objective of our audit was not to
provide an opinion on overall compliance with laws and regulations. Accordingly,
we do not express such an opinion.




                                      - 101 -
Independent Auditor's Report                                                   Page 6


Objectives, Scope, and Methodology

RRB management is responsible for (1) preparing the financial statements in
conformity with U.S. generally accepted accounting principles , (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the Federal Managers' Financial Integrity Act
(FMFIA) are met, and (3) complying with applicable laws and regulations.

We are responsible for (1) obtaining a sufficient understanding of internal control
over financial reporting and compliance to plan the audit, (2) testing compliance
with selected provisions of laws and regulations that have a direct and material
effect on the financial statements, and laws for which OMB audit guidance
requires testing; and (3) performing limited procedures with respect to certain
other information appearing in the RRB's Performance and Accountability
Report. We considered the RRB 's compliance with laws and regulations for
FY 2013 . In order to fulfill these responsibilities , we:

   •   assessed the factors, data, assumptions and model used by RRB
       management to prepare the long-term actuarial projections presented in
       the statement of social insurance;
   •   assessed the reconciliation of the beginning and ending open group
       measure including the significant components of the change presented in
       the statement of changes in social insurance amounts;
   •   evaluated the overall presentation of the financial statements;
   •   obtained an understanding of the entity and its operations, including its
       internal control related to financial reporting , compliance with laws and
       regulations (including execution of transactions in accordance with
       budget authority);
   •   tested relevant internal controls over financial reporting and compliance,
       and evaluated the design and operating effectiveness of internal control;
   •   considered the design of the process for evaluating and reporting on
       internal control and financial management systems under the FMFIA;
       and




                                         - 102 -
Independent Auditor's Report                                                    Page 7


   •   performed tests of compliance with selected provisions of laws and
       regulations , including laws governing the use of budget authority, and
       other laws and regulations that could have a direct and material effect on
       the RRB's basic financial statements:

          o Anti-Deficiency Act, as amended ;
          o   provisions of the Railroad Retirement Act governing financing and
              the payment of benefits;
          o   provisions of the Railroad Unemployment Insurance Act governing
              financing and the payment of benefits; and
          o   provisions of the Social Security Act that provide for certification of
              benefits to the RRB for payment (42 U.S.C. § 405(i)).

We considered the material weaknesses identified above in determining the
nature, timing, and extent of our audit procedures on the FY 2013 financial
statements.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the FMFIA, such as controls relevant to preparing statistical
reports and ensuring efficient operations. We limited our internal control testing
to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected by our audit. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. We also caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the RRB.
We limited our tests of compliance to selected provisions of laws and regulations
that have a direct and material effect on the RRB 's financial statements and
those required by OMB audit guidance that we deemed applicable to the RRB's
financial statements for the fiscal year ended September 30,2013. We caution
that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.




                                         - 103 -
Independent Auditor’s Report                                                Page 8

RRB MANAGEMENT’S COMMENTS

Agency management commented that the agency has taken significant steps to
enhance operations and internal controls to provide the public quality service that
can be depended on through time. Agency management stated that bureau and
office personnel have worked diligently to meet and in most cases exceed
performance objectives as the RRB migrates to a new core financial system during
this challenging fiscal period. Agency management also stated that the results are
capitalized in the removal of material weaknesses, increased efficiencies through
the modernization of manual business practices, and strengthened internal
controls. They also stated that it is unfortunate that the weight of a single policy
element driving the outcome on the presentation of the RRB’s financial statements
overshadows the long term gains the agency has made in reporting the agency’s
financial position. They also stated that nevertheless, agency management will
continue to take pride in the RRB’s abilities and take advantage of opportunities to
make the RRB’s financial position even better as the agency continues to support
the OIG audit efforts.

The full text of management’s response follows as an attachment to this report.
We did not perform audit procedures on the RRB's written response and,
accordingly, we express no opinion on the response.

Original signed by:

Martin J. Dickman
Inspector General
Chicago, Illinois
December 5, 2013




                                      - 104 -
                                                                                   Attac hmen t
                                                                                   Pag e 9
                       UNITED STAT ES G OV ER N MENT                                         FilM   ~ · 1I5f   11·12]


                       MEMORANDUM                                    RAILROAD RETIREMENT BOARD


                                                                                 December 16, 2013



TO             :       Diana Kruel
                       Assistant Inspector General for Audit

FROM           :       George V. Govan             GEORGE
                       Chief Financial Officer     GOVAN



SUBJECT            :   FY 2013 Financial Statement Audit - Auditor ' s Report;
                       Re: Your memorandum dated December 16, 2013




The agency has taken significant steps to enhance operations and internal controls to provide
the public quality service that can be depended on through time. Bureau and office personnel
have worked diligently to meet and in most cases exceed performance objectives as we migrate
to a new core financial system during this challenging fiscal period. The results are capitalized
in the removal of material weaknesses, increased efficiencies through the modernization of
manual business practices, and strengthened internal controls. However, it is unfortunate that
the weight of a single policy element driving the outcome on the presentation of our financial
statements overshadows the long term gains the agency has made in reporting our financial
position. Nevertheless, we will continue to take pride in our abilities and take advantage of
opportunities to make our financial position even better as we continue to support your audit
efforts.




cc:        The Board
           Executive Committee




                                                  - 105 -
PAGE INTENTIONALLY LEFT BLANK 

OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK 

                UNITED STATES RAILROAD RETIREMENT BOARD

                          OFFICE OF INSPECTOR GENERAL




            MANAGEMENT AND PERFORMANCE CHALLENGES
              FACING THE RAILROAD RETIREMENT BOARD

This statement has been prepared pursuant to the Reports Consolidation Act of
2000 and the requirements of Office of Management and Budget Circular A-136
which require that the Inspectors General identify what they consider the most
serious management challenges facing their respective agency and briefly
assess the agency's progress in addressing those challenges.

Congress created the railroad retirement system more than 75 years ago. The
Railroad Retirement Act (RRA) created a nationwide retirement system for
railroad workers to provide income security in old age. Over the years the
program has been expanded to include disabled workers, elderly spouses and
widow(er)s , children , and parents of young children. In 1938, Congress added a
nationwide system of unemployment insurance and later a program of sickness
insurance benefits. During fiscal year (FY) 2012, the Railroad Retirement Board
(RRB) paid about $11.4 billion for retirement and survivor benefits to
approximately 573 ,000 beneficiaries and roughly $76 million in net
unemployment and sickness insurance benefits to some 27,000 claimants .

Our identification of challenges facing RRB management is based on recent
audits and evaluations; changes in auditing standards impacting the National
Railroad Retirement Investment Trust; financial management system changes;
current Long Island Railroad investigative developments; and congressional
directives to prevent improper payments and fraud in government programs.
The following challenges were identified during FY 2013:

   •   Impact of AICPA group audit standard ;
   •   Migration to Financial Management Integrated System;
   •   Occupational disability program integrity;
   •   Information technology security;
   •   Budgetary reporting ;
   •   Preventing and detecting improper payments; and
   •   Oversight of Railroad Medicare.




844 N RUSH STREET CHICAGO IL 60611-2092
                                          - 109 -
Inspector General Statement                                                                 Page 20f6
Management and Performance Challenges

Impact of AICPA Group Audit Standard

The National Railroad Retirement Investment Trust (NRRIT), a significant
component of the Railroad Retirement Board (RRB), is required by law to
prepare annual financial statements and has engaged a public accountant to
perform an audit of these statements prior to release. The RRB Office of
Inspector General (OIG) is required by law to audit the financial statements of the
RRB. In accordance with United States' Government Auditing Standards, both
the OIG and the NRRIT's auditor are required to comply with the American
Institute of Certified Public Accountants' (AICPA) Auditing Standards for financial
statement audits.

To comply with the AICPA's new group financial statement auditing standard, the
RRB-OIG contacted the NRRIT's Chair by letter on May 10, 2013 requesting
direct communication with, and cooperation from their aUditor1. On May 24 ,
2013, the RRB's Chief Financial Officer (CFO) responded on their behalf that
"the NRRIT is not a department, agency, or instrumentality of the United States
Government, and consequently is not itself subject to Federal audit
requirements." Although the RRB is correct that the NRRIT is not a Federal
entity and not directly subject to Federal audit requirements, the OIG has
concluded that the AICPA's standards apply to all component entities that
prepare audited financial statements both Federal and Non-Federal.

To date, there has been no communication or cooperation from the NRRIT's
auditor, directly or indirectly. Failure by the NRRIT's auditor to comply with these
AICPA standards is considered a violation of Rule 201, General Standards, and
Rule 202 , Compliance with Standards.

In view of the fact that the RRB-OIG cannot obtain sufficient appropriate audit
evidence with respect to the NRRIT, we plan to issue a disclaimer of opinion, as
required by AICPA AU-C Section 705.10, on the RRB's FY 2013, financial
statements. To prevent future disclaimers of opinion, it's imperative that RRB
management counsel the NRRIT regarding its auditor's responsibilities to comply
with the AICPA's group financial statement requirements.




I AU-C Secti on 600, Special Considerations - Audits of Group Financial Statements (including the Work of

Component Auditors)
                                                 - 110 -
Inspector General Statement                                               Page 3 of6
Management and Performance Challenges

Migration to Financial Management Integrated System

During FY 2013, the RRB underwent a major system migration to the Financial
Management Integrated System (FMIS) . The migration to FMIS involved a
transition from the Ra ilroad Retirement Board's (RRB) legacy core Federal
Financial System to the FMIS's Momentum, a cloud-based hosted solution. The
RRB contracted with an external audit firm and a shared service provider to plan
and conduct the migration . Preparation for the transition to the FMIS began in
FY 2011 , and FMIS became fully operational as of October 1, 2013.

During the transition period, key staffing changes significantly impacted the
RRB's financial accounting operations, audit responsiveness, and migration
planning . We observed unanticipated financial errors and delays with respect to
the agency's audit deliverables and year-end closeout that can be attributed to
inexperienced financial staffing and an expected learning curve. Transition to the
new system also required financial accounting staff to allocate time to migration
planning and testing, and to attend training courses which further limited their
workload availability.

Management has responded to the challenge, thus far, by completing the
planned training and migration as of the scheduled implementation date.
However, post-migration evaluation is needed to determine whether users have
fully adapted to the FMIS and can handle their workload responsibilities in a
timely manner.


Program Integrity for the Occupational Disability Program

Since 2004, the OIG has issued numerous recommendations in the form of
audits, alerts, and memoranda directed toward increasing program integrity
within the RRB's occupational disability program many addressing weaknesses
identified during the Long Island Railroad (L1RR) investigation. To date , the RRB
has failed to either adequately address or implement the majority of these
recommendations and has allowed the adjudication process to remain ineffective
and incapable of preventing fraud . For example, the RRB attempted to increase
oversight efforts through Board Order 08-63, yet L1RR occupational disability
approval ratings remain essentially unchanged at 98%.

In addition, in January 2013 , the OIG reported that the RRB 's disability
examiners did not always verify job duty information before granting occupational
disability annuities. The OIG identified nine individuals employed by L1RR who
had been approved for occupational disability annuities even though L1RR did not
report their job information to the RRB . The nine unverified annuities
represented an estimated $3.8 million in financial risk to the agency. To date , the
RRB has not taken any corrective action to improve this process.


                                        - 111 -
Inspector General Statement                                                Page 4 of6
Management and Performance Challenges

The RRB OIG's investigation efforts have resulted in 30 annuitants, 2 doctors,
and a former longtime RRB employee being either convicted or pleading guilty to
charges stemming from their involvement in the sweeping LlRR occupational
disability fraud scheme. In response to these actions, the RRB recently
terminated approximately $2 million worth of monthly disability payments,
representing approximately 700 LlRR annuitants. Approximately 400 of these
LlRR annuitants have since filed new disability applications pursuant to Board
Orders 13-33 and 13-55.

As responsible public stewards, RRB management must change its course and
implement comprehensive procedural changes to ensure that occupational
disability award benefits are adjudicated by independent medical doctors based
upon additional documentation submitted in accordance with recommendations
contained in our previous audits, alerts, and memoranda. The RRB's practice of
awarding occupational disability benefits based upon questionable and fraudulent
applications will continue to cost the RRB millions in annual administrative
expenses if major changes are not made.

The entitlement to occupational disabilities is established by federal statute that
requires the RRB to establish occupational disability standards with the
cooperation of railroad labor and management. The RRB should work with
railroad labor and management to implement these procedural changes or take
steps to terminate the program.

SUbstantial and meaningful change within the occupational disability program is
needed to prevent unnecessary exposure to fraud waste and abuse. Given the
pervasive fraud exposed by the LlRR case and the inconceivable and near 100%
approval rate , the occupational disability program must not be allowed to
continue in its current form .


Information Technology Security

During FY 2013, the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act
of 2002 (FISMA) and concluded that the RRB has not yet achieved an effective
FISMA-compliant security program. A material weakness for the information
technology security risk management framework will continue to be reported as
OIG auditors determined that weaknesses regarding the review of contractor
deliverables associated with the risk management framework continue to be
found. Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.




                                        - 112 -
Inspector General Statement                                             Page 50f6
Management and Performance Challenges

A material weakness will also continue to be reported for the RRB's information
technology security configuration management program , as OIG auditors found
that weaknesses associated with the configuration management of some agency
systems continue to be found. Although RRB management is working to
remediate these weaknesses, corrective action had not been comp leted as of the
end of the current period.


Budgetary Reporting

In FY 2011 , we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for the
preparation of the Statement of Budgetary Resources and implement a review
process to ensure the accuracy of calculations, consistency in recorded amounts
and effectiveness of controls . In an effort to address this material weakness,
budgetary training was conducted for various BFO personnel in June 2013.
During FY 2013, the OIG identified a significant improvement in the preparation
of the statement of budgetary resources .

Further corrective action remains to be taken regarding an improved review
process to ensure the accuracy of calculations , consistency in recorded amounts
and effectiveness of controls . However, we anticipate based on the noted
improvements that the material weakness will be downgraded to a significant
deficiency.


Preventing and Detecting Improper Payments

Pursuant to the Improper Payments Elimination and Recovery Act of 2010, each
year the RRB reports agency progress in reducing improper payments , and has
reported a reduction in the rate of RRA improper payments (as compared with
outlays) dropping from 1.64% in FY 2004 , to .54% in FY 2012. During FY 2012,
the RRB recognized more than $45 million in new RRA overpayments. An
additional , $3 .6 million in new overpayments were identified in the Railroad
Unemployment and Sickness Insurance (RUIA) program .

The RRB reports that more than 90% of RRA improper payments are due to
changes com ing from outside the agency and the challenge is to obtain the
information and process it as quickly as possible . The RRB has established a
number of automated initiatives designed to minimize RRA improper payments.
The reduction of RRA improper payments is impacted by manual workload
backlogs and requires long range planning . RUIA improper payments are
considered relatively low due to the RRB's current program integrity effort. The
RRB has convened an inter-bureau project team to identify additional ways of
further minimizing RUIA improper payments .


                                        - 113 -
Inspector General Statement                                            Page 6 of 6
Management and Performance Challenges

The OIG recognizes the RRB’s ongoing efforts toward minimizing RRA and RUIA
improper payments. However, the RRB must include initiatives to reduce the
impact of manual workload backlogs on RRA improper payments in their long
range planning.


Oversight of Railroad Medicare

In July 2013, the OIG reported that the RRB’s current Management Control
Review (MCR) process does not include the RRB’s responsibilities for oversight
of the Railroad Medicare contract with Palmetto, GBA LLC. While Railroad
Medicare has been identified by the RRB as a mission-critical agency program,
with annual processed claims exceeding 9.4 million and payments of
approximately $849 million for Part B medical services, the Office of Programs
has not conducted an MCR risk assessment or established risk-based control
objectives and techniques specific to its contract oversight responsibilities.

The OIG estimates Railroad Medicare Part B improper payments to be more than
$84 million, annually. As Railroad Medicare contract oversight is not subject to
the RRB’s MCR process, the risks of program fraud, waste, and abuse cannot be
fully mitigated by management controls. As a result, material weaknesses or
significant deficiencies in the Railroad Medicare program may go undetected.

Management has partially addressed Railroad Medicare in the agency’s MCR
process by establishing assessable units for monitoring the agency’s Railroad
Medicare and contract procurement functions where the work is performed
directly by the agency. However, the Office of Programs has not included the
Railroad Medicare contract oversight function and has not addressed contract
oversight controls in the MCR process. Management’s inclusion of contract
oversight in the RRB’s MCR process will help to ensure the fulfillment of the
RRB’s program responsibilities, which include monitoring the integrity and
effectiveness of the Railroad Medicare program and its contract with
Palmetto, GBA LLC.

Original signed by:

Martin J. Dickman
Inspector General

November 15, 2013




                                     - 114 -
                                   Management’s Comments


These are Management’s comments on the Management and Performance Challenges
identified by the Railroad Retirement Board (RRB) Inspector General.

Impact of AICPA Group Audit Standard

When enacting the Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA),
Congress established the NRRIT as in independent entity with responsibility for investment of
the railroad retirement pension funds. The NRRIT is not a Federal entity and is not a part of the
RRB. The RRB may bring a civil action against NRRIT if NRRIT violates any provision of the
RRSIA. Congress intentionally created the NRRIT as an independent entity to avoid close
control by the Federal government over investment in the equities markets. The NRRIT is
annually audited by an independent qualified public accountant as to their financial statements.
The RRB and NRRIT have appropriately adhered to the Railroad Retirement Act requirements
concerning audits of federal and non-federal government entities. The OIG communicated to
the RRB, as the group management representative for the audit, that due to the new AICPA
standard AICPA-AU-C section 600, the OIG must provide a disclaimer opinion. However, the
RRB notes AICPA AU-C section 705 allows the auditor discretion to issue a “qualified” decision
in adherence with the new AICPA AU-C section 600 standard.

Specifically, the AICPA AU-C section 705.08 states that the auditor should express a qualified
opinion when the auditor is unable to obtain sufficient appropriate audit evidence on which to
base the opinion, but the auditor concludes that the possible effects on the financial statements
of undetected misstatements, if any, could be material but not have pervasive effect on the
financial statement. In this context, AU-C 705.06 defines “pervasive” as effects which are not
confined to specific elements, accounts or items; if so confined, represent or could represent a
substantial proportion of the financial statements; or are disclosures which are fundamental to
users’ understanding of the financial statements.

Through the course of the audit, OIG has not communicated or established that the undetected
misstatements are pervasive within the guidelines of this standard. Therefore, the RRB does
not believe the situation warrants a disclaimer opinion on the RRB financial statements. The
RRB will continue to work with the OIG to identify solutions for preventing future audit
disclaimers.


Program Integrity for the Occupational Disability Program

The RRB shares a common goal with the OIG – the prevention of the award of disability
annuities to ineligible individuals. Significant time and resources are being devoted to ensuring
the integrity of the occupational disability program.

In regard to the Long Island Railroad (LIRR) investigation referenced by the OIG, the number of
occupational disability applications filed by LIRR employees has decreased significantly and
procedural modifications, many of which were recommended by the OIG, have been made to
the adjudication of these applications. Consultative examinations are being ordered for all
individuals filing for benefits under Board Orders 13-33 and 13-55 (except in cases where the
applicant suffers from a terminal illness or cancer). When necessary, consultative medical
opinions may be sought and residual functional capacity tests may be ordered. Additionally, new

                                              - 115 -

and current medical evidence is being considered in evaluating these applications. Prior to
adjudication, claims examiners are being given specialized training to ensure that proper
procedure is being followed at all times.

Where an individual claims disability due to an orthopedic impairment, he or she must undergo
a consultative exam performed by an orthopedic specialist. Board certified orthopedic
physicians will also assist examiners in reviewing the medical evidence and will provide
recommendations concerning additional testing that may be needed. The procedure has also
been modified for LIRR applicants to gather additional information through supplemental
questionnaires, and the Field Service is required to contact the applicants to gather additional
information concerning their lifestyle, recreational activities and/or voluntary work.

Generally, we are proactively studying trends in the occupational disability program for the
purpose of detecting anomalies and/or patterns of fraud or abuse. A program is now in place for
tracking physicians whose medical reports are submitted in support of disability benefits
applications. We are developing and implementing a multi-phase Disability Program Integrity
Action Plan focused on increasing fraud awareness and other fraud detection methods.
Refresher training by contract physicians in the review of medical records has been given to
disability examiners. We have also provided examiners with training in fraud awareness (and
this training is being utilized in reviewing the LIRR applications). The Board is also taking a fresh
look at past recommendations from the OIG for changes to the occupational disability program.
For example, staff is being instructed to reevaluate current forms to ascertain whether
incorporating additional questions would be helpful in the processing of disability applications or
to ferret out fraud. The Board has also forwarded the issue of job information reports to Rail
Labor and Management and asked them to discuss the job information process and current
generic job descriptions to determine and consider any improvement or updates.


Information Technology Security

The RRB continues to improve its Information Security posture. Over the past year, the agency
has made great strides towards implementing a robust, compliant Risk Management Framework
(RMF) Continuous Monitoring program. All Information System Owners participated in the RMF
process to ensure their information systems have met the required Federal Information Security
Management Act (FISMA) compliance standards. Information System Owner participation in
the RMF process to date has included:

      selecting the security controls applicable for each information system,
      developing a risk assessment for each information system,
      selecting security controls to be tested for each information system, and
      reviewing the Security Assessment Reports (SAR) delivered by the third party assessor.

The updated documentation, including updated SAR’s for each information system, an updated
System Security Plan (SSP) for each information system, and an updated Plan of Actions and
Milestones (POA&M) for each information system is scheduled for delivery by the third party
assessor in December 2013. Evaluation and approval of all documentation by Information
System Owners is expected to occur by the end of January 2014. Once completed, we believe
the material weakness for Risk Management Framework (RMF) Continuous Monitoring will be
corrected.


                                               - 116 -

With regard to the material weakness in Configuration Management, the Application Design
Center (ADC) is scheduled to complete the migration of agency applications (i.e. the MAVE
project) by the end of December 2013. With the completion of the MAVE Project, and the
subsequent removal of the five Windows 2000 Servers associated with these applications in
early 2014, we believe the information technology security configuration management material
weakness will be resolved.


Preventing and Detecting Improper Payments

The RRB has consistently focused its efforts on monitoring and reducing improper payments
and has steadily achieved impressive results. As recognized by the Inspector General, the rate
of improper payments under the Railroad Retirement Act decreased from 1.64% in fiscal year
2004 to .54% in fiscal year 2012. We attribute this accomplishment primarily to increased
automation and standardization of work processes, and ongoing training of staff. We also
perform detailed quality assurance studies and follow-up on all findings indicating that
improvements are possible.

The Inspector General also noted that more than 90% of the RRA improper payments are due
to information from external sources, such as changes in the beneficiary’s status that affects
entitlement or eligibility. We agree with the Inspector General that the RRB’s challenge is to
obtain current and accurate information and process it as quickly as possible. Many of our long-
term system initiatives work toward that end.


Oversight of Railroad Medicare

The RRB is currently working on modifying the Medicare Management Control Review (MCR)
process to include the Medicare contract and to document the controls and oversight that are in
place to safeguard against waste, fraud and abuse. The Medicare MCR process will be
updated and the controls in place will be tested by the end of FY 2014.

Now that the RRB has a Specialty Medicare Administrative Contract (SMAC), we are
responsible for ensuring that Palmetto GBA is in complete compliance with the Statement of
Work (SOW) as outlined in our contract. The base year of the new SMAC was completed on
September 30, 2013 and we are in the process of assessing our contractor’s performance as
required by the Federal Acquisition Regulation. Finally, overall responsibility and handling for
the management and operations of the Medicare program is assigned by law to the Centers for
Medicare and Medicaid Services (CMS), which means that, Palmetto GBA must adhere to the
guidelines and procedures established by CMS.

Once the Medicare MCR process has been updated and the controls in place have been tested,
the Medicare MCR will not only reflect the actions taken by the RRB but will reflect the
mechanisms that are in place to safeguard the Medicare Trust Fund.




                                             - 117 -

                Improper Payments Information Act (IPIA) Reporting Details
                                (as amended by IPERA)


I. Risk Assessment. Briefly describe the risk assessment(s) performed (including the risk
factors examined, if appropriate) subsequent to completing a full program inventory. List
the risk-susceptible programs (i.e., programs that have a significant risk of improper
payments based on OMB guidance thresholds) identified by the agency risk assessments.
Include any programs previously identified in the former Section 57 of OMB Circular
No. A-11. Highlight any changes to the risk assessment methodology or results that
occurred since the last report.

The RRB administers two benefit payment programs: Railroad Retirement Act (RRA) retirement
and survivor benefits, and Railroad Unemployment Insurance Act (RUIA) unemployment and
sickness benefits. Both were designated as “high risk” under the former Section 57 of
Circular A-11.

In January 2009, the Office of Management and Budget granted a three year relief from
reporting the RUIA program improper payments due to the consistently low level of error over
several years. Therefore, our Performance and Accountability Reports for fiscal years 2009
through 2011 included only our analysis of RRA improper payments. Reporting of RUIA
improper payments resumed in fiscal year 2012.

The fiscal year 2012 analysis of RUIA payments indicated an increase in the amount of
improper payments since the analysis was last done in fiscal year 2008. The increase was
primarily due to increased usage of the unemployment program as a result of the economic
recession that occurred during this interim period, as well as the enactment of several pieces of
legislation which increased duration of unemployment benefits.

We expected that the improper payment rate would decrease over time and return to the levels
previously seen before the recent unemployment legislation was enacted. The results of this
year’s RUIA improper payment analysis show a significant decrease in the amount of erroneous
payments.

The agency used the process described below to calculate the amount of RRA and RUIA
improper payments made in fiscal year 2012.

                   Results of Fiscal Year 2012 Improper Payment Review

                 Improper Payment Amt.         Improper Payment Rate          Action Plan or
  Program
                      >$10 million                     >2.5%                 Targets Needed?

RRA                        Yes                            No                        No

RUIA                       No                            Yes                        No



II. Statistical Sampling. Any agency that has programs or activities that are susceptible to
significant improper payments shall briefly describe the statistical sampling process
conducted to estimate the improper payment rate for each program identified with a



                                             - 118 -
significant risk of improper payments. Please highlight any changes to the statistical
sampling process that have occurred since the last report.

The agency has an established methodology for identifying improper payments in the RRA and
RUIA benefit payment programs. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards. Also included in the estimated amounts are projections of improper
payments from audits, special studies, and estimates of manual work based on pending
workload referrals.


III. Corrective Actions. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the corrective action plans for:

a. Reducing the estimated improper payment rate and amount for each type of root cause
identified. Agencies shall report root cause information (including error rate and error
amount) based on the following three categories: Administrative and Documentation errors;
Authentication and Medical Necessity errors; and Verification errors. This discussion must
include the corrective action(s), planned or taken, most likely to significantly reduce future
improper payments due to each type of error an agency identifies, the planned or actual
completion date of these actions, and the results of the actions taken to address these root
causes. If efforts are ongoing, it is appropriate to include that information in this section,
and to highlight current efforts, including key milestones. Agencies may also report root
cause information based on additional categories, or sub-categories of the three categories
listed above, if available.

The root causes of error in the RRA program are summarized according to OMB’s root causes
in the table below.

           Root Cause of Error                Estimated Rate           Estimated Amount
   Administrative and Documentation                5.8%                      $3,559,521
   Authentication and Medical Necessity            2.2%                      $1,390,148
   Verification and Local Administration          92.0%                    $56,875,444
   Total                                          100%                     $61,825,113

Corrective Actions:

Administrative and Documentation: These errors result from improper handling by the
agency’s automated systems or its personnel. Planned corrective actions include:
		 development of an enhanced automated retirement payment system to replace the current
    legacy system that processes retirement applications, planned for fiscal year 2014,
		 development of an interface between systems to ensure accurate use of military service in
    the calculation of benefits, tentatively scheduled for completion in fiscal year 2014,
		 expansion of a Medicare premium collection database to include Part B premium
    withholding history; work is tentatively scheduled to begin after implementation of the Part D
    IRMAA withholding project which is targeted to take place in fiscal year 2014,



                                              - 119 -

		 changes to ORCS (Overpayment Recovery Correspondence System), which is used to
   prepare overpayment notices and to upload overpayment data to other related agency
   systems (Program Accounts Receivable and Automated System to Recover Overpayments).
   ORCS is being automated to interact with mainframe programs to ensure that the most
   current data is retrieved and used in the development of RRA overpayment recovery.
   Current plans are to complete this automation initiative by the end of fiscal year 2013 with
   similar enhancements to RUIA and Medicare overpayment recovery to follow during fiscal
   year 2014.

Authentication and Medical Necessity: Very few of the agency’s improper payments fall into
this category. There are no planned corrective/preventative actions.

Verification and Local Administration: These errors result from changes coming from
outside the agency, particularly changes in the beneficiary’s status which affect entitlement or
eligibility either temporarily or permanently, and changes in service and compensation typically
due to work. Our challenge is to obtain the information and process it as quickly as possible.

The initiatives to minimize this specific group of improper payments are:
		 The RESCUE (Recalculate for Service and Compensation Updated to EDMA) system
    evaluates employer-reported changes to employee service and compensation records and
    adjusts annuities, if needed. RESCUE was implemented in fiscal year 2006 and evaluated
    record changes posted in January 2006. In fiscal year 2007, the system evaluated
    adjustments posted prior to January 2006 and identified specific RRA improper
    underpayments and paid out additional benefits due, resolving many of the improper
    payments that were included in previous years’ estimates. However, a significant manual
    workload resulted from this initiative. As of September 30, 2012, 11,217 of these referrals
    (9,088 for active cases and 2,129 for terminated cases) were on hand. These backlogged
    cases are handled whenever any other work needs to be done on the case. RESCUE
    referrals are also processed using overtime funds as resources permit.
		 RESCUE is currently run several times a year so that annuity adjustments for service and
    compensation changes are made timely and properly for those records that can be handled
    automatically. Those that cannot be processed by RESCUE are referred for manual
    handling and are included in the current workload. As of September 30, 2012, there were
    8,707 of these current referrals.
		 SPEED (System Processing Excess Earnings Data) is an automation initiative designed to
    process post-entitlement annuity adjustments in both retirement and survivor cases that
    result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
    payments for earnings on a timely basis, which minimizes underpayments or overpayments
    that may result from changes in earnings. SPEED is being built in a multi-phase approach.
    The first five phases of this initiative automated the handling of survivor temporary work
    deductions and year-end actions and annuity adjustments when regular and/or Last Person
    Earnings (LPE) work deductions are removed due to cease work reports. During FY 2013
    we will automate the download of current survivor earnings estimates from the Survivor
    Payments System (SURPASS) to perform the necessary survivor annuity adjustments and
    notifications. In a future phase we plan to automate the process to initiate LPE and regular
    temporary work deductions in response to earnings estimates from retirement beneficiaries
    which will support our long range plan of automating permanent work deductions for both
    retirement and survivor beneficiaries.
		 Electronic Data Processing (EDP Policing) Enhancements – This project will address the
    internal handling and mechanical matching of earnings information received from our data



                                             - 120 -

   match with the Social Security Administration. We completed the first phase of the project,
   which involved the automation and capture of earnings information stored on the Retirement
   On-Line Calculations (ROC) system, an on-line system for calculating and paying retirement
   annuities. Work continues on updating the LPE process to capture the latest monthly
   earnings and average monthly earnings amounts. The information will be used in the EDP
   process to monitor earnings information, eliminate redundant information, and reduce the
   number of records referred to the claims adjudication units.

The root causes of error in the RUIA program are summarized according to OMB’s root causes
in the table below.

           Root Cause of Error               Estimated Rate          Estimated Amount
   Administrative and Documentation                38%                     $1,758,155
   Authentication and Medical Necessity             0%                               0
   Verification and Local Administration           62%                    $ 2,912,345
   Total                                         100%                      $4,670,500

The program integrity effort over the RUIA benefit payments is already at a very high level,
keeping RUIA improper payments relatively low. The Office of Programs has convened an
inter-bureau project team to discuss additional ways of identifying and minimizing improper
RUIA payments.

As noted in section I, there was an increase in RUIA improper payments in last year’s analysis.
Our analysis this year found a significant decrease in improper payments. We continue to
believe the RUIA improper payment rate will gradually return to its previous low level. Based on
an analysis of historical trends and current available data we incrementally reduced our
projected percentage of improper payments for the RUIA program.

Some of the RUIA improper payments can be attributed to the delay in our State wage matches.
This delay could be reduced if the RRB had access to the National Directory of New Hires
(NDNH). We believe using this database could be very beneficial, allowing us to obtain
additional information not available through our current matching programs with the States and
to obtain it in a timely manner. Using the NDNH would also provide a streamlined
administrative process utilizing only one contract and electronic data transmission with NDNH
rather than maintaining separate matching agreements and conducting separate data
transmissions with all 50 States, D.C., and Puerto Rico. However, at this time, the RRB does
not have legal authority to access the database and the administrative costs of participating in
that program are prohibitive. Making this database accessible to all agencies would greatly
improve our detection and prevention of RUIA improper payments.

b. Grant-making agencies with risk-susceptible grant programs shall briefly discuss what
the agency has accomplished in the area of funds stewardship past the primary recipient.
Discussion shall include the status of projects and results of any reviews.

Not applicable to RRB.




                                             - 121 -

IV.     a) and b) Program improper payment reporting.

The table below is required for each reporting agency.

                Improper Payment (IP) Reduction Outlook FY 2011 – FY 2016
                                        ($ in millions)

                 FY 11                          FY 12                            FY 13
                            FY 11   FY 11                    FY 12   FY 12                  FY 13   FY 13
  Program      $ Outlays                      $ Outlays                        $ Outlays
                            IP %     IP $                    IP %     IP $                  IP %     IP $
                (actual)                       (actual)                       (estimated)


 RRA
               $10,946.5    0.59%    $65.6   $ 11,347.3      0.54%   $ 61.8   $11,676.3     0.54%   $63.1


 RUIA            $129       7.2%     $9.3      $119.2        3.9%    $4.6       $123.8      3.5%    $4.3


                 FY 14                          FY 15                            FY 16
                            FY 14   FY 14                    FY 15   FY 15                  FY16    FY 16
  Program      $ Outlays                      $ Outlays                        $ Outlays
                            IP %     IP $                    IP %     IP $                  IP %     IP $
              (estimated)                    (estimated)                      (estimated)

 RRA           $12,016.0    0.54%    $64.9    $12,365.3      0.54%   $66.8    $12,708.4     0.54%   $68.6

 RUIA           $132.1      3.5%     $4.6      $130.3        3.0%    $3.9       $130.3      2.5%    $3.3


      Note: The absolute value of the overpaid and underpaid dollars and the rates is shown—the figures
      are not netted.

At the time this report was prepared, the latest actual data available was for fiscal year 2012
(shown in bold in the chart).

For fiscal year 2012, RRA actual overpayments were $45,904,969 and actual underpayments
were $15,920,145.

RUIA actual overpayments were $3,621,008 and actual underpayments were $1,049,492.

The estimates for fiscal year 2013 through 2016 are based on the December 2012 OMB budget
review estimates.


V.     Recapture of Improper Payments Reporting.

a. An agency shall discuss payment recapture audit (or recovery auditing) efforts, if
applicable. The discussion should describe: the agency’s payment recapture audit
program; the actions and methods used by the agency to recoup overpayments; a
justification of any overpayments that have been determined not to be collectable; and any
conditions giving rise to improper payments and how those conditions are being resolved
(e.g., the business process changes and internal controls instituted and/or strengthened to
prevent further occurrences). If the agency has excluded any programs or activities from
review under its payment recapture auditing program (including any programs or activities
where the agency has determined a payment recapture audit program is not cost-effective),
the agency should list those programs and activities excluded from the review, as well as the
justification for doing so (i.e., a discussion of the analysis conducted to determine that a



                                                  - 122 -

payment recapture audit program would not be cost-effective). Include in your discussion
the dollar amount of cumulative recoveries collected beginning with FY 2004.

The RRB has a robust, multi-faceted review process in place that is an effective approach for
evaluating payment accuracy in the RRA and RUIA programs and identifying and preventing
improper payments. Taken as a whole, our full range of current activities constitutes an
effective alternative to a formal payment recapture program. However, despite all the agency’s
best efforts to prevent improper payments, some will always occur, due to lack of timely
information, etc. In overpayment situations, the agency is diligent in its recovery efforts.

The RRB’s account receivable balance for the RRA program at the end of fiscal year 2012 was
$49,300,289. This balance includes debts classified as currently not collectible. We estimate
that approximately 76.5 percent of the RRA receivable balance will be collected and that the
remaining 23.5 percent of the RRA debt will eventually be closed as uncollectible. For the
period of fiscal years 2004 through 2012, the RRB recovered $356,771,182 in RRA program
receivables.

The RRB’s account receivable balance for the RUIA program at the end of fiscal year 2012 was
$15,117,512. This balance includes debts classified as currently not collectible. We estimate
that approximately 70.1 percent of the RUIA receivable balance will be collected and
29.9 percent will eventually be closed as uncollectible. It should be noted that uncollectible
RUIA debts may be reinstated for recovery by offset when a debtor files an application for
retirement benefits. For the period of fiscal years 2004 through 2012, the RRB recovered
$297,032,091 in RUIA program receivables.

The RRB’s collection program is in full compliance with the Debt Collection Improvement Act of
1996. Recoveries are made through offset of benefits, reclamation and return of erroneous
benefit payments, and direct payment from debtors. Fraudulent payments are referred to the
OIG for prosecution through the Department of Justice. Delinquent accounts are referred to
Treasury for cross-servicing and offset of Federal payments.

d.        Table 6

                   Overpayments Recaptured Outside of Payment Recapture Audits
                                           ($ in millions)

                                                                                         Cumulative       Cumulative
                                       Amount       Amount      Amount       Amount
                                                                                           Amount           Amount
       Agency Source                  Identified   Recovered   Identified   Recovered
                                                                                          Identified      Recovered
                                        FY 12*      FY 12**      FY 11*      FY 11**
                                                                                        FY 04 - FY 12*   FY 04 - FY12**
Various, including post
payment quality reviews,
special evaluations, OIG       RRA
                                       $42.6         $40.9        $49.2       $43.0        $402.9           $356.8
reviews/audits, reports from
the public, monitoring
programs, and agency-
identified errors. No          RUIA
breakdown between these                $28.9         $29.3        $36.1       $30.3        $303.6           $297.0
sources is available.


*Amounts limited to established overpayments for fiscal year(s) identified.

**Recoveries include debts established prior to fiscal year(s) identified.




                                                        - 123 -
VI. Accountability. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the steps the agency has taken and plans to
take (including timeline) to ensure that agency managers, accountable officers (including the
agency head), programs, and States and localities (where appropriate) are held accountable
for reducing and recovering improper payments. Specifically, they should be held
accountable for meeting applicable improper payments reduction targets and establishing
and maintaining sufficient internal controls (including an appropriate control environment)
that effectively prevents improper payments from being made and promptly detects and
recovers any improper payments that are made.

Paying benefits accurately and timely, and providing prudent stewardship over agency trust
funds are the agency’s two strategic goals. Agency managers have links to those goals in their
performance plans. In addition, we have two goals, one aimed at minimizing improper
payments and the other focused on maximizing recovery efforts, in our fiscal year 2013
performance plan.


VII.   Agency information systems and other infrastructure.

a. Describe whether the agency has the internal controls, human capital, and information
systems and other infrastructure it needs to reduce improper payments to the levels the
agency has targeted.

The agency has established effective internal controls aimed at minimizing improper payments.

Although the agency has limited staff and expects further attrition of experienced personnel, the
RRB has been able to meet the challenge of minimizing improper payments for both the RRA
and RUIA programs. Neither benefit program has “significant” improper payments as defined by
law.

In order to prevent and reduce the already low levels of improper payments the RRA and RUIA
program generates, information systems need to be developed or modified as described in the
project initiatives discussed in section III.a above.

b. If the agency does not have such internal controls, human capital, and information
systems and other infrastructure, describe the resources the agency requested in its most
recent budget submission to Congress to establish and maintain the necessary internal
controls, human capital, and information systems and other infrastructure.

The System Modernization project is a multi-year effort to modernize the agency’s automation
systems. When complete, it will contribute to achieving the agency’s target information
technology architecture, and will help the agency meet its performance goals, including
improved accuracy of benefit payments and stewardship of the trust funds. Due to fiscal
funding constraints, the agency last requested funding specifically for its System Modernization
project in 2012. However, work has continued using internal resources on internal software
improvement projects. Modernization will help reduce data redundancy, improve IT productivity,
reduce development time, improve processing accuracy and speed, and transition our
computing environment to more modern technology platform and methodologies.




                                             - 124 -

In addition, information technology infrastructure provides a critical foundation for the agency’s
mission and business processes. This includes desktops, notebooks, servers, storage, printers,
routers, scanners and other significant components. The agency has a long-term strategic goal
to systematically replace all IT components according to industry standards in order to provide a
stable technology environment. As funding is made available, IT equipment at its headquarters
facility and field offices is replaced in accordance with the agency’s IT Equipment Replacement
Policy. This ensures that the agency will provide the most efficient, reliable and secure services
to its customers.


VIII. Barriers. Describe any statutory or regulatory barriers, which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

None.


IX. Additional Comments. Discuss any additional comments, if any, on overall agency
efforts, specific programs, best practices, or common challenges identified, as a result of
IPERA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. However, system limitations, the continued loss of
experienced staff and long lead time to hire and train staff to handle complicated manual work
present an ongoing challenge to making further significant reductions in the levels of improper
RRA payments. The agency hopes to be able to maintain adequate staffing so that it can
continue this important effort.




                                             - 125 -

 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                                  Disclaimer
Restatement                                                       No

     Material Weaknesses                Beginning           New           Resolved       Consolidated      Ending
                                         Balance                                                           Balance
Information Technology Security
– Risk Management Framework                   1                                                              1
Information Technology Security
– Configuration Management*                   1                                                              1
Budgetary Reporting**                         1                                 1                            0

Total Material Weaknesses                     3                                                              2


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

      Material Weaknesses            Beginning       New       Resolved        Consolidated   Reassessed    Ending
                                      Balance                                                               Balance
Information Technology Security
– Risk Management Framework               1                                                                      1
Information Technology Security
– Configuration Management*               1                                                                      1
Budgetary Reporting**                     1                        1                                             0

Total Material Weaknesses                 3                                                                      2


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




 * Formerly referred to as Information Security – Applications and Services.
 ** Downgraded to a significant deficiency.




                                                        - 126 -
APPENDICES
PAGE INTENTIONALLY LEFT BLANK 

                                   Appendices

Glossary of Acronyms and Abbreviations


A

AABR                       Average Account Benefits Ratio
ABR                        Account Benefits Ratio
ACSI                       American Customer Satisfaction Index
ARRA                       American Recovery and Reinvestment Act of 2009

B

BPD                        Bureau of the Public Debt

C

CGI                        Consultants to Government and Industry
CMS                        Centers for Medicare & Medicaid Services
CNC                        Currently Not Collectible

D

DBP Account                Dual Benefits Payments Account
DOL                        Department of Labor

E

EDMA                       Employment Data Maintenance
ERP                        Economic Recovery Payments
ERS                        Employer Reporting System

F

FACTS II                   Federal Agencies’ Centralized Trial-Balance System
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FISMA                      Federal Information Security Management Act
FMFIA                      Federal Managers’ Financial Integrity Act
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance

G

GPRA                       Government Performance and Results Act




                                         - 129 -
I

IPERA           Improper Payments Elimination and Recovery Act
IPIA            Improper Payments Information Act
IRMAA           Income-Related Monthly Adjustment Amount
IRS             Internal Revenue Service
IT              Information Technology
IVR             Interactive Voice Response

L

LAN             Local Area Network
LPE             Last Pre-retirement Non-Railroad Employer

M

MCRC 	          Management Control Review Committee
MMA 	           Medicare Prescription Drug, Improvement and Modernization
                Act of 2003

N

NRRIT		         National Railroad Retirement Investment Trust

O

OIG             Office of Inspector General
OMB             Office of Management and Budget
OPM             Office of Personnel Management

P

P&AR            Performance and Accountability Report
PII             Personally Identifiable Information
POA&M           Plan of Action and Milestones

R

RESCUE 	         Recalculate for Service and Compensation Updated to EDMA
RR              	Railroad Retirement
RRA 	            Railroad Retirement Act
RR Account 	     Railroad Retirement Account
RRB 	            Railroad Retirement Board
RRSIA 	          Railroad Retirement and Survivors’ Improvement
                 Act of 2001
RUI		            Railroad Unemployment Insurance
RUIA 	           Railroad Unemployment Insurance Act
RUI Account 	    Railroad Unemployment Insurance Account




                            - 130 -
S

SFFAS      Statement of Federal Financial Accounting Standards
SI         Sickness Insurance
SPEED      System Processing Excess Earnings Data
SSA        Social Security Administration
SSEB       Social Security Equivalent Benefit
SSP        Shared Service Provider

T

Treasury   Department of the Treasury
Trust      National Railroad Retirement Investment Trust

U

UI         Unemployment Insurance
USC        United States Code
USPS       United States Postal Service

V

VoIP       Voice over Internet Protocol

W

WHBAA      Worker, Homeownership, and Business Assistance Act of 2009




                       - 131 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              Walter A. Barrows
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Chief Financial Officer/Senior            George V. Govan
          Executive Officer
        Chief Actuary                             Frank J. Buzzi
        Chief Information Officer                 Ram Murthy
        Director of Administration                Keith B. Earley
        Director of Field Service                 Daniel J. Fadden
        Director of Programs                      Martha M. Barringer
        General Counsel                           Karl T. Blank




                                      - 132 -
For additional copies of this report, please contact:
         Railroad Retirement Board
         Bureau of Fiscal Operations
         844 North Rush Street, 5th Floor
         Chicago, Illinois 60611-2092
         Telephone: (312) 751-4590
         Fax: 312-751-7171
         Available on the Internet at: www.rrb.gov
